<html>
<title> - TRANSPORTATION CHALLENGES AND SOLUTIONS IN THE SOUTHWEST WASHINGTON/ PORTLAND METROPOLITAN REGION</title>
<body><pre>[Senate Hearing 108-212]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-212
 
  TRANSPORTATION CHALLENGES AND SOLUTIONS IN THE SOUTHWEST WASHINGTON/
                      PORTLAND METROPOLITAN REGION
=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                     AUGUST 13, 2003--VANCOUVER, WA

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______









                       U.S. GOVERNMENT PRINTING OFFICE
90-576                     WASHINGTON : 2003
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
                    James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

 Subcommittee on Transportation, Treasury and General Government, and 
                            Related Agencies

                  RICHARD C. SHELBY, Alabama, Chairman
ARLEN SPECTER, Pennsylvania          PATTY MURRAY, Washington
CHRISTOPHER S. BOND, Missouri        ROBERT C. BYRD, West Virginia
ROBERT F. BENNETT, Utah              BARBARA A. MIKULSKI, Maryland
BEN NIGHTHORSE CAMPBELL, Colorado    HARRY REID, Nevada
KAY BAILEY HUTCHISON, Texas          HERB KOHL, Wisconsin
MIKE DeWINE, Ohio                    RICHARD J. DURBIN, Illinois
SAM BROWNBACK, Kansas                BYRON L. DORGAN, North Dakota
                           Professional Staff
                              Paul Doerrer
                             Shannon Hines
                              Lula Edwards
                        Peter Rogoff (Minority)
                        Kate Hallahan (Minority)
                   Diana Gourlay Hamilton (Minority)

                         Administrative Support
                     Meaghan L. McCarthy (Minority)















                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Patty Murray........................     1
Statement of Senator Mark O. Hatfield, Former U.S. Senator From 
  Oregon.........................................................     4
    Prepared Statement...........................................     9
Statement of Donald Wagner, Regional Administrator, Southwest 
  Regional Washington Department of Transportation...............    11
    Prepared Statement...........................................    14
Statement of Bruce Warner, Director, Oregon Department of 
  Transportation.................................................    18
    Prepared Statement...........................................    21
Statement of Craig A. Pridemore, Chair, Clark County Board of 
  Commissioners and President, Southwest Washington Regional 
  Transportation Council, Washington.............................    26
    Prepared Statement...........................................    28
Statement of Royce Pollard, Mayor of Vancouver, Washington and 
  Board for the Southwest Washington Regional Transportation 
  Council, Washington............................................    30
    Prepared Statement...........................................    32
Statement of Fred Hansen, General Manager, Tri-County 
  Metropolitan Transportation District (TRI-MET), Portland, 
  Oregon.........................................................    33
    Prepared Statement...........................................    36
Statement of Joseph Kalinowski, Director of Facilities, WaferTech    42
    Prepared Statement...........................................    43
Statement of Phillip Parker, Chairman, Southwest Washington Labor 
  Roundtable.....................................................    44
    Prepared Statement...........................................    46
Statement of Glenn Vanselow, Executive Director, Pacific 
  Northwest Waterways Association................................    47
    Prepared Statement...........................................    48
Statement of Tom Zelenka, Chairman, Oregon Freight Advisory 
  Committee and Chair, Transportation Committee, Pacific 
  Northwest International Trade Association......................    50
    Prepared Statement...........................................    52
Prepared Statement of Lynne Griffith, Executive Director/CEO, 
  Clark County Public Transportation Benefit Area Authority (C-
  TRAN)..........................................................    59
Prepared Statement of Steve Clark, Chairman, Portland Business 
  Alliance Transportation Committee, and Gary Cardwell, Chairman, 
  Pacific Northwest International Trade Association..............    60
Prepared Statement of the Transportation Investment Task Force...    62
Letter From Jim Howell...........................................    69













  TRANSPORTATION CHALLENGES AND SOLUTIONS IN THE SOUTHWEST WASHINGTON/
                      PORTLAND METROPOLITAN REGION

                              ----------                              


                       WEDNESDAY, AUGUST 13, 2003

                           U.S. Senate,    
  Subcommittee on Transportation, Treasury 
                                        and
          General Government, and Related Agencies,
                               Committee on Appropriations,
                                                     Vancouver, WA.
    The subcommittee met at 10 a.m., at the Public Services 
Building, 1300 Franklin Street, Vancouver, Washington, Hon. 
Patty Murray presiding.
    Present: Senator Murray.


               opening statement of senator patty murray


    Senator Murray. Good morning, if we can have everyone come 
in and sit down. We want to have this committee hearing 
started.
    This committee hearing is called to order. And I want to 
say good morning. Welcome all of you. I'm delighted to have so 
many people here who are interested in the topic of 
transportation.
    I've called this field hearing this morning of the Senate 
Appropriations Subcommittee on Transportation, Treasury and 
General Government to bring together the stakeholders to 
address the important transportation problems that are 
affecting the Southwest Washington/Portland Metropolitan 
region. Today, in this hearing we will examine current and 
future transportation challenges and how our solutions can 
improve the economy, our safety, and our quality of life.
    This morning we're going to be hearing from elected 
officials, regional representatives, along with labor and 
business interests. So I want to thank all of the participants 
who are here and the witnesses for their testimony today. We, 
unfortunately, could not accommodate all of the leaders who 
wanted to be here today to testify but we certainly do want 
input from anyone who would like to share their thoughts with 
us.
    So I will be keeping this committee record open of this 
hearing for 15 days. And I know several groups and individuals, 
including C-Tran, have additional opinions that they want 
included in the committee record. So if anyone would like to 
submit a statement or comments as part of these proceedings, 
please give them to my staff, Kate Hallahan is one side, Dale 
Learn on the other. Make sure they get your comments. And 
again, the record will be open for 15 days for any additional 
comments from anyone.
    I especially today want to thank Senator Mark Hatfield, who 
is the former Chairman of the Full Appropriations Committee and 
the Transportation Subcommittee, for taking time out of his 
schedule to be with us today and to testify. I think all of us 
know that Senator Hatfield is uniquely qualified to speak to 
this region's transportation infrastructure. We have many 
transportation assets here, and, frankly, most of them are the 
products of Senator Hatfield's work. Whether it's the Columbia 
River system or Portland's nationally recognized light rail 
system, these economic assets are truly a legacy of his 
tremendous work. Senator Hatfield worked to bring people 
together to address the current needs and plans for the future. 
And we've all benefitted from his wise approach and it's one 
that I hope that we can follow today.
    Let me begin by putting this hearing in context. Next month 
in September in Washington, DC I will help write the Senate's 
transportation appropriations bill. I'm going to use what I 
learn here today to make sure that what we do in the Senate 
reflects the needs and priorities here on the ground. We should 
all recognize that it will not be possible to fund every 
request. In fact, the budget allocation for my subcommittee is 
already $300 million below what the President has requested. 
And because resources are so limited, I want to ensure that 
whatever we do, we are meeting the region's highest 
transportation priorities. The information that we gather today 
will help me and the subcommittee assemble the Senate's 
transportation budget for fiscal year 2004. In addition to the 
appropriations bill, in the very near future, Congress is going 
to update the 6-year Surface Transportation Reauthorization 
Act, known as TEA-21.
    I will be working on that along with Representatives Baird, 
Blumenauer and DeFazio who are all on the House Transportation 
and Infrastructure Committee and this region's Senator Ron 
Wyden, who sits on the highway authorizing committee, along 
with Senator Gordon Smith from Oregon. Again, I want to ensure 
that those Federal efforts meet the needs here from this 
community. So please know that whether you're testifying today 
or you're submitting your comments next week, your input will 
help develop this transportation bill that's responsive to the 
needs of this region.
    Let me highlight for all of us a few of the challenges that 
we are going to examine today and touch on a few proposals. The 
Southwest Washington/Portland Metropolitan region has grown at 
a tremendous rate. Today 1.9 million people live here, but that 
number is expected to grow to 2.4 million by the year 2020. 
That growth is already straining the region's transportation 
infrastructure. If we do not improve this infrastructure soon 
we are going to see increased congestion across all modes of 
transportation. That will have a painful impact on the region's 
economy, productivity and quality of life. Unless we act, the 
price of goods and services will increase and we could lose 
jobs.
    This region is one of the Nation's most trade dependent and 
that reliance on trade is increasing. For example, we expect 
import/export freight tonnage to increase 123 percent by 2020. 
Domestic freight tonnage will increase by 76 percent. Currently 
Oregon and Washington export $45 billion in products every 
year. As a percentage of our region's economy, that is about 
twice the national average. Of course, the region has several 
major deep-water seaports, a large international airport, 
significant upriver barging on the Columbia River, two 
transcontinental rail lines and extensive industrial space.
    Overall, there is enormous potential for growth and for 
economic development. However, without significant planning and 
investment, the already congested freeways, rail lines, 
seaports, and airports will become even more backed up. For 
example, on the I-5 Columbia River corridor we can expect 
vehicle traffic to increase by 44 percent by 2020. Unless we 
act the peak congestion period which today lasts 4 hours will 
expand to 10 hours. Truck routes on I-5 corridor would see the 
annual vehicle hours of delay soar by 93 percent. We would see 
similar congestion problems at our seaports, at our rail yards 
and other important highways like I-205, and the impact would 
extend far beyond the region itself.
    This area is home to some of the Nation's most significant 
lumber, wood, and paper industries. Six Washington and Oregon 
counties ranked among the top ten wheat growing counties in the 
entire Nation. They rely on safe, reliable, and efficient rail 
and barge transportation. We know that the world's grain 
markets are extremely competitive. If the rail links to our 
Columbia River ports are not efficient, then American growers 
will lose out.
    Other important industries in the region depend on 
reliable, efficient transportation such as farm and food 
products, distribution and warehousing and hi-tech companies. 
Intel, for example, is one of the world's largest microchip 
manufacturers, and is Oregon's largest private employer. 
Without a cost effective means of shipping their products to 
PDX, costs would increase and we could lose jobs.
    So in every transportation mode and every regional industry 
we've got to take the right steps now to address this coming 
growth and that is why we're holding this hearing today in 
Vancouver. Wise transportation investments will improve our 
economy, our productivity, and our quality of life.
    Before I turn to our first witness, I want to note that we 
do have a very strong partnership and record of success that we 
can build on. This region and the two States are already taking 
innovative steps to deal with congestion, which I look forward 
to learning more about today. The two State departments of 
transportation, local and regionally elected officials, 
planning organizations, business, labor on both sides of our 
river have come together to analyze, discuss, and plan our 
regional transportation solutions. The Federal Government will 
be a partner in helping the Southwest Washington-Portland 
Metropolitan region.
    As the former chairman and now ranking member of the 
subcommittee, I've been very proud to fund projects on both 
sides of this river. Many of you worked on the I-5 Columbia 
River Corridor Improvement Study. It received over $7 million 
in Federal funding. Several highway projects on I-205, I-5 and 
the roads feeding these highways have received Federal 
earmarks. Transit projects run by C-Tran and Tri-Met have 
received funding. In fact, the interstate MAX light rail system 
has received over $130 million over the last 2 years. Portland 
International, the seaports and other marine safety programs 
have also received support from my subcommittee recently.
    So we do have a record of progress to build on today. And I 
especially today want to thank and praise the work of our State 
governments. Despite extremely tight budget periods for both of 
our States, they have stepped up to the plate and dedicated 
billions of dollars to infrastructure improvements. I want to 
end by saying that everyone in this room has a role to play in 
improving the economic viability and the livability of this 
region, and I am looking forward to working with all of you.
    With that, I want to welcome our first panelist, Senator 
Hatfield, if you want to come up to the witness table. Senator 
Hatfield, it is really an honor to have you here. I should say 
Mr. Chairman. That's how I needed to address him in Washington, 
DC when he was there, Mr. Chairman. He is the former chairman 
of the full Senate Appropriations Committee and the 
Transportation Subcommittee that I'm now ranking member on. And 
I know that his tremendous experience and his understanding is 
going to be very helpful to our work. His wisdom and his 
insight on how this region has solved difficult issues in the 
past I think will help set the right stage today.
    So, Senator Hatfield, thank you so much for joining us. We 
look forward to your testimony and appreciate you very much for 
being here today. Senator Hatfield.
STATEMENT OF SENATOR MARK O. HATFIELD, FORMER U.S. 
            SENATOR FROM OREGON
    Senator Hatfield. Thank you, Senator Murray. Senator 
Murray, I'm going to just put my testimony in the record as if 
given and proceed to highlight. And when I heard that from 
witnesses in the past I used to cringe because they usually 
took longer if they would have just stopped and read it instead 
of just ad-libbing their highlights.
    Senator Murray. That's his first piece of advice for us.
    Senator Hatfield. I'm delighted to be here with you in this 
role. I'm glad you mentioned the kind of collaboration and the 
kind of support, working relationships you have with our Oregon 
delegation and relating to our Oregon projects. Which reminds 
me of a little incident, to illustrate this matter of 
regionalism. In 1980, Senator Warren Magnuson had asked me to 
come to Seattle to deliver a farewell address as he was leaving 
the Senate after many years of great service. And I told a 
story that Senator Magnuson, when I went on the Appropriations 
Committee as a junior member, took me aside and explained to me 
that there was a very basic principal that he liked to exercise 
on the Appropriations Committee, and that is, ``What is good 
for Washington is good for Oregon.'' Then he would proceed to 
allocate and he'd say, ``One for you and two for me.''
    So in the Seattle speech I recall the fact that whatever I 
knew because I was going to succeed Senator Magnuson as the 
chairman of the Appropriations Committee that year of 1980 was 
the switch in the party's control of the Senate, I said I have 
learned from the master. I've been at the feet of the master, 
Senator Warren Magnuson. And so, therefore, I'm going to take 
his cue from years of experience and just remind the folk of 
Seattle and Washington, ``That what is good for Oregon is good 
for Washington.'' ``Two for me and one for you'' to kind of 
catch up.
    If I had a simple theme today to share with you it would be 
that with seniority, moving back and forth across borders and 
so forth, that the necessity today is even greater than in the 
past, perhaps, to understand that we have to work, collaborate, 
cooperate and plan together for the Great Northwest. We have a 
$350 billion economy between our two States and over 5 million 
people that are employed in that economy. And with the economy, 
as it is today, it's all the more reason we pay attention to 
what impacts on our economy of the Northwest. But there are 
other things that draw us together in the Northwest far beyond 
just the political cooperation that we can exhibit, and that is 
we are tied together in an energy sense by the Bonneville Power 
Administration, and we also are tied together in even the Ninth 
Circuit Court of Appeals being a part of this Great Northwest. 
I mention that because sometimes we have not really understood 
the necessity of working together.
    I recall just a moment of Oregon history. We became a State 
in 1859. Washington State and Montana together did not become 
States until 30 years later in 1889. Idaho another year, 1890. 
Now, in the meantime, Portland really felt pretty smug about 
the fact that it was the center of the Northwest, population, 
economics. We had two rail heads tying this country together 
east/west before Seattle had one. We had the river as almost a 
monopoly of transportation and moving the goods, services and 
so forth. We had the coastal transportation from California, 
the whole access was San Francisco, Portland. And so, 
consequently, the Portland business community and political 
people and others began to feel, you know, that's a nice 
country up there in the territory of Washington, but we're the 
State. We're the one that has the center of commerce, and 
particularly transportation. And we had worked hard for that 
because we found that New York bankers weren't interested in 
funding our rail program out here north/south, or our river 
program, or our coastal programs of water transportation. And 
we finally found the funding out of the German bankers in 
Germany. But we had reached out to the international world to 
show the importance of this area of the world to them to cause 
them to want to invest in transportation.
    I only mention that to illustrate how easy it is to feel 
like the world centers around even within our States. We face 
today, like most States, an urban/rural division. If you take 
the politics, you take the economics, it's centered in a tri-
county area of Oregon, as far as the State of Oregon is 
concerned, Washington County, Multnomah County, and Clackamas 
County population. I suppose you could say three-fourths of the 
population that votes is in Eugene to Portland, under 25, one 
valley out of the whole State of Oregon. And the people of 
Eastern Oregon really understand that. As a consequence, this 
transportation that we talk about in the I-5, in the river, and 
all the other transportation, air, is really a unifying factor 
if we want to look at it that way. What good is the Port of 
Portland if it doesn't have the products to ship out, and those 
products come from Eastern Oregon. What good is it to raise the 
products in Eastern Oregon if they don't have an access to the 
market.
    So as Senator Smith has often said that the river unites 
and the mountains divide, but it's all the more important for 
us to understand that we have a unit called State of Oregon, 
and a unit called the State of Washington and we'd better start 
looking at how we make all of those people within our 
respective States feel a part of the whole. And as we do that 
within the State and then as between the States, and our 
governors having the bi-State committee of planning and all 
these other wonderful organizations that have shown the ability 
to cross the borders and work together. Even our great Columbia 
River Gorge with it's bi-State commission. We see there again 
the opportunity to unite the region.
    I think one other thing I would like to mention about this, 
is that when there was a great dependence upon the mid-Western 
wheat and other grains going down the Mississippi River, out 
through the mouth, down through the canal, out through the 
oceans to Asia because there were not competitive rail rates to 
bring that grain west and out the mouth of the Columbia River.
    And as this delegation of Oregon and Washington and Idaho 
and Montana working together putting the pressure on the rails 
to get competitive rail rates, we find that this so-called 
transportation goes beyond even Oregon, Washington, Idaho, 
Montana. It goes into the Dakotas, it goes into Minnesota and 
all of the mid-Western States that export grains and other 
commodities. We're seeing an increasing dependence upon that 
part of the country to get their products out into the markets, 
particularly of Asia. Japan being our largest trading partner.
    So again, I just want to emphasize that in 1981 when I did 
become the chairman of the Appropriations Committee, I invited 
the northwestern States to put together in a collaborative 
planned way what we needed to do in transportation to enhance 
the transportation, to make it grow, to make it a vital part of 
the world picture of trade. And that was also an opportunity to 
demonstrate that Senator Magnuson, who had set this very 
carefully crafted program of being as much an expert on Oregon 
needs as he was on Washington needs, that I, too, must become a 
chairman that had concern as much for the needs of Washington 
State, Idaho, Montana, this great region that is united by the 
Columbia River.
    I think also it is of an international import as well in 
the sense that we are providing for our country one of the very 
prosperous ports and when you look at balance of trade picture, 
it is not too happy a picture. And we'd better realize that we 
can be then contributing to the national and international 
economics.
    I don't see this as a pork-barrel program as oftentimes our 
critics have mentioned that the appropriators are pork 
barrellers. Used to say ``it's not pork it's beef. It's much 
better than pork.'' But anyway, I'm just so grateful for your 
leadership in the transportation field. And as I say, I am 
happy to respond to questions. And thank you for giving me more 
than 5 minutes.
    Senator Murray. I would always give you more than 5 
minutes. And again, Mr. Chairman, you just have to understand, 
to me he was Mr. Chairman. I know to you he is Senator, but Mr. 
Chairman, it really is an honor to have you here. And I 
appreciate that broad look at what we need to be doing and why 
it is so important to this region. You've been involved in 
government here and in transportation issues for a long time. 
Can you give us the benefit of how you have seen the 
transportation profile of this region change over the years?
    Senator Hatfield. I could go over a lot of years to tell 
you the answer to that question. Growing up on the railroad, my 
father having been a boxsmith for 42 years and riding a pass, I 
was very much oriented in my life development to the rail, and 
then to the highway, and then to the air and to the water. I 
would say that the things that have changed so much is the 
tremendous growth that's been exploding. It's an explosive 
growth. And as an example, the bridge that unites the two 
States. Let's use that as an example.
    A number of years ago we'd had a couple of shakes, earth 
shakes in the Portland area and you had in the Washington 
State. And we put together a program to do an analysis of 
Portland as it related to seismic character, and we found where 
the weakest parts and the stronger parts. And we found that our 
library, our wonderful public library was in the weakest area. 
And it was the weak construction. And as a consequence we did a 
profile of the City of Portland, and we replaced the library 
through a rebuilding program because of that seismic mapping. 
We also tried to do the I-5 because it is not only a 
vulnerability here in these bridges, but you go down to 
California and beyond, every bridge across those rivers we 
found had to have an analysis. How much could they withstand, 
what do we have to retrofit in order to strengthen them. And I 
think things of that kind become illustrative of the vitality 
of our transportational system, water and highway and rail. But 
we have lost in this program, perhaps, I think too much a 
focus--we haven't put enough focus on rail.
    You remember that under a previous administration there 
were corridors designated by the Secretary of Transportation, 
and we secured out of the cooperation of the delegation from 
Washington State and Oregon, Vancouver, British Columbia to 
Eugene, Oregon, as one of those rail corridors that could be 
upgraded for fast rail, goods and services. And, frankly, as I 
look at the terrain out from our side of the river south we go 
into farmlands, we go into the flatlands. You have much more 
geographic diversity coming from Seattle to Vancouver area, and 
you have much more population. But we have wide open spaces. We 
could have enhanced and really started that fast rail corridor. 
Unfortunately, we didn't. And it seems to me instead of looking 
at more farmland going into more highway expansion--and it may 
be necessary, I'm not making a judgment--I'm just saying if I 
had my druthers, if I had my pick, I would say enhance the rail 
north/south rather than taking more land into the I-5 corridor. 
Nevertheless, we have to look at all options. But those are 
some of the changes and I think that rail still stands out 
there as a potential that we have not fully given our priority 
to and that would be one such.
    I think water is another. Remember, energywise water is the 
most efficient, then comes the rail, and then comes the 
highways, the last, and then the airports. And I think we ought 
to have an energy factor in all of the analyses we make of our 
highway planning. What is the impact requirement of energy in 
those plans, and what are the alternatives? What are the 
options?
    Senator Murray. Very good. And when you were chairman of 
the Transportation Subcommittee, you, like I, received numerous 
requests from all different levels. How much did you encourage 
local decision making and look to those local decisions as you 
made your decisions about what you would fund?
    Senator Hatfield. I think it's like a structure, that's the 
foundation. If we don't have the local support it's going to be 
difficult. As you know in the Appropriations Committee, every 
State has a list of its desires and wants, and therefore when 
we did not have the local support for the north/south rail, 
light rail, we lost out. We could have had the money for that 
on a 75/25 matching basis, not on a 50/50, which it would be 
now. But we incorporated that project as a three-part project, 
west, east--or east, west and then the north/south. We had to 
have Clark County; we had to have the three counties, 
Multnomah, Washington, and Clackamas, but we failed to get that 
support from those local people. Now, that's an illustration in 
my book on how important it is to have those local people. 
That's one example but there are others.
    I think also they have to feel like it's not a gift of the 
Federal Government and which they just have to take what the 
Federal Government has decided. We have competent people. You 
have in this room today far greater experts than I on 
transportation of this area. You have metros, you have light 
rails, you have all of these transportation, inland waterways. 
And these are the real experts, and they are part of that 
local, in my view, local support that is mandatory in order to 
have something succeed in the Appropriations Committee. Because 
we are not going to settle those local arguments in the 
Appropriations Committee. If they can't settle them in their 
own communities, don't come to us because we can just go down 
the list and find some other State that has settled them and 
give the money there instead of trying to force the money. 
Remember we never force the money on any community. It has to 
be with their welcome and the State and the region.
    Senator Murray. Wise words again. We're running out of 
time, but I do want to ask you one important question that I 
think we are all trying to comprehend. You've had many 
successes in projects that you've championed and were able to 
bring funds home for the Portland's Metropolitan MAX light 
rail. I think it's a 39-mile line now that runs and 102 bus 
routes and has a tremendous impact on the region. In looking at 
projects like these now they have such tremendous costs and we 
have a Federal budget that is very difficult to deal with, we 
have State budgets that are extremely tight, local communities 
don't have these funds. Are we going to have to look at 
innovative new ways of funding transportation projects? And, if 
you think so, what ways should we be looking at?
    Senator Hatfield. We always get to the vulgar subject of 
money, don't we. That's our job. Or it was mine. Yours now. I 
would only say I think this is where we have to really prove 
the mathematics. I think we have to prove it, as I said, let's 
use the energy factor. What is the most energy-efficient in our 
projects and have we chosen the most energy-efficient. I think 
we have to realize also that it has to be productive and have a 
cost-benefit ratio like we have in the Corps of Engineers on a 
water project. Cost-benefit ratio. How much does it cost? How 
much revenue is it going to produce? And really figure the fine 
points of money invested, money reproduced, or money as an 
investment returned. And I think sometimes we haven't given 
that care we should have given in order to say, well, we have 
the most cost-effective, we have the most efficient, we have 
the most fundamental as far as producing revenues and returns 
for our investments than they have in Mississippi for that 
particular project. That we in the Northwest, because we grew 
up in an area and we've worked in an area that the Federal 
Government has a very fundamental ownership and we have had the 
water projects that had to prove they're cost effective and 
they cost-benefit ratio, we have all that background, but had 
we applied it in the same vigor that we could have for our 
competitive transportation projects, I'm not sure. I'm not--I 
don't remember that we got into those details because we 
depended a lot more on our status and our seniority to get our 
projects. And it seems to me now that cost is such an important 
factor to be considered for any Federal participation in 
anything. We've got to go back to the drawing board and to the 
math of it and prove our case superior.
    Senator Murray. I would agree. I would just say that we 
have to also take into account regional impacts. When you're 
looking at cost effectiveness it's fairly easy to build a 
system in a landlocked area, and many of our areas where we 
have to do cross water; we have to deal with energy; we have to 
deal with different modes of transportation and water--bodies 
of water that other regions don't. We don't want to get into a 
position where we're being pitted against a city that may be 
able to cheaply put in light rail where it could be very 
expensive because of our geography. But I appreciate your 
words.


                           prepared statement


    Mr. Chairman, I thank you so much for coming today. I thank 
you on behalf of all of us in this region for your tremendous 
legacy and for your willingness to travel here today to share 
with us a few thoughts this morning and I thank you so much.
    Senator Hatfield. Any day you call I respond. Thank you.
    [The statement follows:]
                 Prepared Statement of Mark O. Hatfield
    Thank you Senator Murray for inviting me to participate in this 
morning's discussion about transportation challenges facing the 
Portland-Vancouver region. It is an honor to be back before the 
Committee on which I served for many years. You are a leader on 
transportation issues in the United States Senate and an unyielding 
advocate for the Pacific Northwest. At a time when the Northwest does 
not enjoy the seniority that it once had, we in Oregon appreciate your 
willingness to work with our Senators to support important 
transportation projects throughout the region.
    There are many hard working elected officials and transportation 
experts here today that are far more capable of covering today's topic 
than I am, so I will keep my comments brief. As someone who has dealt 
with transportation issues at the State and Federal level for many 
years, perhaps I can offer a perspective that will be of some interest.
    I'd like to share with you two observations. The first observation 
that I will make is that the Portland-Vancouver region is an intermodal 
hub and international gateway for trade. The second is that the region 
has a long history of using innovation and collaboration to overcome 
transportation challenges.
    We have as a region made progress on many fronts but there is still 
work to be done to finish what was started years ago, and to address 
future needs. I am sure that those transportation leaders who will come 
before this panel today will speak to how they intend to address and 
overcome the transportation challenges we currently face--and I leave 
that work in their good hands.
    The Portland-Vancouver region is an intermodal hub and a gateway to 
international trade. This region is located at the center of a 
transportation crossroad. We sit at the convergence of two interstate 
highways, two Class One Railroads and two major waterways. Like the hub 
of a wheel, this region is connected to other States in the Pacific 
Northwest, the rest of the Nation and overseas markets by 
transportation corridors, or spokes. These corridors move people and 
freight by highway, rail, air and water. Freight and passengers moving 
north/south and east/west pass through this region.
    Not far from where we are meeting today, the Columbia River carries 
grain and other bulk products to and from America's Heartland to our 
ports--our gateways to foreign markets. The main highway connecting 
eastern Oregon farms to markets, Interstate 84 passes through here. Two 
transcontinental railroads, carrying passengers and freight between the 
western States and between the United States and Canada cross the river 
here. The Portland International Airport, which links us to the rest of 
the country and Europe, sits on the bank of the Columbia River. The 
Interstate 5 Corridor, which carries international and national freight 
movements traveling north and south, connects the United States, Canada 
and Mexico, and the communities of Portland and Vancouver.
    Trade is vital to both States' economies. Transportation underpins 
the $350 billion economy of Oregon and Washington and the region's 5.5 
million jobs. Simply put, the economy of our region as well as the 
Pacific Northwest as a whole is dependent on trade. Much of the freight 
traffic upon which the region's economy depends travels through the 
Portland-Vancouver I-5 crossing. Congestion along this shared 
transportation choke point is eroding the reliability of moving goods 
and services in the Pacific Northwest and is reducing the economic well 
being of business and industry.
    To state the obvious--failure to maintain and improve the 
transportation system for moving freight will no doubt result in the 
region's economy becoming less competitive.
    As noted earlier, the region's goods and services also move by ship 
and barge on our waterways. The Columbia River navigation channel is a 
critical piece of the transportation infrastructure. Each year, ocean-
going vessels on the Columbia River transport roughly $13 billion worth 
of U.S. products to world markets (primarily to Asia). Critical to 
sustaining this economic activity is the need for a 40-foot deep 
Columbia River navigation channel.
    Much like highways, railroads, bridges and airports, navigation 
channels must be improved. Deepening the channel is critical to our 
region in order to handle our ever-growing trade demands and enable 
today's modern fleet of deep-draft ships to continue transporting 
imports and exports by way of the Columbia River.
    To further highlight the importance of this effort and how it 
relates to international trade activities and relations--let me quickly 
focus on how this links in with our relationship with Japan.
    Japan is the largest trade partner with the Columbia-Snake River 
region. More than 300 Oregon companies imported or exported cargo to/
from Japan via Port of Portland facilities. In 2002, $7.1 billion worth 
of merchandise was imported from Japan and $2.4 billion was exported to 
Japan via the Columbia-Snake River Customs District.
    The threads that bind us on this project do indeed have local, 
State, national and international significance. As one who has 
participated in this critical discourse over the years, let me now 
thank you for your support of the appropriations necessary to build 
this project.
    Let me now turn to how our region approaches transportation 
challenges. The Portland-Vancouver region has a long history of 
employing innovation and collaboration to overcome transportation 
challenges.
    In 1981 I challenged the State and Region to maintain their 
cooperative and collaborative relationship by clearly identifying 
priorities that could be the focus of the appropriations committee's 
actions. What followed was an exemplary partnership that has identified 
transportation priorities, collaborated on funding, devised both 
innovative projects as well as methods to fund them and that have 
lasted to this day as a model of cooperation and progress. Quickly, let 
me share with you some of the innovative aspects of the Portland 
Region's success in transportation:
    The Banfield Project.--This is not simply a Light Rail Project. The 
$321 million project opened in 1986 was also a complete rebuilding of 
Interstate 84 from the Lloyd Center area all the way to the Gateway 
District's intersection with I-205. In 1982 the Region asked the 
Chairman of this committee for help in declaring the entire undertaking 
a ``Transitway'' under Federal law making it eligible to receive the 
flexible funds authorized by the Interstate Withdrawal program as 
discretionary appropriations under contract with the Federal Transit 
administration (at the time known as UMTA, Urban Mass Transportation 
Administration). This enabled the highway improvements as well as the 
new rail line to be constructed and finished together.
    A recent example of a successful innovative approach is the Airport 
Light Rail project in Portland. This project was a transportation 
innovation from the outset because of its use of private investment 
funds and its non-reliance on the Federal Government for any funds. The 
nearly 6-mile rail line was built with local public money and private 
sector funds.
    The Oregon Department of Transportation quite frankly helped the 
Transit District, TriMet, directly by providing Congestion Management 
Air Quality (CMAQ) funds, which it had at its disposal for the 
district's ongoing bus procurement program. This enabled the District 
to make a sizeable allocation of its funds to the Airport project, and 
to keep that project totally under local control.
    Much of the credit for these successful innovative approaches needs 
to go to the manner in which the State of Oregon through ODOT and the 
State of Washington, through WASHDOT and the local governments in the 
Portland area through METRO cooperate in the functioning of the 
Portland area Metropolitan Planning Organization (MPO). This has become 
a cooperative and deliberative body in which representatives of both 
States and of both Vancouver area and Portland area local governments 
sit.
    Many disagreements, some of them quite intense, surface at this 
body. But its members have truly disciplined themselves to come to 
agreement and to speak with one voice when the decisions are made.
    These are just some of the region's transportation success stories. 
While there are may others, the region also faces many challenges. I 
view two challenges--completing the build out of MAX light rail and 
improving rail service--as finishing what was started. In addition, we 
face the new challenge of ensuring that the Nation's aging 
transportation system can adequately move freight and people in a safe 
and efficient manner. These issues are more than transportation 
challenges, at their very core they are economic in nature. They will 
help define who we are, and chart the course for our future.
    Let me end by saying--and saying it with confidence, that the 
capacity to deal with these many challenges resides in those present in 
this room today.
    Again, Madame Chair and Members of the Committee, thank you for 
this opportunity.

    Senator Murray. Thank you. We will now bring our second 
panel forward. Don Wagner, who is the Regional Administrator 
Southwest Regional Washington Department of Transportation, and 
Bruce Warner, who is the Director of the Oregon Department of 
Transportation. I would just let everyone in the audience know, 
again, of our time constraints this morning. Each of our 
panelists will be given five minutes for their prepared 
remarks. We will then have some Q and A from here, and then 
move to our next panel.
    I will again say for anyone in the audience who hears 
something that they would like to respond to, the record will 
be open so that you can submit your testimony and your comments 
afterwards. But, again, thank you to all of you for 
participating today. We will begin this morning with Mr. 
Wagner. If you want to start with your prepared remarks. Thank 
you.
STATEMENT OF DONALD WAGNER, REGIONAL ADMINISTRATOR, 
            SOUTHWEST REGIONAL WASHINGTON DEPARTMENT OF 
            TRANSPORTATION
    Mr. Wagner. Thank you. Good morning, Senator Murray. I'm 
Don Wagner and I'm the Southwest Regional Administrator for the 
Washington Department of Transportation. I think I will take 
Senator Hatfield's advice and I will read my comments to make 
sure that we get them done timely.
    Thank you for the opportunity to appear before this 
subcommittee to discuss the transportation challenges facing 
the communities of Southwest Washington and the Washington/
Oregon border region, and thank you for your strong interest, 
and past assistance, in addressing our transportation 
challenges.
    Before I begin, I would like to acknowledge Commissioner Ed 
Barnes, a local resident and representative of the Washington 
State Transportation Commission since 1996. He's in the 
audience today. I would also like to thank you for including 
local officials and representatives from the business and labor 
communities, as well as Mr. Bruce Warner, the Director of the 
Oregon Department of Transportation, at this hearing. It is our 
view as it is yours that our region's transportation challenges 
will be best addressed by a broad and collaborative coalition 
of interests.
    This morning I will frame the challenges associated with 
the highway and rail crossings of the Columbia River, while Mr. 
Warner will focus his testimony on the efforts underway to 
address these issues and the opportunities to meet our needs 
and maintain economic prosperity in the region.
    I have three things I would like you to remember from this 
morning's hearing. The Columbia River is both a transportation 
artery and a choke point. Second is today the I-5 corridor has 
inadequate capacity to carry both rail and highway freight. And 
lastly, if this region is going to continue to be relevant in 
world trade we need increased capacity across the river.
    Interstate 5 and other regional Columbia River crossings 
form a multimodal trade corridor of national significance. 
Highway and rail crossings provide critical freight connections 
to the area's major ports for deep water shipping and upriver 
barging. They link two transcontinental rail lines and connect 
much of the region's industrial land.
    I-5 directly serves regional and State economies in Oregon, 
Washington and California. And it is the north/south backbone 
for regional trade. Reliable transportation is key to Pacific 
Northwest's trade dependent character. Oregon and Washington 
export $45 billion in product each year. As a percentage of the 
region's economy this is about twice the national average. In 
fact, Washington is the most trade-oriented State in the 
Nation, and 54 percent of our economy is built on 
transportation intensive industries. About half of the rail 
shipments originating from Seattle/Tacoma area travel south 
through Portland/Vancouver in route to their final destination.
    The geography of the Pacific Northwest defines the regional 
transportation system. The Columbia River deep water ports 
provide access to the West Coast and Pacific Rim. And the 
Columbia/Snake River system provides barge access to the 
agricultural areas in the eastern half of our region. The river 
crossings are strategically important to freight transportation 
locally, regionally and across the Pacific Northwest.
    But the Columbia River is also a barrier to land-based 
transportation and combined with growing congestion, the river 
and its crossings effectively serve as transportation choke 
points.
    As depicted in attachment 1 of the information that I've 
earlier provided, the Portland/Vancouver area has fewer 
crossings than other U.S. metropolitan areas of similar size 
with only two highway bridges and one rail bridge over the 
river. With limited existing bridge capacity, few alternative 
routes and growing travel demand, the crossings are major 
bottlenecks.
    Congestion is the cost of doing business, but the severity 
with which we are experiencing it limits economic 
competitiveness in the global markets and crucial economic 
expansion. It will become a even greater drag on our economy as 
the region grows and travel demands increase. Freight movement 
into and out of our region historically leads to increased 
business and employment growth, but it is sensitive to 
congestion.
    Unfortunately, freight shipping from Southeast and Southern 
Asia is already being rerouted to the East Coast and mid-West 
market distribution points to avoid this West Coast choke 
point.
    Freight rail traffic is disproportionately affected by this 
choke point. The Portland/Vancouver rail network and the 
Columbia rail crossings also are severely congested. This 
network is one of the busiest in the Nation with over 160 
trains moving within and through this region each day. When 
measured in terms of delay per train, rail congestion in the 
Portland/Vancouver area is twice that of Chicago, the Nation's 
largest rail hub.
    One of the causes of this congestion is inadequate river 
crossing capacity. The rail system cannot handle projected 
growth in freight and passenger traffic. Without increased 
capacity worsening congestion will make supply chains less 
reliable, drive up the cost of labor and materials and 
undermine the competitive position of this region and the 
Pacific Northwest businesses. Railroads may not grow at the 
pace of the economy and will shed freights to trucks thereby 
adding to the already congested highway. Efficient freight rail 
helps reduce heavy truck traffic and congestion on the highways 
and provide a competitive shipping option for both regional and 
international farmers and businesses.
    The Washington and Oregon Departments of Transportation 
have analyzed these economic issues in considerable depth. Of 
significant value is the 2003 report by Cambridge Systematics 
entitled Regional Economic Effects of the I-5 Corridor/Columbia 
River Crossing Transportation Choke Points. This report is 
available on ODOT's website and is included in the executive 
summary that I provided to your office.
    For this report, case studies were developed for five 
freight-intensive industries that, combined, comprises greater 
than 30 percent of Washington and Oregon's gross regional 
product, and account for 70 percent of the trucks and 60 
percent of the rail tonnage crossing the Columbia. These five 
industries are natural resource products, transportation 
equipment and steel, farm and food products, high technology 
and distribution and warehousing.
    The case studies demonstrate the economic effects of this 
critical nature of these transportation choke points. I invite 
you to review the documents provided today illustrating how 
congestion at river crossings shrink these industry markets, 
reduce operating efficiency and lower profitability.

                           PREPARED STATEMENT

    In closing, we have a positive choice for the future. The 
choice is to improve the highway and rail crossings of the 
Columbia River and make a greater distribution for the economic 
vitality of the Pacific Northwest. We have made progress in 
this direction. Mr. Warner will expand on these shortly. I 
emphasize that the solutions will take time. As we weather 
economic recession, involve stakeholders, complete studies and 
acquisitions and build the improvements, I am confident that 
with your help the region can provide the critical capacity and 
manage our growth to keep the Pacific Northwest relevant in 
world trade. Together we can strengthen the economy and 
maintain the quality of life of the upcoming generations. Thank 
you.
    Senator Murray. Thank you, Mr. Wagner.
    [The statement follows:]
                  Prepared Statement of Donald Wagner
    Good morning, Chairman Murray and members of the subcommittee. I am 
Don Wagner and I am the Southwest Regional Administrator for the 
Washington State Department of Transportation.
    Thank you for the opportunity to appear before this subcommittee to 
discuss transportation challenges facing the communities of Southwest 
Washington and the Oregon/Washington Border region. And thank you for 
your strong interest, and past assistance, in addressing our 
transportation challenges.
    Before I begin, I would like to acknowledge the attendance of Ed 
Barnes, a local resident and representative on the Washington State 
Transportation Commission since 1996. I'd also like to thank you for 
including local officials and representatives from the business and 
labor community, as well as the Director of the Oregon Department of 
Transportation, at this hearing because our view is that our region's 
transportation challenges will be best addressed by a broad and 
collaborative coalition of interests.
    This morning I will frame these challenges, while Bruce Warner will 
focus his testimony on efforts underway to address these issues and 
summarize the opportunities to move this regional infrastructure into 
the future--to meet our needs and maintain economic prosperity in the 
region and in our two States.
 interstate 5 and regional columbia river crossings form a multimodal 
                trade corridor of national significance
    The Columbia River highway and rail crossings connect the 
communities of Portland and Vancouver for work, recreation, shopping, 
and entertainment. They provide critical freight connections to the 
area's two major and numerous other ports for deep-water shipping and 
up-river barging. They link its two east-west transcontinental rail 
lines and connect much of the region's industrial land.
    Interstate 5 is the only continuous highway from Mexico to Canada 
on the West Coast and directly serves regional and State economies in 
Washington, Oregon, and California. Within the Portland-Vancouver 
metropolitan area, I-5 is the north-south backbone of regional trade, 
providing primary access to regional warehousing and distribution 
facilities.
    The Portland-Vancouver region's proximity to two interstate 
highways, I-5 and I-84, makes overnight truck delivery north into 
British Columbia, east to Idaho and western Montana and south into the 
Bay Area possible. As a result, the region serves as the Pacific 
Northwest domestic distribution location for many retailers and 
manufacturers.
    For these and other reasons, Congress recognized I-5's national 
significance and economic importance in the Transportation Equity Act 
for the 21st Century (TEA-21) by designating it as a High Priority 
Corridor. In TEA-21, Congress directed USDOT to conduct a review of 
National Highway System freight connectors that serve major seaports, 
airports, and major intermodal terminals. The bulk of these connectors 
in Washington and Oregon feed the interstate.
          efficient transportation is essential to our economy
    Reliable transportation is essential as the Pacific Northwest's 
trade-dependent character continues to grow. Oregon and Washington 
export $45 billion of products each year. As a percentage of the 
region's economy, this is about twice the national average. Portland 
has the highest value of wholesale trade per capita on the West Coast 
and the region ranks thirteenth among all U.S. cities based on the 
value of exports. Exports make up the vast majority of the region's 
traded volume, exceeding the volume of imports by a factor of 15. In 
fact, Washington is the most trade-oriented State in the Nation.
    The Portland-Vancouver area and the Pacific Northwest can expect 
freight volumes to grow at rates faster than the national average. 
Between 1998 and 2020 import-export freight tonnage is forecast to grow 
123 percent and domestic freight tonnage 76 percent. While this will 
benefit economic growth, it will put a strain on the State's network of 
rail, highways, and water modes of freight transport.
    In addition, the region's economy is built on transportation-
intensive industries. Agriculture, construction, transportation 
equipment and utilities, wholesale and retail trade, and manufacturing 
make up 54 percent of the Oregon-Washington economy, but only 49 
percent of the national economy. Consequently, our economy is more 
dependent on transportation and we spend more proportionally on 
transportation than the Nation as a whole.
    The Columbia River crossings, including the I-5 Interstate Bridge, 
are a critical link in this trade network. To illustrate:
  --About half of rail shipments originating from Seattle-Tacoma travel 
        south through Portland-Vancouver en route to their final 
        destination.
  --About 133 million bushels of wheat grown in Eastern Washington and 
        Oregon are shipped through the corridor for export to foreign 
        markets.
  --More than 10,000 trucks per day travel through the corridor.
   the columbia river crossings are transportation choke points and 
        threaten the economic vitality of the pacific northwest
    The Columbia River is a major regional transportation artery and 
the physical geography of the Pacific Northwest defines the regional 
transportation system. The deepwater ports provide access to the West 
Coast and Pacific Rim, and the Columbia/Snake River system provides 
barge access to the agricultural areas in the eastern half of the 
region. The highway and rail crossings over the river are of strategic 
importance to freight transportation, locally and regionally and across 
the Pacific Northwest.
    But the Columbia also is a major barrier and, combined with growing 
congestion, the river and its crossings effectively serve as 
transportation choke points. The regional economy and the ability to 
effectively support freight movement are choked and languishing.
    Let me provide a local example:
    The duration of peak-period congestion at the I-5/Interstate Bridge 
will double from 4 hours today to nearly 10 hours in 2020. The 
congestion will spread into the midday period, the peak travel time for 
trucks. This will entangle truck operations, increase trucking costs, 
and make pick-up and delivery times less reliable. This will increase 
the cost of delay to trucks by 140 percent--from $14 million in 2000 to 
$34 million in 2020.
    If we do nothing, traffic volume on the Interstate Bridge will grow 
to 180,000 vehicles per day, an increase of 44 percent. If no 
significant capacity is added to the bridge crossing, total vehicle 
hours of delay during the peak periods will increase 74 percent from 
31,00 hours per day in 2000 to 54,000 hours per day in 2020. Congested 
lane miles on truck routes will increase by 58 percent.
                  fewer options exist in this corridor
    As depicted in Attachment 1, the Portland-Vancouver area has fewer 
crossings than several U.S. metropolitan areas of similar size, with 
only two highway bridges and one rail bridge over the Columbia River. 
With limited bridge capacity, few alternative routes, and growing 
travel demand, the crossings have become major traffic bottlenecks.
    While once an alternative to the Interstate Bridge the eight-lane 
Glenn Jackson Bridge, which carries I-205 across the Columbia River 6 
miles up river, now operates near capacity. The bridge carries 132,000 
vehicles, including 7,800 trucks, across the river each day. Growing 
congestion, due in part to diverted traffic from I-5, is diminishing 
this route's reliability and predictability. As the Glenn Jackson 
Bridge reaches capacity, it will discourage diversion of I-5 traffic 
resulting in increased peak-period spreading within the I-5 corridor. 
The next closest Columbia River highway crossing is the two-lane bridge 
between Rainier, Oregon and Longview, Washington, 53 miles downstream; 
it provides little relief to the metropolitan area.
             congestion impacts the economy in diverse ways
    Delays at the crossings affect a wide range of transportation 
users, including employees commuting to work, customers traveling to 
stores and business meetings, shippers meeting schedules, truck picking 
up and delivering goods, and trains moving freight to and from ports 
and intermodal terminals.
    The costs of delay are passed on to businesses, either directly or 
indirectly, by:
  --Increasing production costs due to delay, unreliable travel times, 
        and increased logistics and inventory costs.
  --Shrinking labor pools as the geographical area in which potential 
        employees can afford to work, or are willing to work, is 
        reduced in relation to the increase in time and cost of 
        commuting.
  --Reducing access to business inputs and markets as the economies of 
        scale that can be realized by operating in large urban areas 
        are diminished.
    Congestion is a cost of doing business but the severity with which 
we are experiencing it in this region is leading to a reduction in 
productivity, which in turn limits economic competitiveness and 
curtails economic expansion. It will become an even greater drag on the 
economy in the future as the region grows and the demand for travel 
increases. It is weakening our competitiveness in global markets.
          trade and land use are sensitive to this congestion
    As stated earlier, trade comprises a significant share of our 
regional economy. Freight movements into and out of the regional have 
historically led to increased business and employment growth, with the 
result that today the Portland-Vancouver metropolitan area plays a 
leading role among regional distribution and transshipment centers for 
international commerce.
    Here is a local example:
    While the volume of exports is still dominated by the natural 
resources sector, the high-technology sector now makes up the majority 
of the value of exported goods. The value of high-tech goods that cross 
the Interstate Bridge exceeds $1.5 billion per year.
    Because high-tech goods are valuable, light, and time-sensitive, 
they tend to be shipped by airfreight rather than by sea. This has led 
to a dramatic increase in airfreight shipments, which has created a 
greater demand for timely access to the airport. Portland International 
Airport is primarily accessed by the congested interstates, I-5 and I-
205. This demonstrates that growing and maintaining a strong regional 
economy is increasingly dependent on an efficient transportation 
system.
    We are learning that shipping routes from Southeast and Southern 
Asia are rerouting to East Coast and Midwest market distribution points 
to avoid this West Coast choke point.
    An additional economic consequence of this choke point to the 
region is the access to available industrial land. The region is 
currently short of industrial property available for development. 
Development potential of two of the region's key industrial enclaves, 
the Port of Vancouver and the Columbia Corridor/Rivergate area in north 
Portland, is threatened by the heavy congestion at their access points 
to I-5 near the Columbia River.
 rail freight traffic is disproportionately affected by this congestion
    The Portland/Vancouver rail network and the Columbia River Rail 
Crossing also are severely congested. This network is one of the 
busiest in the Nation, with over 160 trains moving within and through 
the region each day. Currently, two transcontinental railroads, Amtrak 
long distance trains, and the regional Amtrak Cascades use the network. 
The two-track Burlington Northern-Santa Fe rail bridge, adjacent to the 
Interstate Bridge, is the only rail crossing connecting Portland and 
Vancouver. The rail bridge carries 63 freight trains daily. The next 
major rail crossing of the river is 92 miles upstream near The Dalles, 
Oregon.
    The cause of congestion in the rail system is inadequate capacity. 
It will not be able to handle projected growth in freight and passenger 
traffic. On each side of the Columbia River, trains already compete for 
track space with local and long-distance, transcontinental trains 
moving to rail yards and terminals. Local operations--the movement of 
locomotives and cars between yards and trains into and out of port and 
railroad terminals--must share track time and space with long-distance, 
through trains, including intermodal trains traveling from Seattle and 
Tacoma to the Midwest and California.
    When measured in terms of delay per train, rail congestion in the 
Portland-Vancouver area adds about 40 minutes to every train move, 
twice that of Chicago, the Nation's largest rail hub. With less than 
one-fifth the number of trains as Chicago, the area's rail network 
experiences nearly half the delay hours of Chicago. That's 402 hours of 
delay for 600 freight and passenger trains in this area compared to 813 
hours for about 3,500 trains in Chicago.
    Without increased rail capacity, worsening congestion will make 
supply chains less reliable, drive up the cost of labor and materials 
and undermine the competitive position of the Pacific Northwest 
businesses. Railroads may not grow apace with the economy and might 
shed freight to trucks, adding to already congested highways. Shipping 
costs may increase, reliability will decrease, and rail shippers may be 
forced to divert traffic, change modes, or relocate. Limited rail 
capacity will hinder the growth of the ports of Portland, Vancouver, 
and others along the Columbia.
    The recent I-5 Rail Capacity Study, completed as part of the 
overall I-5 Transportation and Trade Partnership Strategic Plan, 
highlights the rail needs for the region. Some relatively low- to 
medium-cost solutions--estimated at $170 million--can significantly 
improve existing rail capacity in the region.
    To accommodate through trains and local terminal operations 
efficiently, the railroads must invest heavily in new yard capacity, 
sidings, bypass tracks, switches, and dispatching systems within our 
region. The railroads will soon need to look at investing in an 
expanded rail bridge across the Columbia River or a rail bypass of the 
Portland-Vancouver area for through trains.
    In the long-term, major improvements will be needed to accommodate 
rail movements in the Portland/Vancouver region, including 
modifications to the existing Columbia River rail bridge and possibly a 
new span running parallel to the existing structure. These improvements 
will require further analysis by the railroads, and the Washington and 
Oregon Departments of Transportation.
           freight offers opportunities to reduce congestion
    Freight rail makes up the smallest share of the total freight 
moved, but it has perhaps the greatest likelihood for expansion. Since 
1970, approximately 40 percent of WA's active rail lines have been 
abandoned. While this loss increased heavy truck traffic on State and 
local roads, resulting in higher road maintenance and repair costs, the 
remaining rail lines help reduce heavy truck traffic and congestion on 
highways and provide a competitive shipping option for regional and 
international farmers and businesses.
    Preservation of remaining rail lines is crucial.
    One of the key projects for the region--the Vancouver Rail 
Project--was recently funded by the State of Washington and is slated 
for construction in the 2007-09 biennium. The primary purpose of the 
project is to support Amtrak Cascades service reliability and 
expansion, with an important secondary benefit to the region's rail 
freight mobility.
                     we are putting it all on paper
    The Washington and Oregon Departments of Transportation have 
analyzed these economic issues in considerable depth. Of significant 
value to today's actions is a recent report by Cambridge Systematic, 
Inc., entitled Regional Economic Effects of the I-5 Corridor/Columbia 
River Crossing Transportation Choke Points. The report is available on 
ODOT's Web site and the executive summary is provided today as 
Attachment 2.
    In addition to looking at effects on the regional economy as a 
whole, case studies were developed for five freight-intensive 
industries that, combined, comprises greater than 30 percent of the 
Washington/Oregon gross regional product. These five industries--
natural resource products, transportation equipment and steel, farm and 
food products, high technology, and distribution and warehousing--
account for 70 percent of truck and 60 percent of rail tonnage crossing 
the Columbia River in the area.
    The case studies demonstrate the general economic affects I have 
described and the critical nature of these transportation choke points. 
I invite you to review the documentation provided today, illustrating 
how I-5/Columbia River crossing congestion is shrinking these 
industry's markets, reducing operating efficiency, and lowering 
profitability.
                                outlook
    We are seeing diminishing returns from transportation initiatives 
of earlier decades. Capacity and congestion problems today are eroding 
the productivity of the trans system Congestion at the crossings has a 
real and immediate cost to Portland-Vancouver residents and businesses 
and there is a real cost, although less visible, to residents and 
businesses beyond the region and across the Nation.
                we have positive choices for the future
    That choice is to improve the highway and rail crossings in this 
region and make a greater contribution to the economic health of the 
entire Pacific Northwest.
    We have made progress in this direction and Bruce Warner will 
expound upon this shortly.
    In closing, I will emphasize that the solutions and ideas 
summarized by Mr. Warner, will take time, as we weather an economic 
recession and involve stakeholders, complete studies and acquisitions 
and build the improvements. I am confident, that with the help of these 
stakeholders and elected officials, and industry and the citizens of 
the Pacific Northwest, the region can provide the capacity and manage 
this growth and change. Together we can strengthen our economy and 
quality of life for the coming generations.
    Thank you.

    Senator Murray. Mr. Warner.
STATEMENT OF BRUCE WARNER, DIRECTOR, OREGON DEPARTMENT 
            OF TRANSPORTATION
    Mr. Warner. Good morning, Senator Murray. I'm Bruce Warner. 
I am the Director of the Oregon Department of Transportation. I 
also want to thank you for giving me this opportunity to come 
testify before you this morning on some of the transportation 
challenges facing the region. And you do have my testimony, so 
I will highlight some of the important pieces there.
    I am going to focus my remarks on what I think is the 
single greatest transportation challenge that faces the 
Portland/Vancouver region, and that is the growing congestion 
and the freight bottlenecks that Mr. Wagner talked about in the 
Interstate 5 corridor. And I believe you know that Interstate 5 
corridor is a corridor of true national significance, 
recognized by Congress and it is a multimodal corridor that has 
many modes of transportation that need to be addressed.
    As you just heard, the growing congestion in this corridor 
does threaten the region's economy and the movement of freight. 
And with your help I want to let you know that this region is 
developing solutions to overcome this threat. And through a 
collaborative public process, we have identified transportation 
improvements that are needed to relieve the highway and rail 
congestion in this critical corridor. And I want to let you 
know we will be talking with you and asking for additional help 
from your committee in coming years. And what I really want to 
assure you is that we have been working in a way to build a 
solid foundation--in answer to your question to Senator 
Hatfield--to make sure that there's a consensus from the local 
level on what needs to be done. And I do want to thank you for 
your strong support in the efforts that we've been doing. And 
because of that the National Corridor Planning Development 
Program funding that we received with your help and the help of 
both the other Washington and Oregon Congressional delegation 
has really been instrumental to moving this along.
    And this region has been working to solve the problem in 
ways that are different from other areas of the Nation. And I 
say that because we have done that collaborative inclusive, but 
public process that identified multimodal solutions to the 
corridor. And we're also, as you identified, going to be 
looking at ways to fund this in an innovative manner because we 
know that the needs are great, and we are going to have to look 
at innovative solutions and involve the private sector probably 
in ways we never have before to get the solutions implemented 
in this corridor. And I think this approach is in contrast to 
other States where the normal answer is to just add highway 
capacity as the simple and frankly only answer. And we know 
that the highway widening in this corridor does not solve all 
of the problems, and we partnered with many different groups in 
our efforts. We've taken their opinions into account. And so 
far the work to date has involved almost 2000 people and the 
list is growing daily.
    And the report that you have in your packet, the I-5 
Transportation and Trade Partnership Strategic Plan has been 
adopted I want to stress to you by Metro, on the Oregon side, 
Southwest Washington Regional Transportation Council here on 
the Washington side, Tri-Met, C-Tran, our transportation 
commissions, the Washington State transportation commissions, 
the Ports of Portland and Vancouver, the City of Portland, the 
City of Vancouver, Multnomah County and Clark County as an 
example. And this all began in 1999 when a group of business 
folks and elected folks said we need to solve the congestion in 
this corridor. It resulted in the governors 2 years later 
appointing a committee of 28 businesses, citizens and 
interested groups to come up with a strategic plan, which you 
have before you. It took nearly a year and a half of meetings. 
And I want to commend all the members who sat through the 
monthly probably 4- or 5-hour long meetings to come up with the 
solution. But that 2000 strategic plan is the result of that 
effort.
    And this year, as you just heard, we've also now completed 
the Economic Impact Analysis and the study did conclude that 
the congestion in the I-5 Columbia River crossings was 
affecting, as you heard, not only the Portland/Vancouver area 
business and industry by increasing their shipping costs, 
limiting their labor markets and reducing competitiveness with 
other industries in the region, but it does impact the entire 
West Coast and the Nation as a whole. It really is that 
significant a corridor. And so I think that's important to 
know. And I'm really pleased that the Federal Government has 
been an active partner in this effort, the Congress, and the 
U.S. Department of Transportation have supported this project 
from the inception. And as I noted earlier, Congress has 
designated the I-5 corridor as national significant--as of 
national significance in 1997 which made it available for the 
funding that we've been working on. And with the $7 million 
that you noted in your opening remarks, that we have completed 
this planning process and that's where we are today.
    So we have the initial planning done. We've completed the 
economic impact analysis and we now have a final strategic plan 
adopted. And now our job is to move forward and figure out 
which of the specific improvements we need to work on right now 
and where the priorities are and to start moving into the 
environmental analysis and actually preliminary designs.
    Some of the questions--to give you a flavor of some of the 
questions that we need to have answered are, as an example, 
should a new freeway bridge be built or should an existing I-5 
bridge be modified. Or if we build a new bridge should it be a 
joint highway like rail bridge or should we be building two 
separate bridges.
    Again, another very big issue is how do we minimize the 
impacts on the neighborhoods, and then how do we upgrade some 
of the current interchanges to provide access to the Ports of 
Portland, and the Port of Vancouver, just to add a few. But 
we're scoping that out and are ready to get into that effort 
right now. As I said, we're going to have to build a financing 
plan which will involve some innovative things that have not 
been put together before. We need to actually have good 
construction estimates and time lines, and we need to consider 
the options for managing that work in a different way, when you 
have to keep an artery like I-5 open to commerce at the same 
time you're trying to improve it.
    So with additional funding we can get to those, so it is 
needed. We're going to be asking you for assistance. I want to 
let you know that Senators Ron Wyden and Gordon Smith have 
submitted a joint request for planning dollars as part of the 
2004 transportation appropriations bill to pay for this next 
phase of this project. We believe a half million dollars at 
minimum is necessary and any additional would help speed this 
up. Federal money will also be needed to complete the 
environmental impact statement to build on the actual strategic 
plan that you have before you.
    And Congressman Earl Blumenauer has submitted a $15 million 
TEA-21 high priority project request to the House 
Transportation and Infrastructure Committee as part of a joint 
effort with Congressman Brian Baird. And Congressman Baird is 
also working very hard, I wanted to let you know, to secure 
Federal funding to construct one of the first priority 
projects, which is the widening of I-5 between Delta Park and 
Lombard Street on the Oregon side, and he has submitted a $32.8 
million project request to that committee for consideration. 
And this is a project, if you're not aware, is a project that 
is a great source of aggravation for Washington commuters and 
it has been for a number of years, so I'll make you aware, and 
everybody in the room here, that we are supportive of that and 
want to see that move forward as quickly as possible.
    So in conclusion, we have made significant progress with 
the help of this committee and our delegations and with our 
U.S. Department of Transportation and other regional partners. 
We understand the importance of doing our homework and want to 
assure you that when we bring forward a project it will be a 
project that has been vetted fully at the local level and has 
the grass-roots and total support of the governments in the 
area. And we do need to have a project that is broadly 
supported and serves many needs or it's not going to be 
successful.

                           PREPARED STATEMENT

    The importance of this agreement can't be understated. 
Senator Hatfield said it and said it very well. So I think I 
would end there, but I wanted to leave you also in your packet. 
I couldn't go on without noting that the other thing about the 
transportation system here on the West Coast, it's fairly 
young, but I point out to you the interstate system is about 50 
years old in most areas and we have a problem in Oregon with 
bridges that were built during that era that are starting to 
fail. They were designed for 50 years and, guess what? They're 
starting to fail at 50 years. And the bottom line is we have 
about a $5 billion problem just to address the bridges in 
Oregon. The good news is our legislature stepped up. I want to 
acknowledge the governor and our legislature for passing a $2.5 
billion program to address bridges and some modernization 
needs, but that only starts to address the problem. So we are 
going to be probably talking to you and your committee about 
some of those needs here in Washington. So with that, I will 
conclude and be glad to answer any questions that you might 
have.
    [The statement follows:]
                   Prepared Statement of Bruce Warner
    Good morning Senator Murray and Members of the subcommittee. I am 
Bruce Warner and I am the Director of the Oregon Department of 
Transportation. Thank you for this opportunity to briefly discuss the 
transportation challenges facing this region. I will focus my remarks 
on the single greatest transportation challenge that faces the 
Portland-Vancouver region: congestion in the Interstate 5 Corridor.
    The I-5 Corridor is a true multimodal trade corridor of national 
significance. Growing congestion in the corridor threatens the movement 
of freight and the region's economy. With the support of this 
Committee, the House and Senate authorizing Committees, the Washington 
and Oregon Congressional Delegations and the U.S. Department of 
Transportation, this region is developing innovative solutions to 
overcome this threat. Through a collaborative, public process, we have 
identified transportation improvements needed to relieve highway and 
rail congestion in this critical corridor. There is much more work to 
be done, and we will be requesting additional help from this Committee 
in the coming years. We have a solid foundation upon which to build.
    Before I begin my remarks on our approach to this difficult 
challenge and our future needs, I want to first thank you and the 
Committee for your strong support of this effort. The National Corridor 
Planning and Development Program funding that we have received, with 
your help and the help of both Washington and Oregon's Congressional 
Delegations, has been instrumental in bringing people to the table. It 
has given us the ability to analyze a wide range of options and provide 
local decision-makers and the public with good information, which leads 
to more inclusive and better decisions. I think it is significant and 
worth pointing out that this effort has received funding under both 
Republican and Democratic Administrations and has strong bipartisan 
support in Congress.
    This region is working to solve the problem of congestion in ways 
that are different from what others may be doing elsewhere in the 
country. We have established a collaborative, inclusive public process 
that is identifying multimodal transportation improvements needed to 
relieve highway and rail congestion in this corridor. Further, we are 
going to explore innovative financing and contracting options in the 
next phase of project development.
    This approach is in stark contrast to a traditional State highway 
department approach, where added highway capacity is the simple and 
only answer. These types of projects are rushed through design and the 
environmental process, and the public is given minimal chances to 
participate in developing the project. Then Congress is asked to pay 
for a project that solves only a part of the problem and ignores other 
needs in the corridor.
    In our work on the I-5 Corridor, we took the time to examine many 
different options, and we have partnered with many different groups and 
individuals to ensure that we make decisions that take into account 
many different needs. So far, more than 1,700 people--citizens, local 
elected officials and business leaders--have been involved in this 
effort. They have attended meetings, participated in workshops and 
surveys and provided numerous comments. A Web site developed to inform 
the public and receive feedback on our plans is used extensively and 
already has been accessed more than 400,000 times. Presentations have 
been made to more than 70 groups on both sides of the Columbia River, 
and the list is growing.
    The I-5 Transportation and Trade Partnership Strategic Plan has 
been adopted by Metro, the Southwest Washington Regional Transportation 
Council, Tri-Met, C-Tran, the Oregon Transportation Commission, the 
Washington State Transportation Commission, the Port of Portland, the 
Port of Vancouver, the City of Portland, the City of Vancouver, 
Multnomah County and Clark County. We have been very busy.
    Our work began in 1999, when, in response to increasing concerns 
about congestion, a bistate committee was formed to consider the 
problems in the I-5 Corridor. The committee found that doing nothing to 
solve congestion in the I-5 Corridor was unacceptable. It recommended 
that the Portland-Vancouver region initiate a public process to develop 
a transportation solution for the I-5 Corridor that addresses all modes 
of transportation.
    Two years later, the Governors of Washington and Oregon initiated 
the Portland/Vancouver I-5 Transportation and Trade Partnership. A 28-
member task force comprised of community, business and elected 
representatives was appointed by the Governors and set up to guide the 
development of a strategic plan for the corridor. This group worked 
with stakeholders and sought input directly from the community for a 
year and half. The result was adoption in 2002 of a Final Strategic 
Plan.
    This year an economic study was completed. The study concluded that 
congestion at the I-5/Columbia River crossings was affecting Portland-
Vancouver area business and industry by increasing shipping and 
production costs, shrinking labor markets and reducing the 
competitiveness of these industries in regional markets. Further 
increases in shipping costs would cause Oregon and Washington 
businesses to lose market share and profitability.
    My colleague, Mr. Wagner, has already discussed the results of this 
study, so I will not go into great detail. However, the findings of 
just how far the impacts of the I-5 bottleneck are felt beyond the 
Portland-Vancouver region were very surprising. For example, about half 
of rail shipments originating from Seattle-Tacoma travel south through 
Portland-Vancouver on the way to their final destinations. About 133 
million bushels of wheat grown in eastern Washington and Oregon are 
shipped through the corridor for export to foreign markets. The study 
showed that congestion in the corridor affects not only the Portland-
Vancouver area but also the economies of Oregon, Washington, the West 
Coast and the Nation.
    I am pleased that the Federal Government has been an active partner 
in this effort. Congress and the U.S. Department of Transportation have 
supported this project from its inception. Congress designated I-5 a 
corridor of national significance in 1997, making it eligible for 
funding under TEA-21's National Corridor Planning and Development 
Program. Since then, more than $7 million of Federal funding has been 
awarded to this project to help pay for the planning phase of this 
project.
    This brings us to where we are today. The initial planning work has 
been completed, the economic impacts quantified and the Final Strategic 
Plan adopted. Now we must now determine the best package of specific 
corridor improvements included in the recommendations to move into 
environmental analysis and preliminary engineering. Some of the 
questions that need to be answered include:
  --Should a new freeway bridge be built or should the existing I-5 
        bridge be modified?
  --Should the new bridge be a joint use freeway/light rail bridge or 
        should two new bridges be built?
  --How do we minimize impacts to existing neighborhoods?
  --How do we upgrade current interchanges to improve access into and 
        out of the Port of Vancouver and the Port of Portland?
    During this phase of the project, we also must develop a finance 
plan, estimate costs and construction timelines, and consider options 
for managing the construction and operation of the project.
    Additional Federal funding is needed to perform this work. Oregon's 
Senators Ron Wyden and Gordon Smith have submitted a joint request for 
National Corridor Planning and Development funding as part of the 
Fiscal Year 2004 Transportation appropriations bill to help pay for 
this phase of the project. A minimum of $500,000 is needed, but more 
funding would speed things considerably.
    Federal funding also will be needed to complete an Environmental 
Impact Statement. Congressman Earl Blumenauer has submitted a $15 
million TEA-21 High Priority Project funding request to the House 
Transportation and Infrastructure Committee as part of a joint effort 
with Congressman Brian Baird. Congressman Baird is also working hard to 
secure Federal funding to construct the first project ready to go in 
the corridor--widening I-5 between Delta Park and Lombard. He has 
submitted a $32.8 million project request to the House Transportation 
and Infrastructure Committee. This project needs to be done as quickly 
as possible to address a bottleneck that impacts thousands of 
Washington commuters every day.
    In conclusion, we have made significant progress with help from 
this Committee, the Oregon and Washington Congressional Delegations, 
the U.S. Department of Transportation and our regional partners. The 
Federal funds we have received have been put to good use. And with your 
continued support, we will be able to begin the environmental and 
preliminary engineering work that will lead us to the improvements in 
the I-5 Corridor that are needed to keep Pacific Northwest businesses 
competitive and communities livable.
    We understand the importance of doing our homework, of putting in 
the time and energy now so that when we are ready to ask the Federal 
Government for significant financial assistance to build the 
improvements that are so desperately needed in this corridor, we will 
have a project that is broadly supported and serves many needs. There 
is bistate consensus on the needed improvements in the corridor. The 
importance of this agreement cannot be overstated.
    Lastly, I hope the Committee has an opportunity to read the bridge 
report that I've submitted with my written testimony. Although not the 
focus of today's hearing, the State is facing a $4.7 billion deficient 
bridge problem that is beginning to impact the movement of freight 
statewide. The Oregon Legislature passed and the Governor recently 
signed into law a $2.5 billion funding package that will help, but not 
alleviate, the problem. We will be working closely with our 
Congressional Delegation to secure Federal funding for Oregon's bridges 
when TEA-21 is reauthorized.
    Again, thank you for this opportunity to be here today. I would be 
happy to answer any questions.

    Senator Murray. Thank you very much, Mr. Warner, and to 
both of you for taking time out today to bring these issues to 
the committee.
    Senator Hatfield talked a lot about rail. Mr. Warner, you 
mentioned it in your testimony as well and I think you 
mentioned the $45 billion of products every year that make this 
region one of the most trade dependent in the entire country. 
We expect huge growth, as I said in my opening remarks, in 
import/export freight tonnage by 2020 and domestic freight 
tonnage. The grain producers in Eastern Oregon and Eastern 
Washington rely on a reliable and efficient rail system to move 
their products to domestic and overseas markets.
    Can you, both of you describe to me what specific rail 
improvements you see as critical to growing our freight rail 
capacity and what assistance the States you represent have 
provided to the existing rail infrastructure.
    Mr. Wagner. I'll start and thank you for the question. The 
rail system in the State of Washington certainly we are 
focusing primarily on the I-5 corridor on the high speed rail. 
In our last legislative session we did pass the what we call 
the nickel package for new funding and in that it included over 
a hundred million dollars of State funds to improve two track 
sections, one in the Kelso area around Martin's Bluff, and one 
here in Vancouver, the Vancouver rail project. Those are the 
first steps and quite honestly, the least expensive steps in 
trying to remove some of the congestion in the Portland Metro/
Vancouver rail congestion issue. The last report I saw 
indicated that eventually we are going to have to replace or 
add capacity to the bridge across the Columbia River. But for 
about the next 15 years there are choke points outside of that 
bridge area that need to be addressed, and those are the ones 
that we are working on right now. I believe the timing on the 
Vancouver rail project is 2007, 2009 we should be in 
construction. That will provide an additional rail line around 
the congested switching yard.
    As far as the Columbia River bringing the products in, 
those rail lines are being expanded at this time primarily by 
the railroads themselves. The biggest issue is once they get 
into the hub both rail lines have to cross the Columbia on the 
same bridge. The nearest major crossing for rail is 92 miles 
east of us at The Dalles right now. I'll let Bruce address 
Oregon.
    Mr. Warner. In answer to your question, Senator Murray. 
First off, the Oregon Department of Transportation, our 
legislature does clearly recognize the importance of rail, 
freight rail in the I-5 corridor. I think the study that you 
have before you has identified the choke points. It's 
identified in some preliminary ways, some of the improvements 
that need to be done in terms of just switching to make things 
more efficient. Probably as we speak right now the legislature 
is considering our budget where we have about $10 million for 
passenger rail to continue the additional two trains that link 
up with what the State of Washington has done. And again, as 
Don mentioned, they are both on the same tracks.
    The other thing they are going to be looking at is 
consideration of $10 million package to do main line 
improvements to the main line Union Pacific line that benefit 
both freight and the passenger rail. And obviously that's a 
general fund issue for the State. You're probably aware of the 
budget problems the State of Oregon has right at the moment, so 
I expect this will be a very interesting debate. But, again, if 
it isn't addressed this year in terms of the improvements we 
know that we have to do that in the future and we'll be working 
with our legislature to continue their infusion of dollars into 
projects like that in future years.
    Senator Murray. One of the things I think we're all aware 
of in this region is that the I-5 Columbia River bridge is 
aging, and it's only one of two highway bridges that we have, 
and you both mentioned one rail bridge that we have crossing 
the Columbia River that has to be shared. You know that 
similarly populated regions in this country have a lot more 
highway and rail bridges. Kansas City, Missouri, for example, 
has ten highway crossings and three rail bridges that span the 
Missouri River. I think it goes without saying that that really 
causes a lot of congestion. As we see the growth coming, 
whether it's in rail infrastructure or in commuter crossings, 
congestion is going to be a real down side to economic 
development here in this region. What options are on the table 
right now, a replacement bridge, supplemental bridge, or a 
light rail bridge?
    Mr. Warner. Senator Murray, all of those options are on the 
table right at the moment. The next phase of the work will be 
looking at those alternatives to figure out what is the best 
solution for the crossing over the Columbia. New bridge or just 
a freeway only, is it a joint bridge, is it two new bridges, I 
mean those are the questions that we need to look at right now. 
We also then need to answer the question on the freight rail 
bridge. Again, what do we need to do there? Not only is it a 
bottleneck for the rail line but it's also a bottleneck for the 
maritime shipping in that area because of--I won't get into the 
details--but essentially it creates a hazard for downward 
barges during some of the water conditions on the Columbia 
River.
    So the next phase of the study that we're going to be 
asking you for some funding to do, we will start to zero in and 
get questions like that answered so we can give some clarity to 
folks, figure out what is the best solution that addresses the 
needs, but also minimizes the impact on neighborhoods, provides 
opportunity for the whole area to grow. And again, addresses 
all of the modes in a way that's comprehensive and doesn't look 
at just widening one. Because this region--it took a year and a 
half, as I said, to really determine there is no silver bullet. 
It's just one of the modes being dealt with. We need to deal 
with all of them or that entire corridor is going to fail, if 
I'm being responsive to the question.
    Senator Murray. And I think we're all aware that some 
solution needs to come forward. You're talking about the 
collaborative process that you put together to find the 
solution and the options that are on the table. I think Senator 
Hatfield mentioned what happens when local folks oppose a 
project that everybody feels like they've been working on for a 
long time. And certainly when it comes to my level and funding, 
that kind of opposition can have a dramatic impact.
    Can you elaborate on the process that you went through to 
put this plan together and how you made the difficult decisions 
of prioritizing projects?
    Mr. Warner. Yes, I will try to answer that. If you look at 
my testimony you will get a little more flavor on the effort 
itself, but I will assure you that it was very inclusive. As I 
said, there were 28 members that were appointed by the 
governors of both the State of Washington and Oregon, who 
represented business, represented local jurisdictions, 
represented neighborhoods, and represented interest groups. And 
some of these interest groups are folks that really don't like 
widening of highways, as an example, or don't like one 
particular thing or another in that corridor. So we had a 
broad-based committee. We had a facilitator we actually hired 
jointly with the State of Washington. A facilitator that was 
neutral, that moved the process along, but it was understood 
right up front, everybody agreed that we needed to do something 
in this corridor. What we came up with was a solution that I 
would not say everybody could agree with individually, because 
there were pieces of it they probably don't like, but as an 
overall comprehensive solution the whole committee, with the 
exception of one individual, voted to support the plan that you 
have in your packet today. They realized that we need to widen 
the freeway, which some people don't like at all. But we needed 
to limit the widening. We needed to deal with the heavy rail. 
We needed to provide ways to get transit, both light rail and 
more buses, which I think you will probably hear about from Mr. 
Hansen in a bit, into that corridor. And I will guarantee you, 
as I said, for a year and a half, probably once a month for 4 
to 5 hours, this committee sat down and went through these 
issues.
    We had extensive outreach in the communities on the 
Washington side and the Oregon side where we gathered input. We 
had an opportunity for people to participate via the Internet, 
the world wide web. Very extensive. If you're interested in 
some of the volumes of input and what we did with that input, I 
think you would be very pleased. Because what I would say to 
you is not everybody will be pleased with the solutions that 
we've come up with, but if you look at it as a comprehensive, 
unified solution everybody can get behind, I think you have it 
right there. We need to again put the details together, but I 
feel very, very good about the process and to make sure that we 
have that consensus at the local level, so you won't hear that 
we ought not move forward with this.
    Senator Murray. Mr. Wagner. Same opinion?
    Mr. Wagner. Same opinion. It was a very long process and I 
know that as we go into the environmental phase of this project 
we will work out a few more details to answer some very 
specific questions that we were not able to address at the 
broadest sense.
    Senator Murray. Very good. I want to thank both of you for 
coming and testifying today, and I look forward to working with 
you and appreciate your time and all the effort you've put into 
these important regional transportation issues that are so 
vital to make sure our economy continues--or at least gets 
better, but continues to flourish in the future. So thank you 
very much.
    Mr. Warner. Thank you.
    Senator Murray. That concludes the second panel for today's 
testimony. And I would now like to invite our third panel 
forward. If they would like to move ahead into the chairs I 
will introduce them as they are coming up.
    We have Mr. Royce Pollard, Mayor of Vancouver, Washington, 
and Board of the Southwest Washington Regional Transportation 
Council; Mr. Craig Pridemore, Commissioner Clark County, 
Washington, Board of C-Tran Washington and Board of the 
Southwest Washington Regional Transportation Council; and Mr. 
Fred Hansen who is the general manager of the Tri-County 
Metropolitan Transportation District from Portland, Oregon. 
Thank you to all of you for coming today and for your 
testimony.
    Again, if you have written testimony we're happy to put it 
in the record or additional comments later and we will begin, 
Mayor, with you.
    Mr. Pridemore. Senator, we've had a discussion and hope 
that we could----
    Senator Murray. See, nobody ever listens to me.
    Mr. Pridemore [continuing]. Make a small change.
    Senator Murray. Mr. Pridemore will begin and, Mr. Pollard, 
you will follow him. Mr. Pridemore.
STATEMENT OF CRAIG A. PRIDEMORE, CHAIR, CLARK COUNTY 
            BOARD OF COMMISSIONERS AND PRESIDENT, 
            SOUTHWEST WASHINGTON REGIONAL 
            TRANSPORTATION COUNCIL, WASHINGTON
    Mr. Pridemore. Senator Murray, my name is Craig Pridemore. 
I am Chair of the Clark County Board of Commissioners; 
President of Southwest Washington Regional Transportation 
Council; Chair of the Bi-State Transportation Committee; Past 
Chair of C-Tran; and member of Metro's Joint Policy Advisory 
Committee on Transportation.
    It is a pleasure to welcome you back once again to Clark 
County. We have been very fortunate here to have a senator who 
attends to our needs here so frequently and we appreciate it 
very much. What we would like to do in our presentation this 
morning is I'm going to kind of give the 30,000 foot overview 
of some of the historical and political realities of this 
region, and then move on with Mayor Pollard and Mr. Hansen, who 
will discuss some specific kinds of project areas, and then 
we'd be very happy to take questions at the end.
    Finally, I would also like to discuss some of the things we 
are doing today within Clark County and in the greater 
Metropolitan region to address the situation that we've seen. 
Historically, Clark County was something of an island in the 
Pacific Northwest. We were largely cut off from issues being 
addressed by our northern neighbors, and even more isolated by 
the political boundary and geographic boundary that separated 
us from our neighbors to the south. That worked fine for the 
first 100 years of our existence, but things began to change in 
the 1950's. Two major events had a dramatic effect on our 
community, and both were transportation projects. First was the 
opening of the Interstate 5 freeway and expansion of the 
existing bridge. Second was the opening of the Interstate 205 
bridge in 1982. Both events inextricably linked Clark County's 
economy with the economy of the Portland Metropolitan region. 
Since then, any action taken on either side of the river has 
inevitably had an impact, sometimes good, sometimes not, on the 
other side.
    An example of a positive development was the explosion of 
the hi-tech sector in the region led by Intel, which chose to 
build a major corporate center in Beaverton. Though 15 miles 
and several political jurisdictions removed from us, Intel's 
presence greatly strengthened the ability of communities around 
the region to attract other high-tech companies and provided 
for strong regional economic growth.
    An example of a negative development in the region occurred 
when Oregon implemented growth management strategies in the 
1970's without complementary programs being in effect on the 
Washington side.
    As Oregon began limiting historic quantities of land for 
residential development, a strong competitive advantage was 
created on our side of the river to provide lower cost, entry-
level housing. This helped to propel Clark County's population 
far ahead of the economy's ability to create the jobs and tax 
base necessary to support these new residents.
    Clark County has consequently become a bedroom community 
with 65,000 commuters crowding the freeway system twice a day 
to get to and from work. A survey taken in 2001 established 
that 80 percent of these commuters would prefer a similar job 
in Clark County rather than face the daily congestion, but 
today they have little choice.
    We have begun to change that both within Clark County and 
within the greater region. Today, leaders across the region 
recognize that if we don't tailor a transportation system to 
meet the goals of our communities, our transportation system 
will create our communities for us regardless of our goals.
    Clark County's proposed comprehensive land use plan has 
been modified to accomplish two primary goals that will have a 
dramatic impact on how our transportation system will function 
in the future.
    First, the plan discourages sprawling residential 
developments scattered throughout the county. Instead, 
residential growth will be limited more closely within urban 
areas where appropriate transportation systems can be developed 
to accommodate this growth.
    Second, the plan is considerably more supportive of 
employment and business growth on our side of the river. It 
establishes industrial and commercial corridors. They will have 
priority on our infrastructure investments.
    Simply painting colors on a map won't be enough to create 
jobs in and of itself, of course. So, in cooperation with our 
cities and with the Columbia River Economic Development 
Council, Clark County has initiated an aggressive economic 
development program encompassing everything from permitting 
processes, to infrastructure investments, and to environmental 
stewardship.
    We are confident that Clark County will be well positioned 
to take full advantage of the opportunities that a national 
economic recovery can create and we hope that you in the U.S. 
Senate will continue to push for genuine economic stimulus. If 
we can be successful in economic development on our side of the 
river, the strain on our transportation system, our 
environment, and on our citizens will be greatly reduced.
    While our community is taking those steps independently, we 
have also worked with regional leaders across the river to 
increase awareness about the regional nature of our economy and 
of our quality of life.
    In 1999 we formed the Bi-State Transportation Committee and 
authorized it to directly discuss and coordinate transportation 
issues of regional significance. Because of this coordinated 
approach, Washington residents have increasingly begun 
advocating for transportation projects located in Oregon and 
vice versa.
    While transportation projects are vital to the success of 
our community, they should only be done in the context of a 
broader vision that encompasses our goals as a community. 
Consequently, the region has proposed expanding the role of the 
Bi-State Transportation Committee into a Bi-State Coordinating 
Committee. In this expanded capacity, the committee will also 
discuss and comment on land use and economic development issues 
on both sides of the river.
    Regionally, we want to avoid problems of the past. When we 
plan today, we envision the community that we would like to 
leave to our children and grandchildren, and then we design a 
transportation system that will support that greater vision. 
Our community vision creates our transportation system today, 
not the other way around.

                           PREPARED STATEMENT

    I want to thank you once again for being here in Clark 
County and for all the things you've done for the citizens of 
the State of Washington, and in particular the citizens of 
Southwest Washington. With that, I'll turn it over to my good 
friend, Mayor Pollard.
    [The statement follows:]
                Prepared Statement of Craig A. Pridemore
    Good morning, Senator Murray. It is a pleasure to welcome you back 
once again to southwest Washington. Clark County has been very 
fortunate to have representatives in the U.S. Senate who spend as much 
time working on our behalf as you and Senator Cantwell do and we 
appreciate it very much.
    This morning, I'd like to talk about some of the historic 
influences on Clark County's growth and how those growth patterns have 
impacted the regional transportation system. I would also like to 
discuss some of the things we are doing today, both within Clark County 
and in the greater metropolitan region, to address that situation.
    Historically, Clark County was something of an island in the 
Pacific Northwest. We were largely cut off from issues being addressed 
by our northern neighbors and even more isolated by the political 
boundary that separated us from our neighbors to the south. That worked 
fine for the first 100 years of our existence, but things began to 
change in the 1950's.
    Two major events had a dramatic effect on our community. Both were 
transportation projects. First was the opening of the Interstate 5 
freeway and expansion of the existing bridge. Second was the opening of 
the Interstate 205 bridge in 1982.
    Both events inextricably linked Clark County's economy with the 
economy of the Portland metropolitan region. Since then, any action 
taken on either side of the river has inevitably had an impact, 
sometimes good, sometimes not, on the other side.
    An example of a positive development was the explosion of the high 
tech sector in the region led by Intel, which chose to build a major 
corporate center in Beaverton. Though 15 miles and several political 
jurisdictions removed from us, Intel's presence greatly strengthened 
the ability of communities around the region to attract other high tech 
companies and provided for strong regional economic growth.
    An example of a negative development in the region occurred when 
Oregon implemented growth management strategies in the 1970's without 
complementary programs in effect on the Washington side.
    As Oregon began limiting historic quantities of land for 
residential development, a strong competitive advantage was created on 
our side of the river to provide lower cost, entry-level housing. This 
helped to propel Clark County's population far ahead of the economy's 
ability to create the jobs and tax base necessary to support these new 
residents.
    Clark County has consequently become a bedroom community with 
65,000 commuters crowding the freeway system twice a day to get to and 
from work. A survey taken in 2001 established that 80 percent of these 
commuters would prefer a similar job in Clark County rather than face 
the daily congestion, but today they have little choice.
    We have begun to change that both within Clark County and within 
the greater region. Today, leaders across the region recognize that if 
we don't tailor a transportation system to meet the goals of our 
communities, our transportation system will create our communities for 
us regardless of our goals.
    Clark County's proposed comprehensive land use plan has been 
modified to accomplish two primary goals that will have a dramatic 
impact on how our transportation system will function in the future.
    First, the plan discourages sprawling developments scattered 
throughout the county. Instead, residential growth will be limited more 
closely within urban areas where appropriate transportation systems can 
be developed to accommodate this growth.
    Second, the plan is considerably more supportive of employment and 
business growth. It establishes industrial and commercial cores that 
will have priority on our infrastructure investments.
    Simply painting colors on a map won't be enough to create jobs in 
and of itself, of course. So, in cooperation with our cities and with 
the Columbia River Economic Development Council, Clark County has 
initiated an aggressive economic development program encompassing 
everything from permitting processes, to infrastructure investments, to 
environmental stewardship.
    We are confident that Clark County will be well positioned to take 
full advantage of the opportunities that a national economic recovery 
can create and we hope that you in the U.S. Senate will continue to 
push for genuine economic stimulus. If we can be successful in economic 
development, the strain on our transportation system, our environment, 
and on our citizens will be greatly reduced.
    While our community has taken those steps independently, we have 
also worked with regional leaders across the river to increase 
awareness about the regional nature of our economy and of our quality 
of life.
    In 1999 we formed the Bi-State Transportation Committee and 
authorized it to directly discuss and coordinate transportation 
initiatives of regional significance. Because of this coordinated 
approach, Washington residents increasingly are advocating for 
transportation projects located in Oregon and vice versa.
    While transportation projects are vital to the success of our 
community, they should only be done in the context of a broader vision 
that encompasses our goals as a community. Consequently, the region has 
proposed expanding the role of the Bi-State Transportation Committee 
into a Bi-State Coordinating Committee. In this expanded capacity, the 
committee will also discuss and comment on land use and economic 
development issues on both sides of the river.
    Regionally, we want to avoid the problems of the past. When we plan 
today, we envision the community that we would like to leave to our 
children and grandchildren, and then we design a transportation system 
that will support that greater vision. Our community vision creates our 
transportation system, not the other way around.
    Thank you again for coming to Clark County and for all the 
outstanding service you've given to the citizens of Washington.

    Senator Murray. Thank you. Mayor Pollard.
STATEMENT OF ROYCE POLLARD, MAYOR OF VANCOUVER, 
            WASHINGTON AND BOARD FOR THE SOUTHWEST 
            WASHINGTON REGIONAL TRANSPORTATION COUNCIL, 
            WASHINGTON
    Mayor Pollard. Senator Murray, Ladies and Gentlemen, I'm 
Ray Pollard, the Mayor of America's Vancouver. And once again I 
would like to issue a warm welcome to you, Senator, for coming 
back to Vancouver.
    I also want to begin with a thanks to you, Senator, for 
your frequent visits to our community and for all of your hard 
work in helping us to develop and implement a comprehensive 
strategy to deal with one area of public infrastructure where 
we are the most challenged--transportation.
    Senator, I'm happy to tell you that the general state of 
bi-State relations in our metropolitan area, among all the 
transportation and land use agencies, is as good as it has ever 
been. Nothing illustrates this more than the recently concluded 
18-month effort of the Bi-State Portland/Vancouver I-5 Trade 
and Transportation Corridor Study led by our two governors, 
community organizations, government at all levels, business, 
labor leaders and private citizens by the thousands were a part 
of this effort.
    This corridor is a nationally recognized choke point that 
nearly 65,000 residents, as the commissioner said, every day 
tackle the road to work and back. It is our belief that the two 
I-5 bridges that span the Columbia just a few hundred yards 
from here are two-thirds of the remaining lift spans left on 
this Nation's interstate system. The current state of this 
corridor cost millions in lost productivity and adds costs each 
month, and is an impediment to what is otherwise a promising 
future for our economic growth.
    The Port of Vancouver USA has hundreds of acres of 
developable land available. The Columbia Gateway project, once 
completed, will bring to Vancouver the largest single 
industrial parcel in the bi-State metro area. The redevelopment 
of our downtown and waterfront has begun big-time with over 
$300 million in private sector investment capital already at 
work and another $100 million anticipated in the near term. 
We've diversified our economy, enhanced our labor force, and 
our utility services and maintained competitive utility rates. 
Our medical infrastructure continues to grow and advance as 
does our K-12 and higher education systems. Housing is still 
affordable and our general quality of life measures quite high. 
We've got a lot going for us but I am fearful that 
transportation infrastructure could be our Achilles heel.
    For that reason we are, in my judgment, at a very critical 
juncture. After 18-plus months of hard work we have received a 
``Call to Action'' from the members of this task force and our 
two governors. Improving the entire corridor, including added 
capacity through the Delta Park area, replacing or modifying 
the two I-5 bridges, enhanced multimodal and enhanced rail 
freight capacity are the essential elements that are needed and 
we must start down this road now.
    We know what needs to be done. There is a shared vision 
among the public and private sector partners for this critical 
corridor. What are needed now are bold first steps to get us 
moving forward. And in recognition of the multibillion dollar 
scope of the challenge that lies ahead in ``fixing'' this 
nationally significant and strategic corridor, you and the 
other members of our Congressional delegation and other 
elements of the Federal Government will need to be with us, as 
a full-fledged partner, from the start and at every step along 
the way.
    Everyone here knows of my personal interest in expanding 
transit and in bringing light rail to the people of Vancouver 
and Clark County sometime in the future. In order to achieve 
our comprehensive land use, community and economic development 
vision, light rail will need to be expanded into and throughout 
our community. I want you to know that extensive public 
surveying and outreach has been done on this topic in recent 
years and I'm convinced that the people of Vancouver and Clark 
County want their local officials to look at ways that could 
help make this happen, as part of a comprehensive 
transportation system. I've said before that the people on our 
side of the river are unique in the world in terms of the per 
capita cost of buying into an existing multibillion dollar 
system. This also could present us with the opportunity for the 
folks from our State who work in Oregon to get a little bit 
more back from the taxes they pay to the State of Oregon.
    No final decision to bring light rail here has been made. 
There would have to be a public vote. We're hoping that 
innovative public-private financing partnerships can reduce the 
cost to our citizens. It is my hope that a private-sector led 
community visioning effort currently underway will give greater 
focus and definition to the role of light rail as part of a 
comprehensive transportation system serving the entire county.
    Senator, every year since I've been mayor you have taken 
the time to come here to Vancouver and ask ``How can I help?'' 
And you have helped, over and over again!
    There are several short term steps that will help further 
advance our efforts here and that require Federal assistance 
and action, and they include:
    An earmark of about $4.5 million for ODOT and WDOT to help 
move the I-5 partnership recommendations forward and to bring 
EIS work focusing on the bridges and adjacent influence areas; 
we will also need an additional $16 million authorization for 
EIS design and related work.
    A $33 million earmark for the I-5/Delta Park to Lombard 
widening project, as mentioned, and its inclusion among 
congressionally designated ``High Priority Projects.''
    Earmarks for Tri-Met and support of the I-MAX project that 
will bring light rail to our doorstep--the Portland Expo 
Center, an authorization and execution of a final design and 
full funding grant agreement for the MAX South Corridor 
expansion project. And finally:
    Help us to attain ``new start'' authorization for the I-5/
I-205/SR500 light rail loop along with a $2 million earmark for 
the initial Alternative Analysis pursuant to FTA's New Starts 
feasibility process.
    Senator, once again, let me thank you for your personal 
interest and leadership in the field of transportation and for 
the focus you have brought to our Southwest Washington and our 
Bi-State Metropolitan Area.

                           PREPARED STATEMENT

    I don't want to sound too dramatic but last year one month 
from now I had open heart surgery. And I received a warning. I 
didn't have a heart attack. Our transportation system is 
clogged and needs an operation. We have been warned. We have 
not had a heart attack yet. I think together the character of 
our region is not inaction and I believe together we can find 
solutions to our difficulties. Thank you, Senator.
    [The statement follows:]
                  Prepared Statement of Royce Pollard
    Senator Murray, Ladies and Gentlemen, I am Royce Pollard, Mayor of 
America's Vancouver. Let me begin with a warm ``welcome back'' to 
Vancouver. I also want to begin with a thanks to you Senator Murray for 
your frequent visits to our community, and for all your hard work in 
helping us to develop and implement a comprehensive strategy to deal 
with the one area of public infrastructure where we are the most 
challenged--transportation.
                bi-state relations and the i-5 corridor
    Senator, I am happy to tell you that the general state of bi-State 
relations in our metropolitan area, among all the transportation and 
land use agencies, is as good as it has ever been. Nothing illustrates 
this more that the recently concluded 18-month effort of the Bi-State 
Portland-Vancouver I-5/Trade and Transportation Corridor Study led by 
our two Governors. Community organizations, government at all levels, 
business and labor leaders and private citizens by the thousands were 
part of this effort.
    This corridor is a nationally recognized ``choke point'' that 
nearly 65,000 residents of our County tackle each work day. It is our 
belief that the two I-5 bridges that span the Columbia just a few 
hundred yards from here are two-thirds of the remaining lift spans left 
on the Nation's interstate system. The current state of this corridor 
costs millions in lost productivity and added costs each month, and is 
an impediment to what is otherwise a promising future for economic 
growth.
    The Port of Vancouver USA has hundreds of acres of developable land 
available. The Columbia Gateway project, once completed, will bring to 
Vancouver the largest single industrial parcel in the bi-State metro 
area. The redevelopment of our downtown and waterfront has begun big-
time with over $300 million in private sector investment capital 
already at work and another $100 million anticipated in the near term. 
We've diversified our economy, enhanced our labor force, enhanced 
utility services and maintained competitive utility rates. Our medical 
infrastructure continues to grow and advance as does our K-12 and 
higher education systems. Housing is still affordable and our general 
quality of life measures quite high. We've got a lot going for us but I 
am fearful that transportation infrastructure could be our Achilles 
heal.
    For that reason we are, in my judgment, at a very critical 
juncture. After 18-plus months of hard work we have received a ``Call 
to Action'' from the members of this task force and our two Governors. 
Improving the entire corridor, including added capacity through the 
Delta Park area, replacing or modifying the two I-5 bridges, enhanced 
multi-modal and enhanced rail freight capacity are the essential 
elements that are needed and we must start down this road now.
    We know what needs to be done. There is a shared vision among the 
public and private sector partners for this critical corridor. What are 
needed now are bold first steps to get us moving forward. And in 
recognition of the multi-billion dollar scope of the challenge that 
lies ahead in ``fixing'' this nationally significant and strategic 
corridor, you and the other members of our congressional delegation and 
other elements of the Federal Government will need to be with us, as a 
full-fledged partner, from the start and at every step along the way.
                         transit and light rail
    Everyone here knows of my personal interest in expanding transit 
and in bringing light rail to the people of Vancouver and Clark County 
sometime in the future. In order to achieve our comprehensive land use, 
community and economic development vision light rail will need to be 
extended into and throughout our community. I want you to know that 
extensive public surveying and outreach has been done on this topic in 
recent years and I am convinced that the people of Vancouver and Clark 
County want their local officials to look at ways that could help make 
this happen, as part of a comprehensive transportation system. I've 
said before that the people on our side of the River are unique in the 
World in terms of the per capita cost of buying into an existing multi-
billion dollar system. This also could present us with the opportunity 
for the folks from our State who work in Oregon to get a little bit 
more back from the taxes they pay to the State of Oregon. No final 
decision to bring light rail here has been made. There would have to be 
a public vote. We're hoping that innovative public-private financing 
partnerships can reduce the costs to our citizens. It is my hope that a 
private-sector led community visioning effort currently underway will 
give greater focus and definition to the role of light rail as part of 
a comprehensive transportation system serving the entire county.
                     request for federal assistance
    Senator, every year since I've been Mayor you have taken the time 
to come here, to Vancouver, and ask ``How Can I Help?'' And you have 
helped, over and over again!
    Senator, there are several short term steps that will help further 
advance our efforts here and that require Federal assistance and 
action, and they include:
  --An earmark of about $4.5 million for ODOT and W-DOT to help move 
        the I-5 Partnership recommendations forward and to begin EIS 
        work focusing on the bridges and adjacent influence area. We 
        will also need an additional $16 million ``authorization'' for 
        EIS, design and related work;
  --A $33 million earmark for the I-5/Dela Park to Lombard widening 
        project and its inclusion among congressionally-designated 
        ``High Priority Projects'';
  --Earmarks for Tri-Met in support of the I-MAX project that will 
        bring light rail to our doorstep--the Portland Expo Center, and 
        authorization and execution of a final design and full-funding 
        agreement for the MAX South Corridor expansion project; and, 
        finally,
  --Help us to attain ``new start'' authorization for the I-5/I-205/SR 
        500 light rail loop along with a $2 million earmark for the 
        initial Alternative Analysis pursuant to FTA's New Starts 
        feasibility process.
    Senator, once again let me thank you for your personal interest and 
leadership in the field of transportation and for the focus you've put 
on South West Washington and our Bi-State Metropolitan Area.
    I don't want to sound too dramatic but I think it fair to say that 
we are on the cusp and will either, literally, build the bridges our 
region needs in the 21st Century or we will fall into the abyss of 
failure and inaction that is out of character for the people and 
institutions in our region.

    Senator Murray. Thank you very much, Mayor. I appreciate 
your testimony and your heart-felt comments. Thank you, Mr. 
Hansen.
STATEMENT OF FRED HANSEN, GENERAL MANAGER, TRI-COUNTY 
            METROPOLITAN TRANSPORTATION DISTRICT (TRI-
            MET), PORTLAND, OREGON
    Mr. Hansen. Thank you, Senator. It is a pleasure to be here 
and thank you for the opportunity to testify. I have submitted 
written testimony. I've asked that it be made a part of the 
record as if delivered. I will summarize those comments. Again, 
for the record, I'm Fred Hansen. I'm general manager of Tri-
Met, that is the public transportation deliverer in the 
Portland Metropolitan region of the three county area.
    Just a moment, if I may, you would recognize our national 
reputation in terms of light rail, but beyond that the overall 
system is a poster child for all that is done right in public 
transportation. In the Portland region we rank 29th in 
population and yet our ridership is 13th among all major 
metropolitan areas. Again, demonstrating how significant that 
public transportation sector is. Likewise, our weekend 
ridership exceeds all other major weekend use on other major 
metropolitan systems, short that in New York City. And we have 
been able to deliver that service in a most cost efficient 
fashion compared to, again, other communities. We have done 
that by making sure that we deliver good service, service that 
attracts people but also in a cost-effective way. In fact, in 
an effort to reduce our overall costs, we have taken out over 
$13\1/2\ million in annualized savings and still delivered 
exactly the same level of service, if not better.
    We at Tri-Met work very closely with C-Tran to be able to 
make sure that our service is coordinated across the river. 
Everything from being able to make sure that the system is 
seamless from the standpoint of the customer, that is, the 
ticket that they have to ride, as well as to be able to make 
sure that our stops and other coordinations are there and it's 
a pleasure to work together.
    Recognizing the need for high-capacity transit, as the 
mayor has indicated, as well as County Commissioner Pridemore, 
across the Columbia River is not new. As you know and as 
Senator Hatfield mentioned earlier, this is a project underway. 
In fact, voted on by both our side of the river as well as 
yours. It was approved in the original vote in the mid-1990's 
on the Oregon side, but not able to be put together and 
ultimately not in place for our very real needs.
    The 28 member I-5 trade corridor, governor's trade corridor 
task force you've heard much about. Let me add one additional 
observation from my perspective as a member. I was particularly 
struck that the level of agreement that occurred both between 
the two States and among the various parties, principally 
government, business and community was unanimous in terms of 
the issues around how many--how much to be able to expand 
freeways, how important transit was and virtually high capacity 
transit provided by light rail. And it was I think remarkable 
that the community of interest was so uniform across both sides 
of the river and among those groups.
    We are, as you noted in your opening comments, a nationally 
recognized area for our light rail. We have the first train to 
a plane in the West Coast. Now joined by BART in San Francisco. 
But it's interesting to note that the terminus at the airport 
is less than 2 miles from the Washington side of the river. 
Likewise, this next April when we open the Interstate MAX 
alignment terminating at the Expo Center will be less or just 
about one mile from downtown Vancouver. The opportunities to be 
able to make those systems be a part of an overall regional 
system is there and needs to be able to be joined in a way that 
I think will be very soon. I should add as an aside, we hope 
that you will be able to join us for the opening of the 
Interstate MAX alignment.
    The planned construction now of the south corridor project 
in Portland, in the Portland region, down to Clackamas Town 
Center has another important element and that is a refurbishing 
and reviewing of light rail on our transit mall. What that will 
do is allow for additional capacity, again, a capacity that can 
be utilized if Clark County is able to be entered into the 
system. We really do believe that the stage is set.
    One of the key elements of the balanced partnership is to 
be able to make sure that we really do have that loop in Clark 
County. Although it is certainly outside of my direct 
jurisdiction, Mayor Pollard mentioned again how important it is 
to be able to see that overall loop that addresses both traffic 
in the I-5 area, in the I-205 area, and, in fact, the east/west 
into Clark County. Although we certainly have focused much on 
the transportation across the river, intraClark County 
transportation on public transportation is equally important.
    The first step is, as you've heard, to do a further 
definition of the alternative work strategies and the early 
environmental work, and that will require both bi-State 
support, but also ultimately Congressional appropriations. We 
have in this region a perfect record on being able to deliver 
projects on time and within budget. In fact, I think one of the 
elements of why we are justified in receiving additional 
dollars is demonstrated by Interstate MAX. Here is a project, a 
$350 million project that we are already about 6 months ahead 
of schedule and about $30 million below budget. Ultimately, I 
think delivering very efficient projects. Not only that, it has 
provided important economic stimulus, nearly 3,000 direct jobs 
have been able to be related to that construction. In addition, 
approximately $85 million in terms of improved income in direct 
and indirect benefits. About $250 million of that appropriation 
will stay within this region to be able to further that 
economic impact. And I am very proud that we also have in terms 
of public projects in Oregon, the highest return in terms of 
assuring that people of color and businesses owned by people of 
color have participated at a higher level than ever before in 
the history of our State.
    Tri-Met and the Portland Metropolitan region support Clark 
County and C-Tran's request for bus funds and funding for the 
alternative analysis of that light rail loop. We are also 
grateful for your committee's support for the Interstate MAX 
appropriation and realize how that will be again a very tight 
issue certainly in this budget, but one that's very, very 
important.
    I might stress as well in terms of your question to Senator 
Hatfield earlier about doing innovative approaches. We believe 
that new public-private partnerships are, in fact, an element 
of that new innovative approach. And we are, in fact, seeking 
language from the appropriations as--in the appropriation bill 
this year that will allow us on the I-205 alignment to be able 
to have a particularly aggressive and innovative public-private 
partnership, something that we and the Oregon Department of 
Transportation are working very closely on.

                           PREPARED STATEMENT

    Lastly, I might mention that I do believe that it is very 
important to be able to reward efficiencies in the delivery of 
projects on time and on budget for as we have done earlier. You 
noted earlier that the cost of crossing the river sometimes are 
greater and your cost-benefit analysis may not take that into 
account. What we do need, however, is to ensure that the 
efficiencies that have been able to be achieved by this region 
are able to be acknowledged by the Federal Government and 
rewarded by ensuring that additional projects can be funded. I 
would be happy to answer any questions. Thank you for your 
time.
    [The statement follows:]
                   Prepared Statement of Fred Hansen
    Madame Chair and Members of the Committee, I am Fred Hansen, 
General Manager of the Tri-County Transportation District of Oregon, 
known as TriMet. It is an honor to appear here today to discuss the 
future of the development of the transportation system in the Portland-
Vancouver Metropolitan area.
    Your committee has been a consistent partner with our region's 
governments in nearly every aspect of improving and expanding the 
metropolitan area's transportation system. On behalf of our Board of 
Directors and the entire community, I would like to express deep 
appreciation for your support, encouragement, and for your appreciation 
of the challenges faced in this region.
    TriMet is fully committed to expansion of transit services between 
Vancouver and Portland. It is fully committed to a partnership with C-
TRAN to accomplish this, and I welcome the opportunity today to discuss 
what that entails.
                           trimet background
    TriMet is the public transit agency for the three urban counties on 
the Oregon side of the metropolitan area. It is a full service 
transportation authority operating over 600 standard size transit 
coaches, 78 light rail vehicles, and 203 accessible smaller buses and 
vans for the elderly and disabled population. We currently operate 
nearly 39 miles of Light Rail, directly serving Hillsboro in the West, 
Gresham in the East, downtown Portland and the Portland International 
Airport. Attached is an information fact sheet describing how we are 
governed and financed.
    We are proud of our system because:
  --We carry 300,000 people per day--more than any other transit system 
        our size;
  --We rank 29th in population, but 13th in ridership; and
  --TriMet carries 10 million more riders per year than larger cities 
        such as Minneapolis or Denver.
    We have also made great strides in offering this service 
efficiently. Our Productivity Improvement Program has trimmed $13 
million in annual operating costs, without affecting underlying service 
to our customers. We also have a perfect record in delivering capital 
projects on time and on budget; and for each, private investment in 
station areas has followed in dramatic ways.
    TriMet is also in its last year of construction of the Interstate 
MAX line which will extend the system from the Rose Quarter to the Expo 
Center, close to the shore of the Columbia River and only a mile short 
of downtown Vancouver. With our partners, including Washington County, 
Oregon, we are also developing a 14-mile commuter rail line. With 50 
percent local funding and all completed railroad agreements in-hand, 
this project is poised with FTA for final design approval.
    TriMet is an important element in the region's ``2040 plan''. This 
is a framework for the orderly growth and development of our urban area 
for the next 40 years. In our opinion this plan wisely envisions strong 
reliance on public transit to deliver a significant portion of the 
daily trips required to keep that future metro area functioning in a 
livable environment.
                portland-vancouver lrt: progress to date
    For more than a decade the Portland-Vancouver transit connection 
has been a priority for our region. In the mid-1990's, Portland region 
voters approved a $475 million bond measure to provide local match for 
the South/North LRT Project, which included an LRT connection with 
Vancouver. However, after a funding vote was defeated in Clark County, 
this original funding proposal has not been pursued.
    Since then we have been incrementally implementing light rail 
system improvements on the Oregon side that can relatively easily be 
expanded to provide an Oregon-Washington link.
    The most vital development to date regarding the Portland-Vancouver 
link has been the construction of the Interstate MAX light rail 
extension. This 5.8-mile addition to our 39-mile system is on time, 
under budget and scheduled for opening of revenue service next spring. 
Its terminus, at the region's EXPO center in North Portland, is only 
one light rail station away from downtown Vancouver.
    In September 2001, TriMet opened service of the MAX line to 
Portland's International Airport, the first such service on the West 
Coast. This terminus is also close to the intense growth and 
development in east Clark County, just across the Glenn Jackson Bridge 
on the I-205 corridor. This line was constructed through a public-
private partnership that has become a model for the Nation.
    Recently, our area governments made a very significant decision for 
the future of the Portland-Vancouver LRT link, when it approved the 
study of developing light rail along Portland's downtown Mall. This 
decision, when implemented, makes it possible to handle the impact of 
additional trains in the central business core when additional lines in 
Clark County are established. Without the move to improve the Mall, 
such service from the State of Washington could not be contemplated.
    The Mall project is part of a greater project called the South 
Corridor Project which eventually will see Light Rail extensions among 
I-205 South to the Clackamas Regional Center and South on the near east 
side to the City of Milwaukie.
    The local match for the first phase of this project has been 
identified. We will shortly be asking the Federal Government for 
permission to enter Preliminary engineering.
    With the Mall, Airport, and Interstate MAX extensions, we are 
poised to extend service to Clark County efficiently, when the Clark 
County area so decides.
    To operate the extended system, additional general fund revenues 
will be needed. During this session of the Oregon Legislature, we are 
seeking authority for our Board to adjust the payroll tax rate, which 
is the main revenue source for the operation of our system. The Board 
proposes to make such adjustments if authorized to do so only to 
support the expansion of the system.
               portland-vancouver lrt: current activities
    Work continues on bridging the Columbia River with LRT in the 
context of a comprehensive solution to problems in the I-5 Corridor.
    I am a member, along with my colleagues Mayor Royce Pollard of 
Vancouver, Commissioner Craig Pridemore of Clark County and Mayor Vera 
Katz of Portland, as well as representatives from Metro, the State 
DOTs, local governments, and citizens, of the Portland-Vancouver I-5 
Transportation and Trade Partnership Task force. The Task Force has 
been charged by the governors of both States to recommend 
transportation improvements in the I-5 corridor and to devise a 
strategic plan for achieving those improvements.
    The Task Force members, met for nearly 2 years, completed their 
recommendations last June, and called for significant improvements in 
transit as a well as freeway and bridge improvements along I-5 in both 
Oregon and Washington.
    The Task Force recommendations, which are included in the Task 
Force Report attached to this testimony, call for a phased light rail 
loop in Clark County in the vicinity of I-5, SR500 and 4th Plain Blvd. 
and the I-205 corridor.
    It also recommended that in markets not served well by light rail 
that peak-hour premium express bus service be established from the I-
205 and I-5 Corridors to those markets.
    The recommendations call for the implementation of transit service 
improvements as envisioned in the regional transportation plans of both 
METRO, the Portland area Metropolitan Planning Organization (MPO), and 
the Regional Transportation Council, the MPO for Clark County.
    For both C-Tran, our sister transit agency to the North, and 
TriMet, the Task Force urged that new operating support be established 
for the two transit systems and that the efforts be coordinated with 
plans to extend both bus and light rail service.
                         congressional support
    Congressional support is essential for the realization of these 
proposals for improved bi-State transit service.
    TriMet and the entire METRO region have supported C-Tran's 
proposals for fiscal year 2004 to improve bus system and to seek 
preliminary engineering funds for the Clark County LRT loop.
    We are also in support of Federal highway funds for the I-5 trade 
corridor for preliminary studies in both Oregon and Washington. I 
respectfully hope that your committee will give favorable consideration 
to C-Tran's request.
    Our own Interstate MAX project, which is nearing completion, is 
also seeking funds under its Full Funding Grant Agreement for the next 
Federal year. We hope your committee can support the proposal for $77.5 
million, as recommended in our full funding grant agreement and the 
President's budget.
                                closing
    In closing, I again wish to thank you for this opportunity to 
discuss our plans with the Committee, and I would be pleased to respond 
to any further questions you may have.

    Senator Murray. Thank you very much. Thank you to all three 
of you for your testimony this morning. I do have a couple of 
questions I would like to present to all of you. But, Mayor 
Pollard, I want to start with you.
    I think that you had worked particularly hard to try and 
bring Interstate MAX light rail to Clark County. What 
challenges remain in getting light rail to Clark County?
    Mayor Pollard. I think the vote in 1995 I believe was done 
too hastily for Clark County and Vancouver, but I was involved 
in that somewhat. I was not the mayor. And what we--the 
approach--I think the greatest challenge is making sure that 
our community is involved in the process. And we have been 
doing that for a number of years now through various surveys, 
focus groups, meeting with citizens. And our intention is, with 
discussions with the county commissioners, that any system that 
we develop will be done in conjunction with our citizens, and 
it will be a system designed by the citizens of Vancouver and 
Clark County for Vancouver and Clark County. With all respect 
to our partners across the river, we know what's there, 
certainly it's part of what we're looking at. But we at first 
want to design a system that's good for our community and then 
we will look at the opportunity of hooking into the marvelous 
system across the river.
    So, it is a continuation of this entire process, providing 
facts and information to people, and that's what we're trying 
to do right now, in fact, with the continuation of the 
transportation priorities process, which is a community 
process, is to provide facts to people. Those facts that we 
have now and hope that with the help of the Federal Government 
we will be able to continue forward and provide additional 
facts so that this community can come to a decision of where we 
want to go in reference to our future transportation system 
and, quite honestly, what role light rail may play in that.
    Senator Murray. And have you done analysis on the economic 
benefits that this kind of project would bring to the region?
    Mayor Pollard. I would admit to you that not in any 
significant detail, but there have been. I think we have 
available to us the information of the impacts that have been 
across the river, and they are significant. We hope that the 
future studies and the analysis that we are doing now will 
provide those kinds of facts and information, and I, quite 
honestly, they have to show us. We have to see the numbers. 
You're absolutely right.
    Senator Murray. Aside from light rail to Southwest 
Washington, it's also important to improve transit capacity and 
service there. My subcommittee has provided resources to build 
Park and Ride lots and adding buses to the existing fleets in 
this region to try and reduce congestion. Mr. Pridemore, you 
are on the C-Tran board, I believe. If you could talk with me a 
little bit about what projects have been successful in 
particular, I would appreciate it.
    Mr. Pridemore. I think the most significant one is the 
Fishers Landing Park and Ride which opened about a year and a 
half ago, 2 years ago now, which is already nearing capacity. 
We've had in the past at Salmon Creek an extremely successful 
Park and Ride that's been over capacity for a number of years, 
which we will be looking to relocate now as we try to work out 
the problems with I-205 and I-5 connection.
    We have 99th Street which you very recently assisted us in 
getting support for which is a Park and Ride that will be 
moving forward here in the course of next year and hopefully 
coming on line and relieving some of that additional pressure. 
What we've found with our Park and Rides is that if we build 
it, they will come very quickly. So we're looking very forward 
to developing those further along both I-5 and I-205.
    Senator Murray. Are you looking at supporting any peak hour 
premium bus service on the I-5 and I-205 corridors as part of 
the solution?
    Mr. Pridemore. We look at a range of all kinds of 
incentives that can encourage that, certainly everything is on 
the table, and we have numerous programs now that we use to 
encourage peak hour usage, special programs, particularly the 
clean air action days, for example. It helped to do that. So 
we've got a fairly broad based program.
    Senator Murray. Is the region looking at any HOV lanes on 
either I-5 or I-205?
    Mr. Pridemore. We actually have HOV lanes in operation now 
in Clark County. It's the first one outside of the Puget Sound 
area. It's been in place for about a year and a half and still 
on a pilot phase. It's showing better numbers and more 
productivity as time goes on. It's a large shift for this part 
of the community. We've advocated over on the Portland side 
that as we expand capacity on their freeway system that that 
also be dedicated HOV.
    We have HOV now that runs from 99th Street in Clark County 
down to Mill Plain and then it opens up again because you can't 
run it across the bridge as it exists today. To really make it 
effective having it run all the way down significantly further 
into Oregon would make for a lot of time savings both for HOV, 
drivers of carpools and things and for our transit system.
    Senator Murray. Mr. Hansen, do you want to add any 
comments?
    Mr. Hansen. The one thing that I would add is I that think 
that it's important that each time there's an addition to the 
public transportation system whether it be light rail or bus 
systems and so on and whether it be on the C-Tran side or on 
the Tri-Met side, what we have seen is that the more ability to 
be able to get to different parts of the region has a 
multiplier effect. It's not just an additive. It is a 
multiplier effect on the attractiveness of the system. Every 
time we add an additional light rail alignment, it attracts 
more than just the ridership that will be associated with that 
alignment. It really provides for that broader set of 
connections. The Park and Rides, the bus system, all the other 
elements come together and are very, very important. We do 
provide on the Oregon side important Park and Ride 
opportunities that are principally utilized by people from 
Washington, both the Parkrose as well as the Gateway. And we 
think that's an important part of our commitment to the region 
as a whole.
    Senator Murray. We've talked a bit about the need to 
replace or supplement the I-5 Columbia River bridge, but some 
of our previous witnesses spoke about the bottlenecks leading 
into the three lanes of traffic on that bridge.
    Can somebody talk to me about the Delta Park to Lombard 
project and how important that project is in the scheme of 
things?
    Mr. Pridemore. The recommendation that came out of the I-5 
Governors--the partnership agreement was that we would turn I-5 
into a fully functioning three-lane facility in both 
directions. As you point out, the vehicles coming on and moving 
off really does slow down the effect of one of those lanes 
currently. The Delta Park is actually two lanes now, and so 
you've got the two lanes, plus that impact of traffic entering 
and exiting, so it really does create that bottleneck.
    Expanding that to three lanes will achieve that 
facilitation of the goals of the committee. Also, there will be 
additional on/off ramps with their own auxiliary lanes that 
will help serve the industrial areas of the Columbia Boulevard 
and elsewhere. The big vision is that as we replace the 
Interstate 5 Bridge, it would be replaced with essentially a 
five-lane facility in each direction with two of those lanes 
essentially being those add/drop lanes that would allow--
currently, if you go onto SR 14 you're going southbound on 
Interstate 5. You're merging with traffic just as you're 
entering onto the bridge. It's a tremendous slowdown. If that 
lane could instead go across the bridge as a separate lane----
    Senator Murray. Without----
    Mr. Pridemore [continuing]. Drop off at Jantzen Beach, 
you'd eliminate that merge and greatly increase the ability of 
I-5--the bridge to handle the traffic.
    Senator Murray. Mayor.
    Mayor Pollard. If I might just add very quickly, purely the 
emotional issue of the Delta Park project for our citizens is 
staggering. But beyond that, if we are really serious about 
improving the flow of trade and commerce in our region we 
absolutely have to have that opening up. Because it will allow 
the cars to essentially have a way to get out of the way so 
that trade and commerce can move forward. And part of the long-
term vision, of course, is that the HOV lane would continue. 
There's been no decision made, but I think a lot of people are 
thinking that the HOV lane would be able to continue across the 
bridge and through into Oregon on that side which would speed 
up the car traffic. There already is an HOV lane on the Oregon 
side coming north in the afternoon, so it's a system approach. 
But the Delta Park fix is, I believe, the first little bypass 
for the heart that we have to fix. And not only symbolically, 
but symbolically and efficiency wise.
    Senator Murray. I caught that word first. What's second, 
third and fourth? What other projects are out there that you're 
looking at in the system?
    Mayor Pollard. I think our support for Metro's light rail 
efforts across the river are very significant. As you know, 
every time you come back they are high on our priority list 
and, of course, the initial money for our watchdog here and our 
requests from the city for our study of the light rail loop 
system for the AA analysis is very important to us.
    Mr. Hansen. Senator Murray, if I might just add two quick 
things. One is that you heard earlier from Bruce Warner, our 
director of Department of Transportation, how high our priority 
is for the Delta Park widening. That is something I strongly 
support. We all do in Oregon. No. 2, as County Commissioner 
Pridemore indicated, the issues around how much of local 
traffic that is close to the Columbia River going just over the 
river but not too much further versus the through traffic and 
other things are work that was done by the I-5 Trade Corridor 
Study Group and really believe that that next level of analysis 
to make sure that we have the most efficient system, the one 
that really makes the flows work very well, is what will come 
out of the alternative analysis in the environmental work, and 
that's why we think it's so important to be able to take that 
next step.
    Senator Murray. The strategic plan that's been talked about 
is pretty ambitious. I think implementing your recommendation 
for improvements to the bridge and providing a light rail loop 
alone in 2001 dollars is something like $2.2 billion. Both of 
our States have just signed multibillion dollar transportation 
budgets, and I know there are demands everywhere. It's going to 
be very difficult with the tight Federal funds that are 
available, State funds, local funds, that we'll see any of that 
fully implemented without looking at some innovative financing 
solutions. And I would like each one of you to talk about what 
we need to be looking at down the road to be able to fully 
implement some of these plans. And whoever wants to start.
    Mr. Pridemore. I will go ahead and start just because I 
know the mayor would steal my thunder by saying it. Mayor 
Pollard and I have talked over the years. As a matter of fact, 
he started the discussion several years before I was in office, 
and that is the idea that we do need to look at tolling at 
Interstate 5 and Interstate 205 bridges to help fund some of 
these cross bi-State issues is something that, frankly, I'm 
supportive of. I think the community will become supportive of 
over time. It's a very fair user tax. It involves a lot of work 
here locally, at the State level and the Federal level in order 
to implement something like that. But in order to get the kind 
of level of funding necessary to fund this scope of project, 
it's the type of funding mechanism that we need.
    Senator Murray. Mayor.
    Mayor Pollard. Obviously, I'm on record as saying that we 
ought to consider tolling because I agree with you, our 
citizens and the Federal Government, quite honestly, the 
staggering amount that we are going to require. I think if we 
can break it down into manageable bites and find possible 
innovative things like tolling both bridges to use for our 
transportation infrastructure, that could be a possibility.
    But beyond that I believe there are possibilities that with 
the private sector where there may be--and there's a good 
example. If it's been used across the river Fred can talk 
about. There are opportunities where there are benefits to the 
private sector where we can work together to probably reduce 
this cost to our citizens. I think without those kinds, I agree 
with you, without those, Senator, I think we face a very 
daunting task, so I think we have to look for those options.
    Senator Murray. Mr. Hansen.
    Mr. Hansen. Senator, I would add that happily the issue 
around the tolling, that's obviously always an important 
element. I remember my parents certainly talking about the 
tolling that was on the original I-5 Bridge for construction. 
Beyond that, however, I do believe that the public-private 
partnerships are, in fact, important here. I think contracting 
methods, such as design-build, which can lower costs and make 
more efficient are the types of things that can lend themselves 
to this type of a project. We're still too early to be able to 
have a specific plan of that sort, but I do believe that those 
will, in fact, not provide additional revenue, but by lowering 
costs make the band on the revenue a more palatable amount.
    Senator Murray. And those are some of the things you'll be 
looking at as you move along the strategic planning?
    Mr. Hansen. Well, certainly, there are two parts to 
planning. The alternative analysis is really looking at what 
should the structure look like and how should it be used. In 
terms of the overall financing that will be a part of the work 
as well. It will be separate from the specifics of the 
alternative analysis, as I understand that process, but those 
are pieces that are being put in place I think already or at 
least being talked of and my guess is it will start to come 
together here in the not so distant future.
    Senator Murray. Well, thank you to all three of you for 
your testimony today, and for your participation. We need to 
move on to our fourth panel, so as you leave I would like them 
to come up and I will introduce them as they are coming to the 
forefront here as well.
    For our final panel this morning for this hearing we have 
Mr. Joseph Kalinowski, who is director of WaferTech; Mr. Philip 
Parker, who is Chairman of the Southwest Washington Labor 
Roundtable; Mr. Glenn Vanselow, who is the Executive Director 
of the Pacific Northwest Waterways Association; and Mr. Tom 
Zelenka, the Chairman of the Oregon Freight Advisory Committee 
and Chair of the Transportation Committee; Pacific Northwest 
International Trade Association.
    Gentlemen, thank you so very much for coming today and 
participating. Mr. Kalinowski, let's start with you.
STATEMENT OF JOSEPH KALINOWSKI, DIRECTOR OF FACILITIES, 
            WAFERTECH
    Mr. Kalinowski. Good morning, Senator. I'm briefly going to 
summarize my testimony. You have a copy of it. Again, I'm Joe 
Kalinowski. I'm the Director of Facilities at WaferTech.
    Senator Murray. Could you raise your mic just a little bit. 
Thanks. That's good.
    Mr. Kalinowski. Is that better? Just a little bit about 
WaferTech. WaferTech is a hi-tech semi-conductor facility. 
We're wholly owned by Taiwan Semi-Conductor, or TSMC. And TSMC 
produces more semiconductor chips than any other company in the 
world. Right now WaferTech occupies about 260 acres in Camas. 
The significance of that is we have one semiconductor fab at 
that site. That site could house up to five semi-conductor 
fabs. Presently we employ about 1,000 employees. And if you 
built up that site completely that could go up as high as 5,000 
employees. Companies like WaferTech and TSMC like to cluster 
facilities. They like to build multiple facilities.
    Senator Murray. Yes, move the mic closer and move up just a 
little bit so the court reporter can hear you.
    Mr. Kalinowski. Companies like TSMC like to cluster 
facilities. We like to build multifacilities at one site. That 
provides economies to scale. We get to share equipment. We 
don't duplicate support functions. The problem we're running 
into nowadays is the cost of these fabs. In the past when we 
built our first facility about 5 or 6 years ago, the cost was 
$1.6 billion. Now, we're looking at the cost of the new fabs to 
be $3.6 billion. That's quite an investment. For companies to 
make those kind of investments there's key factors that have to 
be in the decision-making process. The basic infrastructure in 
an area are part of those key factors, and that includes things 
like power, water, sewer, the work force and such. 
Transportation falls into that basic need category. For us, the 
transportation infrastructure must provide timely access to the 
airport; that's where we ship our products. We need timely 
access to our site 24 hours a day. That's where we get our 
equipment; that's where we get our parts; that's where we get 
our supplies. And we need easy access to the industrial parks 
for all of our employees.

                           PREPARED STATEMENT

    For TSMC and other companies to make these kind of 
commitments this basic infrastructure must be already in place 
or we will not come. A few years ago we were very alarmed with 
the concurrency issues we had in the area which restricted 
growth. Working through the hi-tech council we worked with the 
local communities, the county and the State to fund the 192nd 
interchange; that was very successful. More recently we had the 
same support to fund the 1st Street widening project that 
connects the industrial park to 192nd. And we would like to 
thank you, Senator Murray, for your support for attaining 
Federal funding for that 1st Street project. Without those two 
projects I doubt WaferTech would consider expanding in Clark 
County. They were very important to us. Bottom line, if you 
want hi-tech to expand and bring jobs to the community we must 
have the basic infrastructure in place. Without a regional 
transportation plan the hi-tech expansion may be compromised. 
And again, thank you on behalf of WaferTech and the hi-tech 
community of Clark County.
    [The statement follows:]
                Prepared Statement of Joseph Kalinowski
    Transportation infrastructure is crucial not only for WaferTech's 
current needs but also our needs in the future if we are to expand our 
site. WaferTech is a contract semiconductor manufacturer located in 
Camas, Washington across the Columbia River from Portland, Oregon. We 
currently employ approximately 1,000 employees at our single 
manufacturing facility or ``Fab''. WaferTech is wholly owned by TSMC, 
Ltd. of Taiwan, considered to be the leading contract manufacturer of 
semiconductors in the world, with facilities located in Taiwan, 
Washington and Singapore and plans for a facility in Shanghai, China. 
TSMC typically does not construct just a single facility at a location 
preferring instead to follow the cluster concept of multiple 
facilities, which benefit from economies of scale.
    TSMC's original plans for WaferTech called for a total of five 
manufacturing facilities at the Camas location. New Fabs currently 
being constructed are all 300 mm Fabs which means simply that the 
silicon wafers upon which semiconductors are fabricated are 
approximately 12" in diameter as opposed to the wafers currently in use 
at WaferTech which are 8" in diameter. The larger the wafer the more 
semiconductors can be placed on it. New Fabs are enormously expensive 
costing in excess of $3 billion each. Before undertaking an investment 
of such magnitude TSMC looks very carefully at all aspects of the 
location. One of the most important is the local and regional 
transportation infrastructure.
    When TSMC originally made the decision to locate the WaferTech 
facility in Camas, there were several transportation infrastructure 
concerns regarding the rural location of the site. There was no 
convenient access to Highway 14, an important arterial for access to 
Portland International Airport. One major concern was lack of a direct 
access from the Camas industrial area to major highways such as Highway 
14 and Interstate 205. The second major concern was the concurrency 
issues, which have restricted growth in the area. Thanks to a concerted 
effort among WaferTech, State, local and Federal representatives, the 
192nd Ave interchange with Highway 14 was approved and funded along 
with the widening of SE First Street to provide that convenient 
connection that was needed.
    If TSMC's ultimate goal of building four additional 300 mm Fabs at 
its Camas site is realized it could add as many 4,000 additional jobs 
to the 1,000 already existing. In such event (which would occur over a 
period of several years), there will be additional transportation 
infrastructure issues that will need to be dealt with to handle the 
additional employees at the site as well as surrounding neighborhoods 
that will be impacted by the influx of people to fill the jobs that 
will be created. Convenient modern transportation facilities will be 
needed for the construction and equipping of the facilities. 
Construction of a facility alone will take approximately 2 years during 
which time huge amounts of materials and equipment will need to be 
delivered to the site. Similarly, when full production is reached 
(estimated at 40,000 wafers per 300 mm facility per month) access to a 
modern international airport such as Portland International Airport 
will be even more important to the company as virtually all of our 
finished products will pass through the airport. Expanded air cargo 
services such as direct service to Taiwan would be a very important 
element of any future regional transportation plan.
    When the time comes for TSMC to consider construction of their next 
300 mm facility, the Camas site will be considered and the long term 
transportation infrastructure plans for the region will be closely 
scrutinized to ensure that they will be able to meet the needs of an 
expanded site as part of any decision to expand in Camas. Without an 
adequate regional transportation plan Camas may well be at risk of not 
being considered for future expansion by TSMC.

    Senator Murray. Thank you very much. Mr. Parker.
STATEMENT OF PHILLIP PARKER, CHAIRMAN, SOUTHWEST 
            WASHINGTON LABOR ROUNDTABLE
    Mr. Parker. Good morning. I'm Philip Parker, Chairman of 
the Labor Roundtable of Southwest Washington, Trustee to Clark, 
Skamania and West Klickitat Central Labor Council and a 30-year 
member of the International Brotherhood of Electrical Workers.
    I would like to thank our senior Senator Patty Murray for 
her leadership in both Washingtons. Her energetic support 
continues to benefit Southwest Washington and our Oregon 
neighbors. I appreciate being asked to participate on this 
distinguished panel today.
    Members of organized labor believe the most pressing 
regional issue is funding for multimodal transportation and 
infrastructure systems. We are active participants in seeking 
solutions to our challenges. We serve as members of interstate 
commissions like the Columbia River Channel Coalition; State 
boards and commissions; local groups like the Vancouver 
Transportation Finance Task Force and have organized discussion 
groups like the Light Rail/Economic Development Forum.
    Because of our worries about the anti-worker anti-union 
attitude in the other Washington are looming larger, I would 
like to share some of the issues that concern the men and women 
of organized labor. There are many unfounded myths regarding 
union workers which continue to surface when government on any 
level considers investing in infrastructure and transportation. 
Government agencies fail to understand how including prevailing 
wage, union apprenticeship project labor agreements in 
infrastructure and transportation contracts can actually lower 
costs while increasing worker safety. It is both possible and 
profitable to create family wage jobs, with reasonable benefit 
packages, to strengthen the economy and the community.
    Statements that repealing the current prevailing wage law 
will create savings of 20 percent or more are unfounded, 
counter-productive and just plain wrong. Take the example of 
new building construction. The generally accepted cost 
breakdown is 24 percent labor and 76 percent fixed cost. Since 
fixed costs will not change, the only way to attain 20 percent 
labor savings is to eliminate almost all of the project's total 
craft payroll. And this is possible only if the tradesmen work 
for nothing! Obviously, this is highly unlikely.
    Right-to-work organizations would have you believe non-
union training programs are equal to union apprenticeship 
programs. Again, I disagree. Apprenticeship is the original 4-
year degree. A proven method to enhance skills, efficiency and 
productivity. Union apprenticeship programs include ten times 
more minorities and women than non-union programs and their 
graduation rates are at least 15 percent higher.
    In addition, union contractors continue to lead the way 
regarding fair, mandatory and inclusive drug testing. As much 
as 40 percent of job fatalities and 47 percent of injuries can 
be linked to alcohol. In addition, 77 percent of illegal drug 
users work full time. Non-union contractors are very slow and 
non-reactive on this issue.
    The opponents of Project Labor Agreements would have you 
believe that PLAs lead to higher costs and more job-site 
accidents. A recent study conducted by the Rhode Island 21st 
Century Labor Management Partnership provided actual data to 
the contrary. Since I have already discussed the issue of 
project costs, let's talk about safety. The Rhode Island 
project studied OSHA records for the period of 1998 to 2001. 
During that period, there were eight construction fatalities--
all in the non-union sector and OSHA recorded over four times 
more violations against non-union contractors. The hallmark of 
organized labor has always been productivity, safety, knowledge 
and skill in the workforce.
    When governments consider major road construction, they 
seem to think that low wages and low benefits mean lower total 
costs. This is a false assumption. A study of the Federal 
Highway Administration data indicates how skills and 
productivity--not differences in wage rates--are critical 
determiner of bottom line costs per mile of highway. Using data 
for 13 low-wage States (including MS, GA and FL) and 13 high-
wage States (including WA, OR and CA) this study showed that 
the use of higher-paid, higher-skilled workers reaped an 
average of $123,000 a mile savings in the high-wage States. 
This despite the fact that wages in these States averaged $17 
an hour compared to $9 per hour in lower-wage States.

                           PREPARED STATEMENT

    Our diverse union membership stands ready to support 
America in her important mission to build and maintain our 
infrastructure and transportation systems. Union members live, 
raise their families and vote in our community. We support our 
governments by paying gas, property, sales and Federal income 
taxes. We see infrastructure and transportation as both the 
fertilizer and the seed needed for economic growth. Together, 
we can grow our communities, the State and the Nation. Thank 
you.
    [The statement follows:]
                  Prepared Statement of Philip Parker
    Good Morning, I am Philip A. Parker, Chairman of the Labor 
Roundtable of Southwest Washington, a Trustee of the Clark, Skamania 
and West Klickitat Central Labor Council and a 30-year member of the 
International Brotherhood of Electrical Workers.
    I would like to thank our Senior Senator Patty Murray for her 
leadership in both Washingtons. Her energetic support continues to 
benefit Southwest Washington and our Oregon neighbors. I appreciate 
being asked to participate on this distinguished panel today.
    Members of organized labor believe the most pressing regional issue 
is funding multi-modal transportation and infrastructure systems. We 
are active participants in seeking solutions to our challenges. We 
serve as members of interstate commissions like the Columbia River 
Channel Coalition and the Regional Transportation Commission; State 
boards and commissions; local groups like Identity Clark County and the 
Vancouver Transportation Finance Task Force and have organized 
discussion groups like the Light Rail/Economic Development Forum.
    Because our worries about the anti-worker, anti-union attitudes in 
the other Washington are looming larger, I would like to share some of 
the issues that concern the men and women of organized labor. There are 
many unfounded myths regarding union workers, which continue to surface 
when government, on any level, considers investing in infrastructure 
and transportation. Government agencies fail to understand how 
including prevailing wage, union apprenticeship and project labor 
agreements in infrastructure and transportation contracts can actually 
lower costs while increasing worker safety. It is both possible and 
profitable to create family wage jobs, with reasonable benefit 
packages, to strengthen the economy and the community.
    Statements that repealing the current prevailing wage laws will 
create savings of 20 percent or more are unfounded, counter productive 
and just plain wrong. Take the example of new building construction. 
The generally accepted cost breakdown is 24 percent labor and 76 
percent fixed costs. Since fixed costs will not change, the only way to 
attain 20 percent labor savings is to eliminate almost all of a 
project's total craft payroll. And this is possible only if tradesmen 
work for nothing! Obviously, this is highly unlikely.
    Right to Work organizations would have you believe that non-union 
training programs are equal to union apprenticeship programs. Again, I 
disagree. Apprenticeship is the original 4-year degree--a proven method 
to enhance skills, efficiency and productivity. Union apprenticeship 
programs include ten times more minorities and women than non-union 
programs and their graduation rates are at least 15 percent higher.
    In addition, union contractors continue to lead the way regarding 
fair, mandatory and inclusive drug testing. As much as 40 percent of 
job fatalities and 47 percent of injuries can be linked to alcohol. In 
addition, 77 percent of the illegal drug users work full time. Non-
union contractors are very slow and non-reactive on this issue.
    The opponents of Project Labor Agreements would have you believe 
that PLAs lead to higher costs and more jobsite accidents. A recent 
study conducted by the Rhode Island 21st Century Labor Management 
Partnership provides actual data to the contrary. Since I have already 
discussed the issue of project costs, let's talk about safety. The 
Rhode Island project studied OSHA records for the period of 1998-2001. 
During that period, there were eight construction fatalities--all in 
the non-union sector and OSHA recorded over 4 times more violations 
against non-union contractors. The hallmark of organized labor has 
always been productivity, safety, knowledge and skill in the workforce.
    When governments consider major road construction, they seem to 
think that low wages and low benefits mean lower total costs. This is a 
false assumption. A study of Federal Highway Administration data 
illustrates how skills and productivity--not differences in wage 
rates--are the critical determiner of bottom line costs per mile of 
highway. Using data for 13 low-wage States (including MS, GA and FL) 
and 13 high-wage States (including WA, OR and CA) this study shows that 
the use of higher paid, higher skilled workers reaped an average 
$123,000/mile savings in the high wage States. This despite the fact 
that wages in these States averaged $17 an hour compared to $9 per hour 
in the lower wage States.
    Our diverse union membership stands ready to support America in her 
important mission to build and maintain our infrastructure and 
transportation systems. Union members live, raise their families and 
vote in our communities. We support our governments by paying gas, 
property, sales and Federal income taxes. We see infrastructure and 
transportation as both the fertilizer and the seed needed for economic 
growth. Together, we can grow our communities, the State and the 
Nation.
    Thank you.

    Senator Murray. Thank you very much, Mr. Parker. Mr. 
Vanselow.
STATEMENT OF GLENN VANSELOW, EXECUTIVE DIRECTOR, 
            PACIFIC NORTHWEST WATERWAYS ASSOCIATION
    Mr. Vanselow. Thank you for this opportunity to testify on 
this important topic. I am Glenn Vanselow, Executive Director 
of Pacific Northwest Waterways Association.
    First I want to thank you, Senator Murray, and, like you, I 
want to recognize that the entire Northwest delegation is 
uniformly supportive of the transportation infrastructure 
maintenance and improvement throughout the Northwest. And like 
you, and, Senator Hatfield, in your opening remarks and in his 
remarks, you very ably described the importance of the role of 
transportation and the role that the Pacific Northwest plays as 
a gateway in international trade.
    The Northwest economy, while suffering, is as strong as it 
is because the region's international trade related 
infrastructure is strong. We want to keep it strong. There are 
some philosophical differences between the administration and 
our members in Pacific Northwest Waterways Association that 
affect our requests to Congress. The administration is seeking 
to decrease Federal funding on infrastructure, shift funding 
responsibility from the Federal Government to the private 
sector and local governments and establish new or increased 
user fees.
    By contrast, PNWA is working hard to keep the Federal role 
in operating, maintaining and improving navigation 
infrastructure; keeping essential government functions such as 
operating the dredges Essayons and Yaquina; increasing Federal 
funding for navigation and transportation projects; and 
opposing the expansion of user fees.
    Federal investment is justified because for every Federal 
dollar spent on navigation and transportation infrastructure 
many more dollars are returned to the treasury, to local 
economies and to corporations and individuals. This happens 
because navigation and transportation efficiencies reduce 
shipping costs and increase the competitiveness of the United 
States producers in the world marketplace.
    Our philosophical differences could have major impacts in 
the Northwest. On the navigation side the administration 
proposes to reduce or eliminate funding for what they're 
calling low-use waterways, ports and harbors. Ultimately, their 
goal is to de-authorize low-use waterways either closing them 
down or shifting responsibility completely to local interests.
    The Columbia/Snake inland barge system, for example, is on 
the administration's list of low-use waterways. The ports of 
Ilwaco and Chinook, as well as the coastal ports in Oregon, are 
not funded by the administration. These differences in 
philosophy and approach between the PNWA and the administration 
leads to our appropriations requests.
    On the navigation side, we support increased operations and 
maintenance funding for cargo facilities like the Ports of 
Vancouver, Kalama, Longview and Portland, and for commercial 
and recreational fishing ports like Ilwaco and Chinook. We 
support Federal investment in navigation improvements, like the 
Columbia River channel deepening and the widening of Blair 
Waterway in Tacoma. And we support funding to rehabilitate our 
region's failing infrastructure, from the jetties at the mouth 
of the Columbia to the locks on the Snake River and the seawall 
at Elliott Bay in Seattle.
    On the land side, we appreciate the gains that have been 
made in freight mobility through your support and we continue 
to encourage more investment in moving freight along our 
transportation corridors. We support the initiatives of the I-5 
partnership which you heard about earlier in this hearing, 
including the I-5 improvements and rail improvements in 
Vancouver and Portland. Moving the BNSF rail bridge swing span 
will increase the safety of barge traffic and reduce the need 
for opening the I-5 lift span. And both inside and outside the 
Southwest Washington focus of this hearing are several rail, 
highway and airmodal projects we are supporting, some examples 
include the Fast Corridor in Seattle, the Lake River overpass 
at Ridgefield, Washington, and from large mega-projects down to 
some smaller local community interests, eliminating rail-at-
grade crossings is a priority for both safety and efficiency in 
both contexts.
    We support rural market access improvements including 
widening to four lanes, the U.S. Highway 12 from Wallula to 
Walla Walla, the Port of Pasco's Ainsworth Avenue realignment 
and the crane project at the Port of Umatilla, most of which 
are already underway as a result of funding you helped to 
secure.

                           PREPARED STATEMENT

    In conclusion, much has been accomplished. There's still 
much to do. And, Senator Murray, we thank you for your efforts 
and your success in elevating our regional issues and regional 
needs into national priorities. We look forward to continuing 
to work with you and the committee to improve our regional 
transportation corridors, and this will result in more 
efficient trade gateways to maintain our Nation's and our 
region's competitive position in the international marketplace. 
Thank you very much.
    [The statement follows:]
                  Prepared Statement of Glenn Vanselow
    Thank you for the opportunity to testify on this important topic. 
PNWA is a non-partisan, regional, multi-industry association focusing 
on Federal trade, transportation, navigation and economic development 
policy. We represent public and private sector interests in Washington, 
Oregon and Idaho, including ports, towboat companies, steamship 
operators, river and bar pilots, agricultural producers, forest 
products manufacturers and others.
    First, we would like to thank you, Senator Murray, and the entire 
subcommittee for your support of transportation infrastructure 
maintenance and improvement throughout the Pacific Northwest.
    The Pacific Northwest is an important national gateway for 
international trade. Washington is the most trade-dependent State in 
the Nation. Oregon ranks No. 6. In the region, as a whole, more jobs 
are dependent on international trade than in any other region of the 
United States. (One in four in Washington; one in five in Oregon.) 
Waterborne foreign trade through Pacific Northwest ports totals over 60 
million tons of cargo and $65 billion in cargo value each year. Seattle 
and Tacoma are among the world's largest container ports. The Columbia 
River is the largest wheat export gateway in the United States, 
handling 40 percent of U.S. wheat exports.
    The Northwest economy is as strong as it is because the region's 
international trade-related infrastructure is strong. Although Congress 
appropriates funds for navigation and surface transportation in two 
different bills, we view both as part of a single unified 
transportation system. That system includes harbors and navigation 
channels as well as the rail lines and highways that feed the ports and 
move cargo to and from our Nation's producers and consumers.
    The Pacific Northwest Waterways Association urges the 
administration and Congress to fund needed navigation and 
transportation infrastructure to ensure that we have an efficient, safe 
transportation system that meets the needs of both people and freight.
    On the navigation side, we support increased operations and 
maintenance funding for cargo facilities like the Ports of Vancouver, 
Kalama, Longview and Portland, and for commercial and recreational 
fishing ports like Ilwaco and Chinook. We support Federal investment in 
navigation improvements, like the Columbia River channel deepening and 
the widening of Tacoma's Blair Waterway. And we support funding to 
rehabilitate our region's failing infrastructure, from the jetties at 
the Mouth of the Columbia River to the locks on the Snake River and the 
seawall at Elliot Bay.
    On the land side, we have been urging Congress to increase the 
priority of freight mobility for several years. We appreciate the gains 
that have been made through your support and continue to encourage more 
investment in moving freight along our transportation corridors. That 
is a key component in maintaining our Nation's competitive position in 
the international marketplace.
    The Interstate 5 (I-5) Corridor is the most critical segment of the 
transportation system in the Portland/Vancouver area. The I-5 highway, 
the road and rail bridges that cross the Columbia River, and the area's 
rail network constitute a serious chokepoint for passenger and freight 
traffic. Growing congestion significantly slows not only local traffic 
but traffic headed to the Puget Sound and California as well. In that 
sense, it is a serious local, bi-State, regional, and even national 
challenge.
    According to a recent study, without improvements, the duration of 
peak-period congestion at the I-5 Interstate Bridge and the parallel I-
205 bridge will double from 4 hours today to nearly 10 hours in 2020. 
As a result, congestion will spread into the mid-day period, which is 
the peak travel time for trucks. The rail network within the Portland/
Vancouver area is equally congested. Congestion adds about 40 minutes 
to every rail move, twice the delay in Chicago--the Nation's largest 
rail hub. Delays of this kind have a direct impact on the cost of 
shipping and, ultimately, our ability to trade.
    The I-5 Partnership, a bi-State task force, has studied the I-5 
road and rail chokepoint and recommended several improvements to 
enhance its capacity and efficiency. Several public and private sources 
will have to contribute funding for these improvements. At the Federal 
level, the Oregon Department of Transportation (ODOT) and the Port of 
Portland are seeking funds in the fiscal year 2004 transportation 
appropriations bill and the TEA-21 reauthorization bill. Specifically, 
ODOT is requesting $500,000 in the appropriations bill to initiate 
detailed studies of the Columbia River crossing and $32.8 million in 
the TEA-21 reauthorization bill to widen the Delta Park/Lombard segment 
of I-5--a critical project to reduce congestion between Vancouver and 
Portland. The Port of Portland is seeking $11 million to build a rail 
yard on Port property that will add capacity to the area's rail 
network.
    Another of the I-5 Partnership's identified projects is 
construction of a new rail line that would bypass the Vancouver Rail 
Yard. This would increase the efficiency and safety for freight trains 
moving through the Vancouver area to Columbia River ports as wall as 
for freight and Amtrak trains moving to and from Puget Sound on UP and 
BNSF lines that run south to Vancouver then east to the interior of the 
United States through the Columbia Gorge.
    The BNSF Rail Bridge across the Columbia just west of the I-5 
Bridge presents a safety hazard that needs improvement. By moving the 
swing span from the north side of the rail bridge toward the center of 
the river, the opening would be aligned with the tall span of the I-5 
bridge. This would increase the safety of barge traffic on the river 
and reduce the need for opening the I-5 lift span, thus reducing delays 
for automobiles and trucks on I-5. We have been seeking Truman-Hobbs 
funding for this project.
    Also over the Columbia River, work has begun on improvements to the 
Lewis and Clark Bridge between Longview, Washington and Rainier, 
Oregon. We appreciate your support for that project. The next phase 
needs funding of $1.75 million for improved access to the bridge from 
Longview.
    Within the Pacific Northwest, but outside the Southwest Washington 
focus of this hearing, are several rail, highway and intermodal 
projects we are supporting. From the FAST Corridor in Seattle, to the 
Lake River Overpass in Ridgefield, Washington, eliminating rail at-
grade crossings is a priority for both safety and efficiency.
    Rural market access and industrial park access improvements are 
underway throughout the Northwest, and more work is needed. As 
examples, we thank you for your support of the first phase of the 
widening to four lanes of U.S. Highway 12 from Wallula to Walla Walla. 
The U.S. Highway 12 Coalition has requested $5.1 million in fiscal year 
2004 to begin work on the next phase. We also support the Port of 
Pasco's fiscal year 2004 appropriations request for $3 million for the 
Ainsworth Avenue Realignment and Sacagawea Heritage Trail Project to 
improve access to the Big Pasco Industrial Center.
    As an example of intermodal projects supported by this 
subcommittee, again, we thank you for funding the crane project at the 
Port of Umatilla, Oregon. Two-point-eight million dollars of the $4.2 
million needed was funded last year.
    In conclusion, much has been accomplished to improve transportation 
in the past few years. There is still much to do. Senator Murray, we 
appreciate your efforts and your success in elevating our regional 
needs to national priorities. We look forward to continuing to work 
with you and the subcommittee to improve our region's transportation 
corridors. This will result in more efficient trade gateways to 
maintain the country's competitive position in the international 
marketplace. Thank you.

    Senator Murray. Thank you, very much, Mr. Vanselow. Mr. 
Zelenka.
STATEMENT OF TOM ZELENKA, CHAIRMAN, OREGON FREIGHT 
            ADVISORY COMMITTEE AND CHAIR, 
            TRANSPORTATION COMMITTEE, PACIFIC NORTHWEST 
            INTERNATIONAL TRADE ASSOCIATION
    Mr. Zelenka. Good morning, Senator Murray. Tom Zelenka, 
Vice President with Schnitzer Steel Industries and here today 
as Chairman of the Oregon Freight Advisory Committee which is 
statutorily created committee by the Oregon legislature to 
provide advice to the director of the Department of 
Transportation and the Oregon Transportation Commission on 
various freight mobility issues, programs and policies on all 
the modes affecting freight.
    If I could, I would like to preface my comments and deviate 
a minute just to thank you, also related to a different matter 
that's not on the agenda, per se, but your steadfast support of 
the Maritime Fire and Safety Association has been a key issue 
and supportive of really the whole lower Columbia River 
transportation infrastructure. As you know, that's a bi-State 
public-private partnership providing ship fire safety and spill 
response capability, ships and terminals along the entire 40-
foot navigation channel, and your steadfast support has been 
critical and appreciated very much.
    If I could, the Oregon Freight Advisory Committee one of 
its first projects was a study called Freight Moves the 
Economy, and that really I think sums it up in terms of from 
the business perspective dealing with the freight component of 
transportation. Freight does move the economy. And today's 
focus on I-5, as you've heard an awful lot of comments on that, 
clearly is a transportation route. It's also an international 
trade route from Baja to B.C.
    Just this summer I've been in meetings from Seattle to 
Portland to Sacramento to L.A. and next week in Oakland, coast 
wide of States and local interests looking at I-5 as a critical 
issue and how are we going to fund and move ahead to make sure 
that we continue with the advantages that that I-5 system 
provides, not just to the local areas but for the entire 
international trade community.
    We're facing immense challenges. The global supply chain 
logistics, the just-in-time delivery system, as you know, the 
heightened port requirements that we are facing, and again, the 
renewed interest of the Panama Canal by overseas interests 
looking at all water moves that impact the West Coast. I've 
been ticked off a number of times the challenges we're looking 
ahead at relative to the rapid growth that we're forecasting 
both in terms of people and goods, and yet how businesses are 
supposed to be competitive in those global markets.
    As we are hearing about congestion today and we've all sat 
in congested roadways, it's very irritable and frustrating when 
we're sitting there whether it's in a car or a bus. But to that 
18-wheeler it's more than just an irritation. It often means 
did we make or lose the sale, did we make or lose a profit. Are 
we going to lose jobs. And that's a critical issue for 
business.
    So funding for the Interstate Bridge and the related 
projects that you heard about, and I was glad Mayor Pollard 
ticked off for you a set of specific earmarked projects. We 
heartily endorse every one of those that he was mentioning to 
you. Those are critical. I would only add that, and as you 
know, that's almost kind of a down payment, but somewhere down 
the line we need to be looking at things like the I-5/I-84 
connection down by the Rose Quarter. We've got to deal long 
term with that or this will just have been a temporary fix.
    Rail--and you've been asking the question and I would like 
to respond to it a little bit. Rail certainly is part of the 
solution. We need to do more both with rail and frankly with 
barge and the connectors, the road connections to our railways 
and to our port terminals. Will it help? Yes. Is it the total 
solution? Will we be able to avoid doing road improvements if 
we just do the rail? I think the answer is no.
    My company alone, we have a steel mill in McMinnville. We 
built a brand new facility there and made the major investment 
to put all the product moving in and out by rail. We move maybe 
half by rail, and that's because of the various inefficiencies 
and other unrelated issues, I don't need to get into today, 
relative to the movement of freight by rail.
    So it will be part of the solution. We need to do all we 
can, but it's not the panacea alone.
    Certainly there's a lot of talk about public and private 
partnerships and the capital investments needed. I think that's 
true both operationally in terms of what we need to do at the 
private sector and our own warehouse distribution of 
manufacturing facilities, as well as the roadways themselves.
    And I was glad that you are asking questions about the 
local process. Process is something that we also need to look 
at. It's something that frankly our committee has been looking 
at and, in fact, recently, we had a series of discussions with 
some Federal Highway Administration people from DC visiting, 
discussing freight needs. And what was really instructive in 
part of that discussion was listening to their review 
nationwide and understanding that from the business perspective 
businesses increasingly are looking at the national and the 
international markets, strategizing how they are going to be 
making their investment strategies attendant to those national 
and international global markets while in terms of the planning 
and the funding for transportation projects are increasingly 
localized. This is the Federal Highway Administration people 
seeing this phenomena nationwide, so that businesses are 
looking globally, making their investment strategy so that they 
can remain competitive. And yet what we're seeing is, in terms 
of transportation planning, transportation funding, 
increasingly localized and be neighborhood oriented. It's a 
natural tension, and it's not to dismiss the local issue at 
all, but it's one to recognize it's there and we need to come 
to grips with how do we mesh those, because clearly what the 
Federal Highway Administration folks were recognizing and what 
we're seeing is there is a tremendous potential for a major 
disconnect as businesses try to invest and make those national 
global investment strategies depending on the transportation 
infrastructure, and it may or may not be there, and we have got 
to come to grips with that. It's something that our freight 
advisory committee is looking at. And I'm pleased that that is 
a topic of discussion today.

                           PREPARED STATEMENT

    So to summarize because I realize time is getting on, from 
our vantage point freight moves the economy. I-5 is a critical 
not just a transportation but a trade corridor. And I would 
encourage, in fact, look at it in terms of the reauthorization 
measure, if there's any way to be giving greater value in the 
formula for multistate trade routes that are critical to the 
national economy that would benefit the entire I-5. And I know 
from my conversations with the West Coast corridor, up and 
down, that it's something that we might even find Californians 
supporting. Maybe. I-5 needs the investments, and I appreciate 
your interest.
    [The statement follows:]
                   Prepared Statement of Tom Zelenka
    My name is Tom Zelenka, Vice President with Schnitzer Steel 
Industries, Inc., a leading national scrap metal recycler and steel 
manufacturer, as well as for the Schnitzer Group of Companies, involved 
in real estate development and investment, ocean shipping and 
industrial gas production and distribution. With our corporate offices 
located in Portland, Oregon, the efficient movement of people and goods 
and transportation is key to all these business endeavors.
    Let me preface my comments by first thanking you for your steadfast 
support of the Maritime Fire and Safety Association (MFSA), a bi-State 
public/private partnership providing ship-fire safety and spill 
protection to the ships and terminals along the 40-foot navigation 
channel. Even though MFSA isn't the subject of this hearing, it is a 
key support feature of the Lower Columbia River's transportation 
infrastructure--and your continued leadership to earmark Federal funds 
for MFSA is critical to its success.
    I'm also appearing today as Chairman of the Oregon Freight Advisory 
Committee, which is statutorily created to advise the Director of the 
Oregon Department of Transportation and the Oregon Transportation 
Commission on issues, policies and programs affecting multi-modal 
freight mobility. Our focus is on all modes of transportation, whether 
road, rail, air, water or pipeline and the committee's make-up includes 
representatives of carriers, shippers, manufacturers, governmental 
agencies and port districts.
    Let me first make a few remarks from our company's perspective. 
Whether it's moving our company's recycled scrap metal for processing 
or export, from Tacoma, Portland, Oakland or LA . . . the I-5 freeway 
plays a part. The same is true for the movement of finished new steel 
products, manufactured at our steel mill in McMinnville, Oregon, 
serving 13 western U.S. States. As the only continuous freeway the 
length of the West Coast, I-5 is a critical component to ensuring the 
efficient movement of both goods and people. I-5 is a significant 
freight route. It should also be seen as a key national trade route 
from B.C. to Baja, as well as the movement of goods to/from overseas.
    Yet, the Portland-Vancouver metropolitan area has become a choke 
point for freight mobility along the corridor because it simply does 
not have the capacity to handle the 100,000 vehicles, 14 percent of 
which are trucks, that use this portion of I-5 daily.
    Perhaps, the need for efficient transportation can be best 
illustrated by our 220-acre industrial park in Vancouver, the Columbia 
Business Center, on the north side of the Columbia River, in close 
proximity to the Interstate I-5 Bridge. Close-in to the Portland/
Vancouver metropolitan area, the 100 plus tenants' transportation needs 
of the Columbia Business Center are served by both north/south and 
east/west roadways, rail and barge. The tenants range from the small 
mom and pop operations to the Fortune 500, with customer markets that 
are the local Vancouver market solely, to a customer base that is 
metropolitan region based, Pacific Northwest based, national or the 
global international market-place.
    Yet, no matter which market is the ultimate goal for these tenants, 
I-5 plays an important role either directly or indirectly as it 
connects to other modes. Our area is the gateway and hub of 
transportation; key issues are the connectors between our major 
roadways, railways, port terminals and airport and manufacturers, 
producers or end users. Every day the challenge is to make the supply 
chain move seamlessly and without a delay or break. For every company 
the specific costs of delay may be different, but an average cost of a 
general delay for a truck is at least $60 per hour and up to about $375 
per hour for unexpected delays due to major traffic incidents.
    But, the cost of congestion isn't just hitting the freight move--it 
ripples through the economy--with a multiplier like effect--the net 
effect of congestion can mean not just a loss of a day's profit, but 
the ability to make a sale, stay in business--or loss of jobs.
    While this area has benefited from good transportation investments 
in the past, that competitive advantage is fading fast. By the year 
2020, freight tonnage in the western United States is predicted to 
increase by 100 percent, outpacing all other regions in the United 
States; congested lane miles on truck routes will increase by 58 
percent, and the duration of congestion at the Interstate bridge will 
double from 4 hours today to nearly 10, increasing the cost of delay to 
trucks 140 percent from $14 to $34 million.
    Here, more than other areas across the Nation, we are dependent on 
transportation-intensive industries, making up 54 percent of the 
regional economy, as compared to 49 percent nationally. Local, regional 
and national transportation routes must be preserved and enhanced if 
business is to effectively participate in economic markets, whether 
local or global. With 1 out of 10 jobs in the metropolitan area related 
to the wholesale trade and freight sectors of the economy we have a lot 
at stake to insure we retain this region's economic viability to be 
competitive in the market-place.
    It is critical, however, that we understand and find the funds 
necessary to invest in the entire transportation infrastructure in this 
corridor. This means not exclusively limiting strategic investments to 
the I-5 freeway itself, but ensuring its ability to connect with other 
important transportation links, such as I-84. Although much focus has 
necessarily been given to addressing the frustrating standstill traffic 
jams at the I-5 interstate bridge, we know there is more yet to 
address. For example, as long as the bottleneck at the I-84 junction 
continues, improvements made along the I-5 corridor will be less 
effective in securing efficient freight movement. The I-84 exchange 
should be studied and improved along with other significant bottlenecks 
along the corridor such as Delta Park and the Interstate Bridge.
    Another critical component to I-5 and the ability to move freight 
efficiently are the railways. The Portland-Vancouver area benefits from 
the service of two transcontinental railways, but significant 
improvements are needed to take advantage of the rail system's long 
haul capacity. We understand that at times the rail delay here double 
that of Chicago's, the Nation's largest rail hub. Railways are an 
important tool in moving freight for businesses along the Lower 
Columbia, such as our tenants at Columbia Business Center whom are 
provided access to rail spurs and switching services. Can more goods be 
shipped by rail? Yes. Can we avoid the need for road investments if 
more is shipped by rail? No. However, the critical component rail 
provides to the overall transportation infrastructure underscores the 
importance of evaluating the system as a whole, ensuring good 
connections between all modes, and investing in the viability of the 
entire network.
    Let me now conclude with a few comments on behalf of the Oregon 
Freight Advisory Committee. One of the first efforts of our committee 
was the preparation of a report entitled ``Freight Moves the Oregon 
Economy'' (www.odot.state.or.us/intermodalfreight/Reports/FreightMoves/
freight_moves_contents.htm). This could have just as easily been 
entitled ``Freight Moves the Washington Economy''! Or ``Pacific 
Northwest'' Or ``California'' Or ``U.S.''
    The west coast faces an enormous challenge in handling the growing 
volume of freight related to trade. Global supply chain logistics, 
just-in-time deliveries and heightened port security requirements are 
several of the factors.
    Clearly, part of the challenge is the need for greater investments, 
both on the public side and by the private sector in optimizing 
existing capacity and improving productivity of freight operations.
    But, perhaps there are also some ``process'' improvements needed. 
One of the key concerns we have been grappling with is how to address 
the natural tension that sometimes exists between freight movement and 
freight transportation needs and local concerns about growth, density 
and livability. Recently our committee met with several Federal highway 
administration officials discussing freight needs. It was most 
instructive to hear from them their awareness that around the Nation 
the private sector has become much more focused on the national and 
global markets and the need for business investment strategies 
attentive to those markets, while in terms of planning and funding for 
roads, which is dependent on local government planning and 
authorization actions, have become increasingly focused on localized or 
neighborhood based solutions, often resulting in significant 
disconnects between the strategies of the business sector needing to 
invest for the national or global markets, while the local government 
is investing in infrastructure based on local impacts alone.
    There is no easy solution to balancing this tension between 
neighborhood desires or getting goods and services to global markets. 
Nevertheless, we must come up with the means to provide the broad 
perspective needed to ensure appropriate transportation investment 
strategies are developed that meet the needs of all citizens.
    Thank you for the opportunity to present a few remarks. I'd be 
pleased to answer any questions.

    Senator Murray. Thank you very much to all of you for your 
testimony. Mr. Zelenka, you have the mic and since we're moving 
it around up here let me just start with a quick question for 
you. And I appreciate your comments on rail and on your 
comments on that tension that we have between trying to plan 
globally and recognizing the critical input from local citizens 
because without the support from local citizens it's impossible 
to get Federal funds. In a very competitive time when a lot of 
communities come to us with requests, it's pretty easy to use 
that as a criteria of which projects don't get funded, so it's 
always important to do both. But I appreciate that.
    Let me ask you in particular on the rail part of this 
because the efficient movement of freight on our rail system 
and coordinating intermodal transportation services has to 
occur. Can you tell me if there are any new initiatives in the 
strategic plan that will help us improve rail efficiency?
    Mr. Zelenka. Some of the things I think we need to get at 
are in each of the States, as you know with the deregulation 
and the movement away and the move towards short lines, that 
we've got to come to grips with how we better mesh their long-
term investments so that if you're off the I-5 valley corridor, 
how are the local communities going to be able to feed in. I've 
got a facility in north Portland where it takes 10 days to get 
cargo 38 miles.
    Senator Murray. Ten days?
    Mr. Zelenka. Ten days, if I'm lucky. The same is true 
coming out of Eugene because it's a switch between lines--
between carriers. And I don't want to be disparaging any 
individual carrier, but again, if I'm company A I'm going to 
move company's A cargo first other than company B's, which is 
going to involve a switch. And that's also dependent on what's 
the availability of the crews and the switch engines, which may 
move around, depending on other more global needs of the rail 
carriers. So short lines, the rail yards.
    You had some discussion about the needs for some of the 
rail improvements on the side tracks that I think are critical 
for both in Vancouver as well as in Portland. And I would also, 
as Mr. Vanselow said, I think really looking at the Columbia 
River railroad bridge and the need to deal with that both from 
the improvement on the Interstate Bridge replacement, but also 
from the navigation standpoint. You know, the old days it was 
Truman Hobbs Act in terms of obstruction to navigation but we 
really need to look at that as well.
    Senator Murray. Are there any efforts underway right now to 
identify or study how to improve some of the intermodal 
connections between rail and truck, seaports?
    Mr. Zelenka. At the individual State level I know there are 
in Oregon, and I believe in Washington as well. I would defer 
to probably the transportation department officials for a 
specific listing.
    Senator Murray. Thank you. Mr. Vanselow, we'll move the mic 
on down to you. In your prepared remarks you mentioned the need 
to improve our navigation channels. In seaborne trade it 
doesn't help to have land infrastructure that is efficient and 
reliable if our cargo vessels can't move in and out of our 
seaports. The ports all along the Columbia have done a great 
job of improving the technology of intermodal connections at 
their facilities, but channel accessibility is having an impact 
on business today. Your association represents ports up and 
down the Columbia. Can you talk a little bit about what some of 
the needs are that are common among these ports that will 
improve port access?
    Mr. Vanselow. Well, one thing I think that what we may want 
to start with is the fact that we have a system. And the system 
starts on the navigation side in Lewiston, Idaho, and so that 
one of the common elements is that barges are coming down the 
system to feed the ports whether it's grain at the United 
facility here in Vancouver or down in Kalama or in Portland or 
whether it's containers.
    So that we have a system that is in some degree of 
disrepair and we also have a system that's been difficult to 
maintain. We have not had dredging on the Snake River now for 
3, actually, 4 years, and we're hoping that we will get to a 
position to be able to do dredging next year in this current--
--
    Senator Murray. I'm surprised it's taken this long in a 
hearing to have that word to come up. Thank you.
    Mr. Vanselow. It is a key factor for us. Then as we look 
down, we have failing infrastructure. We have lock gates that 
are failing. We have lock walls. I know that your staff was 
upriver at some of the dams taking a look at that just 
yesterday.
    So we have to do the maintenance that's necessary to keep 
the feeding system or the feeder to the lower Columbia ports 
open. Then in the deep draft side we have a 40-foot channel 
that is restrictive of cargo primarily for grain and for 
containers. And we can have dramatic improvements. We 
appreciate that last year you were able to get some funding 
into the appropriations bill, and, again, so far, it's looking 
as though there is some funding that will be coming forward in 
fiscal year 2004. But we need significantly more. We're looking 
to the Federal Government for roughly $95 million and we got $2 
million last year, and if we're successful in conference, 
presumably we'll end up with $5 million this year. It's a 
start, but it's a slow start and we'll be moving more slowly 
than would be economically efficient. So we're looking forward 
to finding a way to increase the appropriations for the channel 
deepening.
    Finally, on the lower Columbia as far as the multiple ports 
in Oregon and Washington, is the fact that there are problems 
with deteriorating jetties, both the north and south jetty and 
there is funding that you helped to secure to do some study of 
that, but it will be an expensive proposition to solve the 
problem.
    And then finally, while not the ports that you mentioned, 
we do have issues down in Ilwaco and Chinook. There's a dredge 
in Ilwaco today doing work to dredge their channel to keep 
their channel open. In fact, to reopen their channel. It has 
been at less than authorized depth. Chinook, if we are 
successful, both the House and the Senate for fiscal year 2004 
put money into the budget for Chinook, but--about $500,000 in 
both cases. The mobilization of the dredge to get from 
Vancouver, Washington, down to Ilwaco was $190,000.
    So we're working with your staff and with others at the 
Corps of Engineers trying to find a way to get that dredging 
done this year so that if we're going to spend $500,000 we get 
$500,000 worth of dredging rather than $300,000 worth of 
dredging. So there are a number of issues to both maintain and 
improve navigation on this system that are reaching critical 
stages and significant amounts of funding, and we need to do 
some planning as to how we can accomplish over the next 5 to 10 
years some rather dramatic investments on the system.
    Senator Murray. Thank you. Mr. Zelenka, you mentioned the 
word ``security'' in your testimony. It is one of the realities 
of life today that transportation has new costs associated with 
it concerning the security regime that has been put in place 
since September 11, a necessary cost, but one that we are 
trying to work out and not impact economic development.
    Can either of you talk to me a little bit about what the 
ports are doing to try to ensure security without passing huge 
costs onto their customers?
    Mr. Zelenka. I think the answer is probably we don't know. 
Certainly there's a big difference between aviation versus the 
maritime side. In general my sense is the waterborne side. The 
main terminals feel that all the costs are being pushed on to 
the--solely on to the private sector, so that is a challenge. 
Our company has a series of private terminals. We're in the 
midst of doing the details, security planning, assessment work 
that Congress has put in place as requirements.
    We already have in a number of the requirements, the 
fencing, and the ID's, and the cameras, but the additional 
costs I think still are unknown of just how detailed those are 
going to have to become.
    Mr. Vanselow. The ports up and down the river system and 
along the coast and up in Puget Sound are all looking at their 
vulnerabilities and identifying and initiating projects to 
address those vulnerabilities. One of the issues that Tom 
raised is on a national basis the Transportation Security 
Administration has estimated that port security costs will be 
in the neighborhood of $7 billion. A part of your question was, 
how are the ports attempting to increase their security 
capability without passing those costs on to customers, and so 
far they have not found a way to address that. We have not 
gotten to the point to where we are spending the bulk of that 
anticipated $7 billion. We're in the early phases. The security 
assessments, while they are--they do cost money. They are not--
they are not in the multimillion dollar arena. We have 
appreciated very much that the grant programs, which you have 
supported, have assisted ports in Puget Sound. Port of 
Vancouver got a small grant, Port of Portland a small grant and 
the Regional Maritime Security Coalition on the Columbia River 
got a grant to try to find ways to--the Regional Maritime 
Security Coalition is a program to try to find ways to use the 
information networks and the chain of custody of cargo to 
identify risks while reducing impacts on those 99.9 percent of 
the cargos that are not at high risk.
    But we do have a significant question, the new rules that 
have just come out from the Coast Guard are not clear. People 
don't know whether the rules apply to their port or not or to 
their cargo facilities or not. They don't know whether they 
apply to their passenger facilities or not. So there's a great 
deal of uncertainty of what they must do by Federal law. 
There's also a great deal of uncertainty even if they are not 
covered by the Federal law if there are issues related to 
liability. If an event were to occur the law says you're not 
covered, you don't need to do this work, but then there is 
concern on the part of the ports and those elected 
commissioners that there may be liability in their communities 
if an event does occur on their facility if they haven't done 
the due diligence.
    And so we're still struggling with how to get some of those 
initial questions answered, the initial assessments done and we 
haven't yet turned to the big dollar questions of, okay, now 
that we've done the assessments, how do we secure the facility.
    Senator Murray. We have many challenges. We'll be working 
with you on that.
    Mr. Vanselow. I look forward to that. Thank you.
    Senator Murray. Mr. Parker, let me turn to you. Washington 
and Oregon have shared one other statistic, unfortunately, for 
the last several years and that's that we have the highest 
unemployment in the Nation between the two States and Alaska. 
Numerous reasons for that, from bursting the hi-tech bubble, to 
9/11, to the aerospace industry, to markets in Asia. Thousands 
of workers have been laid off in both of our States. But one 
area where opportunity exists for us is in the transportation 
construction business. We know that for every $1 billion spent 
on transportation over 47,000 new family wage jobs are created. 
And I think that is an important statistic we need to keep in 
mind as we invest in transportation, particularly in the 
Northwest right now as we're struggling.
    Mr. Parker, could you outline for the committee what is 
organized labor's role in promoting new construction jobs in 
this region?
    Mr. Parker. Yes, ma'am. What we were looking for is to help 
shape public opinion to help focus it on the need. We as 
organized labor are not necessarily trying to drive and 
prioritize which form of transportation is No. 1. There are 
professionals and very great people from our group and from the 
community who can drive that.
    We do agree with you that family wage jobs are very driving 
factors for organized labor. We stand ready to help America 
rebuild. But to prioritize which job we would like, we would 
look forward to help rebuilding America through our work.
    Senator Murray. Thank you very much. Mr. Kalinowski, as an 
employer, you know that when employees suffer from those long 
commute lines and show up late and commercial products are 
delayed getting to you or being sent from you it really impacts 
business, and we know business looks long term to make many of 
these business decisions and transportation is a critical part 
of that.
    What impacts have you felt from the increased congestion in 
this region whether it's our highways, or rails, or airports 
that's impacted your business?
    Mr. Kalinowski. Let me answer that from the hi-tech 
industry perspective. The greater Portland/Vancouver area is a 
hi-tech cluster. And what I mean by that is there are scores of 
hi-tech companies throughout the area. They're all interlinked. 
They're interlinked through employees, they're interlinked 
through vendors, they're interlinked through suppliers. If I 
have, for instance, a tool-down situation, I need a part and 
the part is across the river, I need to get that part 
immediately. I can't afford to have that tool down waiting for 
parts to come across the river or be caught up in congestion. 
It hurts our business significantly.
    The biggest cost to our business is the equipment. I 
mentioned our facility costs are $3.6 billion. Two-point-six 
billion dollars of that is our equipment. We have to keep our 
equipment running all the time. So we need the supplies, we 
need the parts, we need the people to run that equipment. We 
can't afford to have the roadway slow that down.
    So I think the I-5 corridor, the 205 corridor and the 
roadways are very important to us at this point in time. We 
also connect ourselves to the airport. All our product is 
shipped via air. And it's very timely that we have to get to 
the airport in a very quick manner. So that is the other part 
that we have to have good access to the airport and that takes 
us across the river from our perspective. So those are the 
major impacts that we've had. So we need to get our employees 
to work, we need to get our suppliers and our vendors there and 
we need to get our----
    Senator Murray. And grow your industry, that's our goal.
    Mr. Kalinowski. Thank you.
    Senator Murray. Very good. I want to thank all of our 
witnesses today. That concludes this panel's testimony. Before 
I close, I do want to thank several people that are here with 
us today, Theresa Wheel, who is the district director to 
Congressman Baird; Bill Gunley, City Council, City of 
Battleground who has been with us; Betty Sue Morris, Clark 
County Commissioner, who is here as well; and, of course, Craig 
Pridemore, who testified from the Clark County Commission.
    In particular I want to thank the Clark County 
Commissioners for letting us hold our field hearing here in 
their facility today and for their hospitality. It's greatly 
appreciated. I want to thank all of our witnesses for their 
testimony today, particularly, again, recognizing Senator 
Hatfield who has contributed so much to this region and the 
Clark County Commissioners as well.

                    ADDITIONAL SUBMITTED STATEMENTS

    I want to reiterate for all of you, that this record will 
remain open for 15 days for anyone who wants to submit any 
comments or testimony to the committee on any of the topics 
that were covered today. And if you are interested in doing 
that, please check with my staff afterwards and they will tell 
you how to make that happen.
    [The statements follow:]
  Prepared Statement of Lynne Griffith, Executive Director/CEO, Clark 
      County Public Transportation Benefit Area Authority (C-TRAN)
    Senator Murray and Members of the Subcommittee, I am Lynne 
Griffith, Executive Director/CEO of the Clark County Public 
Transportation Benefit Area Authority, also known as C-TRAN. On behalf 
of the C-TRAN Board of Directors I would like to thank you for the 
opportunity to submit testimony following the August 13, 2003, Senate 
Field Hearing held in Vancouver, Washington. I was present at the 
hearing, as were several C-TRAN Board members, and it is an honor to 
contribute to the important discussions that occurred regarding the 
challenging transportation issues present in Southwest Washington and 
in the Portland/Vancouver region.
    C-TRAN has provided bus service in Clark County and to and from 
Portland, Oregon for the past 22 years. Our service district spans 
nearly all of Clark County and includes our county's most urban area 
and the State's fourth largest city, the City of Vancouver, as well as 
Clark County's smaller suburban communities including LaCenter, 
Ridgefield, Battle Ground, Yacolt, Amboy, Hazel Dell, Brush Prairie, 
Camas, and Washougal. Nine elected officials, representing these 
diverse communities, govern C-TRAN forming one of the few countywide 
transportation forums in Clark County.
    For the past several years C-TRAN has actively participated in the 
regional bi-State transportation discussions. C-TRAN served as a task 
force member throughout the I-5 Transportation and Trade Partnership 
Study, sits as a voting member of the Southwest Washington Regional 
Transportation Council (RTC), is a member of the Bi-State 
Transportation Committee, partners with TriMet in numerous ways, and 
participated in the community's Transportation Priorities Project 
(TPP)--Dream It, Fund It, Build It.
    C-TRAN's Board of Directors unanimously supported the I-5 
Partnership's Strategic Plan recommendations and welcomed the citizen-
driven Transportation Priorities Project and the citizen feedback that 
resulted from that effort. The Board immediately took steps to 
implement solutions that supported the transit related priorities of 
both projects and in so doing, directed the C-TRAN staff to involve the 
public in the development of a 20-Year Transit Development Plan. This 
work is underway and will specifically look at service alternatives 
that address several funding scenarios for C-TRAN as well as the 
transit elements identified in the I-5 Partnership's Strategic Plan.
    The plan being developed by C-TRAN is not another independent 
planning effort. It is an action plan that synthesizes the planning and 
public involvement efforts completed in the past several years by the 
I-5 Transportation and Trade Partnership Task Force, the Southwest 
Washington Regional Transportation Council, the City of Vancouver, 
Clark County, the Transportation Priorities Project, and C-TRAN. The 
20-Year Transit Development Plan reflects the transit elements 
addressed by each of these agency efforts and will incorporate aspects 
of the I-5 Partnership's Strategic Plan, Vancouver's Transportation 
System Plan, the county's update of the Comprehensive Land Use Plan, 
Phase I of the Transportation Priorities Project, and C-TRAN's 
exhaustive research and update of its 2002 Financial and Service Plan.
    The transportation challenges confronting Clark County and the 
Portland/Vancouver region will require continued analysis and plan 
development, bi-State coordination, public involvement, and a 
significant financial commitment by this region to realize the multi-
modal transportation improvements needed to keep our economy, services 
and goods, and citizens moving efficiently and effectively through our 
communities. The good news is that there is tremendous public 
participation, support, and momentum and a strong commitment by 
government, business, and community interests in Clark County to 
accomplish the improvements identified.
    The testimony provided by the Honorable Mark O. Hatfield is 
particularly relevant to Clark County's next steps in realizing the 
multi-modal transportation improvements suggested in the I-5 
Partnership Study. It will be necessary for us to prove that the 
transportation improvements desired are productive, efficient, and cost 
effective. This emphasizes the importance of our completing the 
required homework. C-TRAN supports completing an alternative analysis 
to determine the best transit solutions for Clark County and asks the 
Subcommittee to support the Southwest Washington Regional 
Transportation Council's request for $2.0 million to complete this 
essential study. C-TRAN also supports the regional funding requests 
made by other agencies including funding to begin the EIS in the I-5 
bridge influence area, to widen I-5 at Delta Park, to complete TriMet's 
Interstate MAX line, and to obtain a full funding grant agreement for 
TriMet's south corridor. C-TRAN also asks the subcommittee to support 
C-TRAN's funding requests for $6.4 million for bus and van replacement 
over the next several years, $1.6 million for the development of a new 
transit center in the Vancouver Mall area, and $1.2 million for 
continued deployment of Intelligent Transportation System (ITS) 
technology.
    Senator Murray, you and the subcommittee have supported C-TRAN on 
numerous occasions and provided substantial Federal funding to improve 
Clark County's transit system. I would like to share with you the 
progress of several of the projects that you have helped to fund. C-
TRAN's newest transit center and park and ride, Fisher's Landing, is 
located in East Clark County, opened in the fall of 2000, and is 
operating today at near capacity. The 99th Street Park and Ride, a key 
new facility being built in the I-5 corridor, is in design and expected 
to be completed in September 2004. Thirty-four replacement transit 
buses have been acquired allowing C-TRAN to retire its 22-year-old 
commuter bus fleet. Each of these capital projects supports our very 
popular commuter bus service to Portland, which is also operating at 
near capacity.
    Expansion of the region's transportation demand management (TDM) 
strategies, including additional bus service, vanpools, and carpools, 
were also recommended in the I-5 Partnership's Strategic Plan. C-TRAN 
is aggressively pursuing TDM solutions that maximize our current 
infrastructure and resources wherever possible. C-TRAN supported the 
Washington State Department of Transportation's recommendation to 
continue the HOV lane project on I-5 from 99th Street to the Main 
Street exit and believes the project's future is linked to the HOV 
system being continued across the Columbia River and south on I-5. C-
TRAN has partnered with the Washington State Department of 
Transportation in conducting a regional vanpool study and C-TRAN 
actively participates in the City of Portland's Carpool Matching 
Program. These transportation demand management efforts are 
particularly important when factoring the limited Federal, State, and 
local dollars available for transit investments and are critical to the 
region given the lengthy timeframe associated with planning, funding, 
designing, and constructing major infrastructure improvements.
    In closing, C-TRAN supports the regional multi-modal transportation 
system improvements identified in the I-5 Partnership's Strategic Plan. 
We are committed to developing public transportation solutions that 
provide effective and competitive mobility choices to our citizens and 
will continue to work with other regional partners to realize the 
improvements envisioned in the I-5 Corridor. Again, thank you for the 
opportunity to add testimony to the August 13 hearing and for your 
continued support of Washington State's public transportation systems 
and C-TRAN.
                                 ______
                                 
Prepared Statement of Steve Clark, Chairman, Portland Business Alliance 
    Transportation Committee, and Gary Cardwell, Chairman, Pacific 
               Northwest International Trade Association
    Madam Chair, Members of the Senate Appropriations Transportation 
Subcommittee, on behalf of the members of the Portland Business 
Alliance (the Alliance) and the Pacific Northwest International Trade 
Association (PNITA) we sincerely appreciate the opportunity to provide 
written comments for your consideration as part of the Senate 
Appropriations Transportation Subcommittee Hearing.
    On July 1, 2003 the Alliance and PNITA formally merged as a 
combined business entity to expand our member's voice on international 
trade issues locally, regionally, and on the national stage. Our united 
membership now represents over 1,650 businesses comprised of both the 
area's largest private sector employers and hundreds of small business 
owners.
    Key among our members concerns is the critical role that 
transportation and more specifically freight mobility plays in the 
competitiveness and prosperity of the Portland/Vancouver region as well 
as the Northwest region. They understand that the Northwest economic 
health is directly related to trade within domestic markets and trade 
with global markets. Access to these markets is either enhanced or 
limited by the adequacy and efficiency of our transportation 
infrastructure.
    The convergence of surface transportation, rail, air service and 
port facilities in Portland and Vancouver makes the Interstate 5 (I-5) 
corridor, between the Interstate 84 interchange in Oregon and the 
Interstate 205 (I-205) interchange in Washington, an important 
crossroads for freight flows by all modes into, through and around this 
region. In addition, I-5's intersection with the Columbia River, 
connecting the Interstate system with deep water shipping, upriver 
barging and two water-grade transcontinental rail lines, makes it a 
natural crossroads for domestic and international trade.
    Our geographic good fortune and wise past transportation 
investments have created a transportation nexus for this region's 
economy. The Portland/Vancouver region is an established distribution 
area where we reap the benefits of a market area larger than our 
jurisdictional boundaries and our overall population base. Our ability 
to serve that broader market is directly linked to the ability of the 
transportation system to support business needs by moving products to 
market, particularly along the I-5 corridor. This is why we want to see 
road and rail improvements that support freight mobility and transit.
    We need to continue to take concerted action in these critical 
areas. Freight volumes in our region are projected to grow. The 
national commodity flow study shows volumes on the West Coast doubling 
in 20 years, and Metro's commodity flow forecast suggests freight 
congestion will increase by a measure approaching seven times the rate 
of automobile congestion during that same period.
    Over 10,000 trucks and 63 trains already move though the corridor 
every day. Half of the goods they carry come from or bound to the 
Portland/Vancouver metropolitan area. The value of these shipments is 
more than $24 billion a year, which is equivalent to one-third of this 
region's gross regional product.
    As a major distribution center for the West Coast, transportation 
is the means by which the businesses in this region reach other markets 
and remain competitive with the rest of the country. The size of our 
transportation and distribution industry is an indicator of the 
importance businesses place on the transport of products. Six thousand 
distribution and logistics companies combine to move goods to market, 
and these companies employ more than 100,000 people in the metro area. 
They represent about 10 percent of the region's workforce and with a 
payroll of $4.7 billion, they contribute about 13 percent of the 
region's total payroll.
    Within the 17 western States, the Portland/Vancouver Metropolitan 
area is the number one origin and the number two destination for 
tonnage moved by commercial vehicles. The Portland metro area is 
projected to be in the top five fastest growing origins and 
destinations for freight tonnage in the United States. I-5 is central 
to this region's ability to distribute products to market. The 
convergence of transportation and port facilities in the I-5 Trade 
Corridor makes it a crossroads for both north-south and east-west 
trade, and an international gateway to markets in Canada, Mexico and 
the Pacific Rim countries.
    Yet this corridor is the most congested in the region and one of 
the most congested in the country for road and rail freight movement. 
With 1,600 hours of delay daily for trucks in the I-5 corridor, a 
conservative estimate $60/hour for delay means about $26 million of 
productivity is lost annually by shippers and carriers moving in the 
corridor. Furthermore, these additional costs are not just borne by the 
shippers and carriers, but are passed on in a multiplier effect through 
the economy at a time when customers are saying, ``No more!'' In an 
economy in which the challenges of competing in a global marketplace 
require costs to be contained as much as possible, this leakage of 
resources is no longer acceptable to our members.
    Senator Murray, investments in transportation are not just 
investments in transportation. They are investments in the economy of 
the region and the States in which they are made or, in this case, the 
States which the I-5 transportation system adjoins and serves. As a 
result, targeted transportation investments not only put people to work 
in Portland or Vancouver, but they keep people effective and at work in 
far away communities and States which rely on the transportation 
investments made in the I-5 trade corridor. And those local jobs 
created, maintained and grown in the I-5 trade corridor, and in 
communities the corridor serves, pay income taxes that are returned to 
all levels of government.
    Access to domestic and global markets is either enhanced or limited 
by an adequate and efficient transportation infrastructure. Simply put, 
our members need a transportation system that can move our people to 
and from the workplace, and our goods and services to and from the 
marketplace. A sound transportation system is a critical element in our 
efforts to keep the region competitive for reinvestment and new 
investment.
    To that end, we would like to call the Committee's attention to a 
report that was prepared by Metro's Transportation Investment Task 
Force in December 2002 that outlines key projects, directions in 
partnered funding and developing regional, business and municipal 
commitment. It is a good plan and we strongly urge your support in 
funding this important strategy forward to implementation.
    We are not asking for a Federal silver bullet or a single, Federal 
solution. As illustrated by the Metro Transportation Investment Task 
Force recommendations, the Oregon Freight Advisory Committee, the I-5 
trade corridor committee, the efforts and the investments we support 
and are seeking Federal participation in are based upon State (and 
multi-State), regional and local investments. We are not simply asking 
for the Federal Government to do this on its own. The Metro report 
calls for about $1.9 billion in balanced, multi-modal investments, a 
small but critical portion is Federal. The rest would be State, 
regional and local investments.
    We know of your strong support in bringing Federal resources back 
to the Pacific Northwest. We urge you to continue your close work with 
the entire Pacific Northwest Congressional Delegation to accomplish 
these goals, and we look forward to joining that effort with you.
                                 ______
                                 
     Prepared Statement of the Transportation Investment Task Force
                 executive summary and recommendations
                                summary
    In July 2002, Metro Executive Officer Mike Burton appointed a task 
force of business and community leaders from Clackamas, Clark, 
Multnomah and Washington Counties (the Portland Metropolitan area), 
asking them to address a critical problem in our region: the need to 
fund key transportation improvements which meet the demand of commuters 
and businesses in order to maintain livability and support economic 
health. He charged the Task Force with recommending a package of 
highest-priority projects, along with revenue measures sufficient to 
pay for them.
    The Task Force reviewed the adopted capital investment plan for the 
region's transportation infrastructure, and the nearly $4 billion 
shortfall in expected Federal, State and local transportation funding 
that will flow to these projects. Discussions were held with State 
agencies and local governments that have responsibility for portions of 
the transportation system. The group also investigated a broad spectrum 
of revenue options. Public opinion polling and other mechanisms were 
used to assess the feasibility of these revenue options and the level 
of support for various transportation projects being considered.
                            recommendations
    The Task Force recommends that the Metro Council adopt its action 
plan as follows:
  --Approve a package of highest-priority transportation projects that 
        is balanced among transportation modes in its approach and in 
        meeting critical transportation needs throughout the region. 
        The selected projects should be those that can be implemented 
        quickly and provide the most immediate value to the region's 
        citizens. The recommended package includes three components--a 
        highway portion, a community streets and sidewalks portion, and 
        a transit portion. The total cost will be $521 million.
          This package addresses only part of a $4 billion shortfall in 
        capital funds for the area's transportation needs. More 
        effort--and other new funding--will be required to build, 
        operate and maintain the transportation infrastructure needed 
        for a livable metropolitan area. The impact of these projects, 
        and the other funds leveraged by this regional commitment, will 
        be significant.
          In addition to its transportation impacts, this 
        infrastructure investment will have a beneficial impact on our 
        economy. Over 12,900 person-years of employment in family wage 
        jobs will be created, at a time when they are badly needed.
          Highway Projects.--The highway package of projects is 
        intended to help alleviate traffic congestion, move freight, 
        and support the economic growth and livability of the region. 
        The package includes widening four sections of the regional 
        highway system from a current four-lane configuration to six 
        lanes: Highway 26 to 185th Avenue, I-5 in the Delta Park area 
        of North Portland, Highway 217 from Highway 26 to I-5 in 
        Washington County, and I-205 from West Linn to its interchange 
        with I-5. The Task Force also recommends building two new 
        planned facilities, the ``Sunrise Corridor'' in Clackamas 
        County and a connector road between I-5 and Highway 99W near 
        Tualatin.
          Community Projects.--A series of neighborhood-scale community 
        livability and congestion relief transportation projects is 
        included in the package. Here, the emphasis is on building 
        missing sidewalk connections, addressing congestion ``hot 
        spots'' and improving neighborhood main streets to create 
        better pedestrian environments and support local business 
        districts.
          Transit Projects.--To provide access to key employment and 
        residential centers, supply more transportation alternatives 
        and support the livability of the metropolitan area, the Task 
        Force recommends a package of transit improvements, which 
        includes building light rail from downtown Portland through 
        Southeast Portland neighborhoods to Milwaukie, a ``bus rapid 
        transit'' corridor along 99W/Barbur Blvd., connecting the 
        planned Washington County Commuter Rail project to the 
        Washington Square mall and assisting in the funding of the 
        planned light rail project along I-205 from the Gateway 
        district to the Clackamas Town Center.
          Funding.--The Task Force recommends a regional vehicle 
        registration fee increase of $15 per year that would generate 
        approximately $270 million for highway and community 
        transportation projects and a General Obligation bond measure 
        that would raise $251 million for transit investments.
  --Create an Accountability Committee.--This committee would be 
        composed of non-governmental representatives of the community 
        to oversee the implementation of these recommendations and to 
        help assure on time/on budget project delivery.
  --Ask the Task Force Members to Consider Further Service in the Next 
        Phase of this Effort.--The Transportation Investment Task Force 
        has brought the perspective and the credibility of non-
        governmental leadership to this critical community need. This 
        resource should not be lost.
  --Actively Participate in the Legislative Process During the 2003 
        Session of the Oregon Legislative Assembly and Congressional 
        Deliberations.--The recommendation of the Task Force can only 
        be fully accomplished if there are additional State and Federal 
        funds available to leverage the proposed local resources. The 
        Task Force should take an active role in advocating at the 
        State and Federal level for additional funding for these 
        projects.
  --Refine the List of Projects and the Selected Revenue Measures Once 
        New Information is Obtained.--Federal transportation 
        authorization and appropriation measures will be considered 
        next year, at the same time that the Oregon Legislature will be 
        considering transportation funding issues. The outcome of these 
        deliberations will affect the Task Force's recommendations.
                   committee findings and conclusions
                               the issue
    This metropolitan area has been growing at historic rates, but 
investment in the transportation system to accommodate that growth has 
not occurred. During the 1990's, the area's population increased by 
more than 250,000, and the daily vehicle miles traveled by that growing 
population increased by more than 6.8 million to approximately 26 
million miles per day.
    Meanwhile, there has not been an increase in revenues to adequately 
finance expansion of the transportation system to meet the needs of a 
growing population nor even to maintain the system that exists today. 
The end result is the following:
  --Without new effort and improvements, highway congestion will be 
        widespread and will increase to more than 38 percent of the 
        region's freeways by 2020.
  --The hours of delay on the road system due to congestion will cost 
        the freight industry more than $35 million every year and 
        motorists more than $255 million.
  --Roadways and bridges are failing. More than $100 million per year 
        is required to bring the backlog of necessary repair projects 
        to a tolerable level.
  --While transit ridership is increasing, it cannot grow at a rate 
        that would achieve the region's transportation goals without 
        increases in revenues for more buses and expansion of the light 
        rail system.
  --The total requirement to achieve the region's goals is $7.6 billion 
        over 20 years, or more than $380 million per year. Less than 
        half that amount is estimated to be generated given currently 
        available revenue sources.
  --Cars stuck in traffic are a threat to our air quality, wasting 
        energy resources, and eroding our quality of life.
  --Neighborhoods without sidewalks lack a basic ingredient of safe and 
        livable communities.
                               the charge
    On July 16, 2002, Metro Executive Officer Mike Burton convened the 
Task Force with this charge:

    ``The Metro Executive Officer's charge to the Transportation 
Investment Task Force is to propose a package of transportation 
projects, programs and matching funding proposals for critical elements 
of Metro's Regional Transportation Plan (RTP). The projects may include 
road, transit, bicycle or pedestrian components separated into packages 
that have different funding sources or mechanisms. This may result in a 
recommendation to the Council or other governments to place a measure 
on the ballot. It would also include recommendations for a strategy for 
the next legislative session as well as identifying local public or 
public/private initiatives to enhance transportation funding.
    Using the RTP as its framework, the Task Force will have sole 
responsibility for recommending the list of projects and funding 
mechanisms. The Task Force will also decide whether to develop a 
strategy for funding the entire shortfall contained in the RTP or the 
most critical elements of the plan. Metro's staff and an independent 
consultant will provide technical and administrative support for the 
Task Force.''
                         task force membership
    The Task Force was structured to include:
  --One chair from the private sector appointed by the Metro Executive 
        Officer;
  --Approximately 15 members from the private sector;
  --One Metro Councilor;
  --One representative from Clark County;
  --Two members of the Joint Policy Advisory Committee on 
        Transportation (JPACT);
  --One member of the Metro Policy Advisory Committee (MPAC); and
  --Metro Executive Officer (ex-officio).
                          task force approach
    The members of the Task Force have considerable experience as 
community leaders on transportation issues, and relied on that 
experience and their research to shape their approach. Although the 
Task Force was empowered to make its findings outside of the official 
governmental structure, it conferred with the Joint Policy Advisory 
Committee on Transportation (JPACT), local governments and State 
agencies throughout its deliberations, allowing local expertise to 
inform its choices, but relying on a strategic approach to the four 
basic questions facing it:
  --What are the most needed and publicly supported transportation 
        projects in the Portland metropolitan area?
  --What is the cost of an aggregation of the most critical of these 
        projects?
  --How would this package of projects be funded?
  --How quickly can proposed projects be implemented?
    The Task Force began its work by reviewing the Regional 
Transportation Plan, the 2040 Growth Concept and other regional 
policies. Initial presentations also reviewed the significant financial 
shortfall in funding for the planned improvements under the Regional 
Transportation Plan. National trends in transportation finance, recent 
polling data on public attitudes about transportation funding and 
projects, and recent efforts to pass transportation funding measures by 
referendum were also summarized and discussed.
                           policy background
    Oregon now ranks among the lowest States for transportation 
funding. The region has historically relied on Federal and State funds 
to pay for large capital projects in the Regional Transportation Plan, 
with some exceptions. The voters of the region approved General 
Obligation Bond funding for the local portion of the cost of the 
Westside Light Rail project, and Washington County voters have approved 
a series of property-tax-funded measures in the county's Major Streets 
Transportation Improvement Initiative (MSTIP). By and large, though, a 
combination of Federal and State funds, allocated regionally or 
distributed by formula to local governments, and city and county 
general fund capital dollars have built the region's transportation 
infrastructure. This strategy is not keeping up with the region's 
needs. Only once in the last decade has the Oregon Legislature approved 
new transportation funding, the exception being the Oregon 
Transportation Investment Act (OTIA), a $500 million statewide program 
approved in 2001.
    In addition, the region is also in a prolonged economic recession. 
Transportation investment to support key economic sectors should be one 
part of the recovery effort. Finally, in all surveys conducted by Metro 
and others, traffic congestion continues to be the No. 1 growth-related 
issue for citizens in the region.
                           policy objectives
    The Task Force determined that projects selected for funding 
consideration should maximize to the degree possible the following 
objectives:
  --Enhance the regional economy (Projects that move freight, provide 
        access to terminals, or leverage commercial, industrial, or 
        mixed use development);
  --Relieve congestion (Projects that address key bottlenecks or 
        relieve existing traffic congestion);
  --Enhance community livability (Projects that assist in creating 
        notable places);
  --Provide a funding connection with other public or private 
        investment and enhance the function and operation of the 
        overall system;
  --Ensure construction begins within 3 years with full implementation 
        within 6 years from the time of voter approval;
  --Provide for a multi-modal system;
  --Ensure geographic balance; and
  --Leverage other transportation dollars, whether Federal, State, 
        regional, private or local.
                         project identification
    The Task Force next began to sort projects and develop a ``short 
list'' of key projects which fit the criteria and which would be easily 
understood by the larger public. Based on its adopted policy objectives 
for regional livability, economic health, relieving congestion, etc., 
the Task Force decided to adopt a working model of three project 
categories, and to look for the most critical investments in each 
category:
    Highway projects.--Move freight, relieve congestion, and support 
economic health by making improvements and additions to the regional 
system of major highways, regardless of whether these were State 
highways or part of the interstate system. This category is focused on 
limited access, regional highways and their interchanges.
    Transit projects.--Improve transportation choices, the environment 
and support complete communities by making capital investments in the 
transit system, including light rail, streetcars, buses, park-and-ride 
facilities or other capital facilities (shelters, ``Bus Rapid Transit'' 
improvements, etc.).
    Community projects.--Support neighborhood quality of life and 
remedy unsafe conditions by funding improvements to local major streets 
and to bike, pedestrian and trail systems. Although local in scale, the 
effect of these projects is felt regionally in providing transportation 
choices and in reinforcing local districts or neighborhoods.
    State agencies and local governments were interviewed by the Task 
Force and by a Projects Subcommittee, which, in the middle portion of 
the group's 6-month effort, focused on a possible project list. An 
initial project list for each of the three categories was drafted by 
the subcommittee and reviewed and approved for further research by the 
full Task Force.
                      revenue measures considered
    The Revenue subcommittee examined a variety of potential revenue 
sources for the three project categories, including:
  --Tolls and other direct user charges;
  --Tax Increment Financing;
  --System Development Charges;
  --Transportation Utility Fees;
  --Vehicle Registration Fees;
  --Fuel taxes;
  --Parking taxes (levied on parking spaces for business and commercial 
        uses);
  --General Obligation Bonds supported by property taxes;
  --Payroll taxes;
  --Vehicle excise taxes (levied as a percentage of vehicle sales 
        price); and
  --General retail sales taxes.
    The subcommittee ultimately recommended that the Task Force test 
the feasibility of five funding mechanisms, three for highway and 
community projects and two for transit projects. This segregated 
approach to revenue measures is necessitated by Oregon's Constitutional 
limitation on the expenditure of vehicle-related revenues.
    During its deliberations on possible revenue measures, the Task 
Force met with Representative Bruce Starr, who led transportation 
funding efforts in the 2001 session, and who is developing legislative 
concepts for the 2003 Legislature Assembly. Rep. Starr indicated that 
he plans to seek an increase in the State gas tax and the vehicle 
registration fee, with the proceeds to be directed into bridge repair, 
maintenance and capital improvements.
                         public opinion polling
    The Task Force contracted with Davis, Hibbitts & McCaig, Inc. (DHM) 
to conduct a survey of preferences and priorities for transportation 
projects and funding proposals among motivated voters in Clackamas, 
Multnomah, and Washington Counties. This telephone survey was conducted 
during November 2002.
    The sample size for the survey was 500 registered voters voting in 
at least two of the past four elections. Respondents were 18 and over 
and proportionately selected to reflect the population of the 
metropolitan area. The survey tested individual projects and revenue 
sources, and a variety of packages which combined them.
    A package approach.--All of the packages of transportation 
improvements described to poll respondents received very high levels of 
support, and every specific project tested in this survey received 
majority support from these respondents. However, each of the three 
packages--as well as the full package encompassing all three of the 
strategies--generally fared better than individual projects. This 
indicates that the traveling public perceives transportation solutions 
from a regional perspective.
    An appeal to balance.--The citizens of the region strongly support 
the proposed projects, as well as an approach to transportation 
investment, which provides a choice of modes, as shown by the following 
table:

------------------------------------------------------------------------
                                              Support         Oppose
         Transportation packages             (percent)       (percent)
------------------------------------------------------------------------
Transit Projects........................              74              25
Highway Projects........................              80              20
Community Transportation................              76              24
                                         -------------------------------
      Total Package.....................              78              19
------------------------------------------------------------------------

    The support for each package was very strong and comparable (74-80 
percent), for the transit, highway and community projects. The general 
public appears to recognize the value of multiple strategies to address 
the region's transportation demands.
    Geographic differences are not as pronounced as initially 
anticipated.--All of the respondents, regardless of where they lived, 
had an overarching preference for a balanced approach incorporating 
each of the three approaches. Multnomah County and Portland respondents 
expressed very strong (approximately 80 percent) support for the 
transit package, while still supporting the road package by more than 
70 percent. Citizens in Washington and Clackamas Counties reflected the 
opposite dynamic, supporting the road package by 85 percent, while 
still supporting the transit package by more than 70 percent.
    Though survey respondents were more likely to support projects near 
where they lived, the support level was generally not that much greater 
than the community at large. This may reflect a growing sense of 
connectedness citizens feel in the region based on commuting patterns 
or other factors.
    Funding options.--The poll suggests that the vehicle registration 
fee is a promising revenue source for the road-related needs. Because 
of the restrictions of the State Constitution, road-related funds are 
not available for transit. Among the sources tested for transit 
investments, none currently have majority support. The Task Force 
believes that the General Obligation bond has the highest likelihood of 
voter approval.
    Overall guidance and conclusions from the poll.--While the survey 
suggests that there is not a clear majority which supports any given 
revenue measure, the data suggest that a successful measure can be 
crafted. The combination measure of a General Obligation bond for 
transit projects and a Vehicle Registration Fee increase for highway 
and community projects polled higher than any of the other options to 
fund the package.
                       deliberation and decision
    The Task Force reviewed its proposed projects and revenue measures. 
They did this considering their charge, the region's policies and 
capital project needs as described in the Regional Transportation Plan, 
the Task Force's own objectives and criteria, and the findings of the 
public opinion poll. Recommendations were discussed, drafted and 
approved as follows:
                            recommendations
    The Transportation Investment Task Force submits the following 
recommendations to the Metro Council:
    Recommendation No. 1: Adopt the Task Force's proposed package of 
projects and revenue sources, and move it to voter approval as a 
package.--Following the charge given by the Metro Executive Officer, 
the Task Force has developed, and recommends that the Metro Council 
support a package of highest-priority transportation projects 
consisting of $270 million in highway and community transportation 
investments and $251 million in transit improvements. The recommended 
package is modally balanced in its approach and supports the livability 
of the region's communities in meeting critical transportation needs 
throughout the region.
    The package includes three components--a highway portion, a transit 
portion, and a more localized, community-level set of projects. These 
projects are all found in the adopted Regional Transportation Plan, but 
merit particular attention because they enjoy high levels of public 
support and will significantly and visibly make progress in improving 
the region's transportation system. The Task Force believes that the 
public will be more inclined to support a package that includes a 
combination of highway, transit and local improvements which 
distributes its benefits across many areas of the region.
Recommended Highway Projects
    The Task Force recommends a combination of highway investments 
which are intended to move regional freight, help alleviate traffic 
congestion, and support the livability and economic growth of the 
region. The package includes widening four sections of the regional 
highway system from a current four-lane configuration to six lanes: 
Highway 26 to 185th Avenue, I-5 in the Delta Park area of North 
Portland, Highway 217 from Highway 26 to I-5 in Washington County, and 
I-205 from West Linn to its interchange with I-5. The Task Force also 
recommends building two new planned facilities, the ``Sunrise 
Corridor'' in Clackamas County and a connector road between I-5 and 
Highway 99W near Tualatin. The recommended highway package assumes 
funding from State, Federal, and regional sources--some of it new 
revenue--to match the regional commitment:

                              [In millions]
------------------------------------------------------------------------
                                                          New Task Force
                         Project                              funding
------------------------------------------------------------------------
I-5 North...............................................             $41
Highway 217.............................................              30
Sunset Highway..........................................              20
Sunrise Corridor........................................              40
I-205...................................................              29
I-5/99W Connector.......................................              30
                                                         ---------------
      TOTAL.............................................             190
------------------------------------------------------------------------

    The new regional funding is expected to leverage $60 million in 
Federal funding and more than $400 million in new State funding.
Recommended Community Projects
    This component of the package helps ensure that transportation 
investments are made not just in large, regional facilities, but also 
``close to home,'' building projects which improve safety, relieve 
congestion ``hot spots'' and support neighborhood commercial districts. 
Examples are provided below, but the community projects portion of the 
package will require additional definition, since the Task Force has 
recommended a total amount and general categories without selecting 
each individual project. This process should be completed prior to 
sending measures to the voters.

                              [In millions]
------------------------------------------------------------------------
                                                          New Task Force
              Community project categories                    funding
------------------------------------------------------------------------
Neighborhood congestion ``hot spots''...................             $30
``Main Street'' boulevard improvements..................              35
Sidewalks where lacking.................................              15
                                                         ---------------
      TOTAL.............................................              80
------------------------------------------------------------------------

    Examples of community projects:
  --Construct sidewalks on Capitol Highway in Southwest Portland;
  --Improve the intersection of Murray Blvd. and Tualatin Valley 
        Highway;
  --Redesign Hwy. 8 in downtown Forest Grove as a community Main 
        Street;
  --Construct sidewalks on Railroad Avenue in Milwaukie;
  --Redesign Tacoma Street between the Sellwood Bridge and McLoughlin 
        Boulevard as a community main street;
  --Improve the intersection of Beaverton-Hillsdale Highway, Scholls 
        Ferry Rd. and Oleson Road;
  --Improve the intersection of Sandy Boulevard, Burnside and 12th 
        Avenue;
  --Construct sidewalks on 92nd Avenue between Powell and Foster Roads;
  --Reconstruct Grand Avenue and MLK Boulevard in the Central Eastside 
        as a community main street;
  --Construct sidewalks on Murray Boulevard between Scholls Ferry Road 
        and Tualatin Valley Highway;
  --Improve the intersection of Macadam Avenue and the Sellwood Bridge;
  --Construct sidewalks on First Avenue from downtown Hillsboro to 
        Glencoe High School;
  --Redesign NE 102nd Avenue in the Gateway district as a community 
        main street; and
  --Construct sidewalks on Fuller Road between Canyon and Harmony 
        Roads.
    The Community Projects portion of the package is expected to 
leverage almost $40 million of Federal funds and $40 million in other 
local contributions.
    The Task Force recommends funding the highway and community 
projects in this package by a regional vehicle registration fee of $15 
per year.
Recommended Transit Projects
    The Task Force recommends a package of transit improvements, which 
includes building light rail from downtown Portland through Southeast 
Portland neighborhoods to Milwaukie, a ``bus rapid transit'' corridor 
along 99W/Barbur Blvd., and connecting the planned Washington County 
Commuter Rail project to the Washington Square mall and assisting in 
the funding of light rail along I-205 from the Gateway district to 
Clackamas Town Center mall. We have assumed a combination of Federal 
and local funding sources to pay for the full capital cost of these 
projects, with new funding coming in the form of a General Obligation 
bond measure supported by a property tax rate of approximately $0.25 
per thousand of assessed value. This commitment of new regional funding 
to transit projects is expected to leverage approximately $900 million 
in other Federal and local funds. The light rail projects assume 
Federal project support at a 60 percent level. The Task Force also 
recognizes the need to increase the amount of revenue available for 
operation of the transit system due to the growing population and 
capital projects expansion.

                              [In millions]
------------------------------------------------------------------------
                                                          New Task Force
                         Project                              funding
------------------------------------------------------------------------
Downtown Portland/SE Portland/Milwaukie Light Rail......            $185
Bus Rapid Transit on Baurbur/99W........................              20
Washington County Commuter Rail--Washington Sq. Connect.              10
Assist in Funding I-205 Light Rail......................              36
                                                         ---------------
      TOTAL.............................................             251
------------------------------------------------------------------------

    Recommendation No. 2: Create an accountability committee of Task 
Force members and other interested citizens to maintain the basis of 
the Task Force's recommendations in the community, and to thus improve 
public acceptance.--Numerous surveys have shown, and recent experience 
has confirmed, that one problem facing transportation funding measures 
is a ``credibility problem'' of public agencies. Warranted or not, many 
citizens perceive that transportation agencies do not use current funds 
efficiently and therefore are wary of approving any additional funding. 
Providing oversight by a body of citizens could help ameliorate this 
concern and improve the package's chances of success. This 
nongovernmental oversight group should also assist in explaining the 
projects' benefits to the public and in assuring that the projects are 
delivered on time and on budget.
    Recommendation No. 3: Ask the Task Force members to consider 
further service in the next phase of this effort.--Although the 
Transportation Investment Task Force's members were asked to make a 6-
month commitment, the level of involvement and interest in this project 
by Task Force members is notable. This is a citizen resource that the 
Metro Council should continue to utilize. Many Task Force members would 
be willing to further assist the Metro Council and help implement these 
recommendations.
    The unique value of the Task Force as a primarily volunteer and 
private sector-based group working outside of the customary 
governmental process should be retained as well. This effort has been a 
successful example of a new approach.
    Recommendation No. 4: Actively participate in the legislative 
process during the 2003 session of the Oregon legislative assembly and 
in congressional deliberations.--The recommendations of the Task Force 
can only be fully accomplished if there are additional State and 
Federal funds available to leverage the proposed local resources. The 
Task Force should take an active role in advocating at the State and 
Federal level for additional funding for these projects.
    The Task Force recommends that a dialogue be continued with State 
legislative leaders and other interests who are planning a 
transportation funding effort in the next session. The Task Force 
believes that a coordinated effort is possible and mutually 
advantageous, and that the funding measures proposed for the 
metropolitan area are compatible with the measures currently being 
discussed for statewide application.
    The Task Force also recognizes the need for the 2003 Oregon 
Legislature to authorize an increase in the Tri-Met payroll tax, which 
will be needed to meet growing capital and operating needs in the 
transit system.
    Recommendation No. 5: Refine the list of projects and the selected 
revenue measures once new information is obtained.--Federal 
transportation authorization and appropriation measures will be 
considered next year, at the same time that the Oregon Legislature will 
be considering transportation funding issues. The outcome of these 
deliberations will affect the Task Force's recommendations. In addition 
to questions about State and Federal funding which should become 
clearer over the next 6 months, the Task Force believes that further 
research will be needed to refine the package, to better understand 
public attitudes about transportation generally, the proposed projects 
in particular, and the types and amounts of revenue measures being 
proposed.
                                 ______
                                 
                         Letter From Jim Howell
                                 Portland, Oregon, August 26, 2003.
Senator Patty Murray,
Senate Transportation Appropriation Subcommittee.
    Dear Senator Murray: This letter is intended to be part of the 
record of the Sub-Committee's Hearing held on August 13, 2003 
addressing the transportation problems affecting the Southwest 
Washington/Metropolitan Portland region.
                               background
    In January 2001, the States of Oregon and Washington started a 
project called the Portland/Vancouver I-5 Transportation and Trade 
Partnership to address the growing concerns about congestion in the I-5 
corridor between I-84 in downtown Portland and I-205 north of 
Vancouver.
    The Project Task Force's final recommendation is to widen I-5 to a 
maximum of three through lanes in each direction and build a new 
supplemental or replacement bridge across the Columbia River with up to 
two additional lanes in each direction and two light rail tracks. They 
also recommend adding rail capacity by pursuing rail infrastructure 
improvements required to accommodate anticipated 20 year freight rail 
growth in the I-5 Corridor while allowing for eight additional 
intercity passenger trains.
                             commuter rail
    Commuter rail was not a recommended option, not because it was 
looked upon unfavorably, but because the I-5 Rail Capacity Study which 
was done as part of this project, determined that there was 
insufficient capacity through Vancouver Yards, North Portland and over 
the existing railroad bridge for commuter rail service.
    We strongly believe that commuter rail is needed, in addition to 
light rail and more local road capacity if we are going to permanently 
solve the transportation problems in this corridor. We wish to point 
out that commuter rail does not ``compete'' with light rail. The two 
can work hand-in-hand to serve Clark County and Vancouver. They work 
together by connecting to one another--serving different sets of 
commuters based on origin and destination of those commuters. Because 
of this, many more persons can find a rail line close to their home, 
within walking distance or a short car drive. Commuter traffic on I-5 
goes down as a result, freeing up capacity for freight on I-5. Stations 
can provide for transfers between light rail and commuter rail, 
creating a network serving central Vancouver and connecting to the 
extensive light rail system throughout the Portland Metro area that now 
includes not only downtown Portland, but the Portland International 
Airport. The net effect will be a dramatic reduction in commuter 
traffic by automobile in the I-5 corridor.
    The I-5 Transportation and Trade Partnership Task Force is correct 
to put the light rail connection to the Portland system as a high 
priority. However, the substantial potential for commuter rail should 
not be ignored. This is the primary reason we are proposing a 
Vancouver-North Portland Passenger Rail Bypass that would, in addition 
to providing capacity for commuter rail, accommodate more high speed 
Cascade Corridor and long distance trains than is possible with the 
Task Force's recommendations. It also would greatly increase freight 
rail capacity by removing all passenger trains from BNSF's most 
congested tracks in Vancouver and North Portland.
    We offer the attached map (Figure 1) as an example of a passenger 
rail bypass in the existing rail corridor. Another example could put it 
further east next to I-5.
    Two commuter routes, one north to Ridgefield or Kelso, and another 
east to Washougal (Figure 2) would greatly reduce long distance highway 
commutes, thus reducing congestion on I-5 and SR500. These commuter 
trains would more than double the total number of passenger trains 
currently projected for this corridor over the next 20 years.
    These commuter lines could come into Union Station, but a decided 
preference would be a new rail station on the East Side of the River 
next to the Rose Quarter. Here, commuter trains can connect with all 
light rail lines including direct rail service to the Portland Airport. 
The beginnings of a true regional rail system could finally include 
Clark County and Vancouver, and this time by two different rail modes 
that would connect to each other in downtown Vancouver.
    Another advantage of a new passenger rail bridge over the Columbia 
is that it could accommodate, at minimal cost, a roadway on an upper 
deck connecting the West Vancouver truck traffic from Mill Plain Blvd. 
with N. Marine Drive near the Rivergate industrial area. This too will 
help trucks stay out of the heavy commuter traffic across the I-5 
Bridge, and will give them much faster passage from Vancouver's 
industrial area to that of Portland.
                          highway improvements
    I-5 and I-205 are the only options available for local travel 
between Oregon and Washington. The fact that there are 12 freeway 
lanes, with no alternative options, is one of the fundamental reasons 
for the horrendous traffic problems on I-5.
    Why is there no longer any arterial street access? U.S. Highway 99, 
the primary highway between Portland and Seattle, used to follow 
Interstate and Denver Avenues to Jantzen Beach and Vancouver. This 
arterial connection was severed in the 1960's when the Minnesota 
Freeway (now I-5) was built. Access to Hayden Island became a freeway 
interchange and Denver Avenue dissolved into the freeway. It remains 
this way today.
    Many of the traffic snarls in this area, caused by local traffic 
entering the freeway, could be resolved without widening I-5. The most 
obvious solution is to disconnect Denver Avenue from the freeway and 
re-establish its connection to Hayden Island and Vancouver via local 
arterial lanes on the new bridges needed for light rail. The freeway 
could be streamlined to provide three through lanes on the existing 
southbound bridge span by providing an auxiliary lane to I-5 on the 
light rail bridge from downtown Vancouver and SR14. Local access lanes 
between downtown Vancouver and Hayden Island would negate the need for 
a northbound freeway access from Hayden Island which currently reduces 
the effective capacity of I-5 to two lanes on the northbound bridge 
(see Figure 3).
    Providing an integrated light rail, freight rail, commuter rail and 
highway solution to the transportation problems rather than a 
fragmented effort that deals with the various modes separately will 
more efficiently solve the transportation problems affecting the 
Southwest Washington/Metropolitan Portland region.
                                                         Cordially,
                                                Jim Howell.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                         CONCLUSION OF HEARING

    Senator Murray. With that, this does conclude the field 
hearing. The subcommittee is recessed according to the call of 
the Chair. Thank you very much.
    [Whereupon, at 12:26 p.m., Wednesday, August 13, the 
hearing was concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]

                                   - 

</pre></body></html>
